<html>
<title> - WATER-ENERGY NEXUS</title>
<body><pre>[Senate Hearing 111-19]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 111-19

                           ENERGY-WATER NEXUS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

 RECEIVE TESTIMONY ON ISSUES RELATED TO S. 531, A BILL TO PROVIDE FOR 
THE CONDUCT OF AN IN-DEPTH ANALYSIS OF THE IMPACT OF ENERGY DEVELOPMENT 
  AND PRODUCTION ON THE WATER RESOURCES OF THE UNITED STATES, AND FOR 
                             OTHER PURPOSES

                               __________

                             MARCH 10, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
49-408                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 20402-0001









               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel

















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bauer, Carl O., Director, National Energy Technology Laboratory, 
  Department of Energy...........................................     3
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Bolze, Stephen, President and Chief Executive Officer, Power & 
  Water, GE Energy, Schenectady, NY..............................     7
Corker, Hon. Bob, U.S. Senator From Tennessee....................     2
Gleick, Peter H., President, the Pacific Institute, Oakland, CA..    13
House, Lon W., Ph.D., Energy Advisor, the Association of 
  California Water Agencies, Cameron Park, CA....................    24
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................    30
Webber, Michael E., Ph.D., Assistant Professor, Department of 
  Mechanical Engineering and Associate Director, Center for 
  International Energy & Environmental Policy, The University of 
  Texas at Austin, Austin, TX....................................    17
Williams, Peter, Ph.D., Chief Technology Officer, ``Big Green 
  Innovations'', IBM.............................................    52
Wodder, Rebecca R., President, American Rivers...................    52

                                APPENDIX

Responses to additional questions................................    59

 
                           WATER-ENERGY NEXUS

                              ----------                              


                        TUESDAY, MARCH 10, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why don't we go ahead and get started. 
Senator Murkowski is on her way, but has been delayed a little 
bit.
    As I think most people who follow the activities of this 
committee are aware this is a continuation of a series of 
energy related hearings. The subjects that we have addressed in 
previous hearings involve matters that we'd had a lot of work 
in the committee related to before. Today however, we're 
dealing with something of a new subject. It involves issues 
likely to intensify in the coming years.
    Energy production requires substantial amounts of water. 
This is of course a resource that's becoming increasingly 
scarce in several parts of the country. Whether it involves 
electricity generation or fuel production the choice of fuel 
stock can dramatically influence the amount of water that's 
needed as part of the process of producing that energy. That 
nexus is starting to emerge in permitting decisions around the 
country.
    Similarly acquiring, treating and delivering water itself 
consumes a very large amount of energy. Improving water use 
efficiencies may yield multiple benefits in the form of reduced 
water demand during times of shortage and reduced energy 
consumption with the intended cost savings that result from 
that reduced energy consumption. So given the importance of 
these issues the need to highlight the relationship between 
water and energy, Senator Murkowski and I introduced S. 531, 
the Energy and Water Integration Act of 2009.
    I believe this bill is a good first step toward integrating 
energy and water policy. We may need to do more. I look forward 
to today's testimony to help inform our understanding on these 
issues.
    Developing new policies that integrate energy and water 
solutions will become increasingly vital as populations grow 
and environmental needs increase and a changing climate 
continues to affect our energy and water resources. We're lucky 
to have a group of well qualified witnesses here today to give 
their views on the bill, discuss the energy water connects--the 
energy water nexus in general. We appreciate their being here.
    I'm sure Senator Murkowski will have some opening comments 
when she arrives. Let me ask if Senator Corker has any opening 
comments he wants to make before we start.
    [The prepared statement of Senator Mark Udall follows:]
   Prepared Statement of Hon. Mark Udall, U.S. Senator From Colorado
    Mr. Chairman, I am very pleased to be able to participate in 
today's hearing on the water-energy nexus.
    Water plays a critical role in the production of the energy that 
powers our society, especially energy derived from fossil fuels. For 
example, many coal-fired electric plants burn coal to heat water and 
produce steam--it is this steam that actually generates the power. To 
undergo this process, not only is water pulled from the local 
environment, but some of it also evaporates and is lost.
    Energy production, as we all know, is very important. But there are 
other critical ways that we use water every day, including drinking and 
cleaning. Water also plays a vital role in our food production, for 
both grain and livestock.
    These many uses of water unfortunately can cause conflict because 
water is a limited resource. Especially in the arid west, who has 
access to water determines who will succeed.
    In recent years, that conflict has become more noticeable as the 
western U.S. has experienced severe drought conditions. The impacts of 
drought are costly in both lives and dollars. Drought conditions set 
the stage for wildfires, crop failures, decline in recreation and 
tourist activities, impacts on energy production, and other harmful 
effects.
    That does not mean that the federal government should become a 
water regulator and create winners and losers based on water rights.
    It does mean that all of us--from individuals to businesses to 
government--should work to make our water use more efficient, 
especially when it comes to energy production.
    I am looking forward to hearing today's witnesses discuss these 
ideas. Thank you all for being here.

          STATEMENT OF HON. BOB CORKER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Corker. It's rare that I would do that as you know. 
But since Lisa is not here I might just make a couple. I first 
of all support us using all types of energy in this country. 
Really appreciate the Chairman's efforts, mostly, in that 
regard.
    I have found recently though when you look at water 
resources and you start talking about renewables the definition 
can be a little clouded. I know that for instance, renewable 
solar energy is less efficient and uses more water than 
nuclear, nearly ten times as much as many coal plants. So when 
you look at solar use in many of the drier parts of our country 
where there's a lack of water, you really wonder how renewable 
it is.
    The largest solar concentrating plant in the U.S. has been 
proposed for almost Gila Bend, Arizona. I don't want to 
pronounce it incorrectly. But they use between 940 and 1080 
gallons to produce one megawatt hour or about 1,000 homes.
    The largest nuclear plant in the United States is in Palo 
Verde in Arizona which uses 800 gallons to produce a megawatt 
an hour. It's the only one that actually uses municipal waste 
water to do so. The most efficient water using power plant in 
Arizona is in Springerville which is a coal plant. It's more 
efficient because it's at a cooler location, yada, yada, yada.
    So I think it's interesting, Mr. Chairman that we're having 
this hearing. Again, I support all types of energy uses. But I 
think it's very important to understand whether renewables in 
some cases especially in climates, it sometimes calls them to 
be more efficient in some ways, actually, is very depletive of 
water over time.
    So I thank you for having this hearing. I'm sorry for 
making an opening statement which is rare.
    The Chairman. Thank you for the comments. I'm sure we can 
get into those issues with the witnesses. So let me just 
briefly introduce the witnesses.
    Carl Bauer is the Director of the National Energy 
Technology Laboratory in the Department of Energy. Thank you 
for being here.
    Stephen Bolze is with GE Power and Water in Schenectady, 
New York.
    Peter Gleick. Is that the correct pronunciation?
    Mr. Gleick. It is.
    The Chairman. Gleick is with the Pacific Institute in 
Oakland, California.
    Michael Webber is with the Center for International Energy 
and Environmental Policy at the University of Texas in Austin.
    Lon House, Dr. House, is with Water and Energy Consulting 
in Cameron Park, California.
    So thank you all very much for being here. If you'd each 
take five or 6 minutes and give us your views on this set of 
issues and what we need to think about as we try to construct 
policy in this area. We would appreciate it.
    Mr. Bauer.

     STATEMENT OF CARL O. BAUER, DIRECTOR, NATIONAL ENERGY 
          TECHNOLOGY LABORATORY, DEPARTMENT OF ENERGY

    Mr. Bauer. Thank you, Mr. Chairman, members of the 
committee.
    I'd like to present a little bit of the Department of 
Energy's work in water and kind of an overview of some of the 
issues. I strongly agree with the observation that water and 
energy are codependent and intertwined in a very, very 
substantial way. Simplistically one might suggest that power 
generation from thermal sources, which is 90 percent of our 
electricity uses consumes 3 percent of the Nation's water, 
withdraws 40 percent, but consumes 3 percent.
    Treating water, pumping, moving waste water consumes 6 
percent of the Nation's electricity. So that gives you an 
indication of the interdependence. Production accounts for, as 
I said, 40 percent of the withdrawal, but is often confused to 
suggest that's the use.
    That water often goes back to its source, although there's 
a thermal loading on it. So it's important to realize that 
there's a consumption aspect of water use and energy 
production. Then there is withdrawal and kind of a borrowing 
and putting it back and making it available again. So there's 
an opportunity for water management in a different way than we 
presently practice to get more use out of the same water 
availability.
    As to the largest consumers of water and power generation--
I can't confirm your facts Senator Corker; and I don't dispute 
them, possibly the water use in the production of photovoltics 
is a part of that number. It's fairly high.
    But the largest consumer, on a routine basis for large 
power generation, are nuclear plants that consume 40 percent 
more than the pulverized coal plants which is the majority of 
the coal fleet. Although the IGCC power generation capacity, of 
which there are two operating plants in the country, consume 
about 40 percent less than the coal fleet. So I'm using the 
coal fleet as kind of a baseline standard. Then natural gas 
combined cycle plants consume about 40 percent less than--20 
percent less than IGCC or 60 percent less than the coal fleet.
    So our power generation fleet is very dependent on water 
for its efficiency and operation both for making the steam for 
efficient operation of it.
    The Chairman. Could you just clarify? You made this 
distinction between consumption of water and withdrawal of 
water which is recycled.
    Mr. Bauer. Yes, sir.
    The Chairman. Are the figures you just gave us consumption?
    Mr. Bauer. The figures I just gave you are consumption.
    The Chairman. Consumption.
    Mr. Bauer. So of that 3 percent that is consumed that's 
kind of how the different plants would utilize it. That figure 
of 3 percent is based on the existing fleet and the existing--
--
    The Chairman. The three percent? Tell us again what that 
is?
    Mr. Bauer. The existing fleet removes about 40 percent of 
the water that's available. It uses it and it puts it back in 
the lake, or the stream, or the river, wherever it is. It 
consumes 3 percent of the total water available.
    That is if you look at a plant with cooling towers, you see 
the white plume of steam and evaporated water. That would be 
considered consumed because you can't use it again until it 
rains. If I look at agriculture, they----
    The Chairman. Three percent of the water that is consumed 
in the country is consumed----
    Mr. Bauer. By power.
    The Chairman. By power production.
    Mr. Bauer. That's correct.
    The Chairman. One kind or another. Then you gave us 
statistics as to how nuclear compares----
    Mr. Bauer. Right.
    The Chairman [continuing]. To coal and other things.
    Mr. Bauer. That's right. Yes, sir. The whole point of that 
is while there's a large amount of water that's needed, much of 
it is not lost for further use. So that's important as you 
consider the impacts of power generation.
    You can't generate the power without the water. But the 
water isn't damaged and not available for use in the largest 
portion of it. So there's opportunities to handle that water.
    Presently we remove everything in parallel and put it back 
and it's kind of strange how it takes place. So that's a 
possible opportunity. For example, if it's thermal loaded which 
it would be after going through the cooling system, it still 
would be used for irrigation because the thermal load is not so 
great based on the standards that must be met not to harm 
plants.
    So instead of agriculture and power generating taking out 
the same source, in parallel you may get more use out of the 
water if you did some kind of a serial managed distribution of 
it. I'm not trying to meddle there. I'm just suggesting there 
are ways to look at trying to skin the cat a different way.
    One of the challenges I think that faces energy and water 
is the one that we all know is going on, and I'm about to run 
out of time here, which is the challenge of greenhouse gas 
management. The use of existing technologies to capture 
CO<INF>2</INF> out of the fossil fleet will substantially 
increase the power generation to parasitic makeup because the 
present technologies were never designed for the magnitude of 
removal.
    They are better than they were 10 years ago. We are working 
at DOE to rapidly improve them. But the separation technology 
requires a lot of energy. It also requires some additional 
water for the MEA cycles, monoethanolamine.
    That would also have impact on water because it would use 
more water and actually use it and consume it, not just utilize 
it. But it would also probably increase the cost of electricity 
substantially. With my time running out I would just like to 
make the point that a doubling of the price of electricity will 
probably raise the price of water from 25 to 40 percent 
depending on the distance the water is transferred.
    So for example Southern California gets water from Northern 
sources. It would have a 40 percent increase in the price of 
water to the consumer there if the price of electricity were to 
double. If I were up in a Northern portion of California, 
probably not more than a 25 percent range. It's the same across 
the country. So it isn't geographic and distance location 
because the electricity is all about handling the water, 
treating the water and cleaning the water.
    I thank you very much for your time. I will stand by to 
answer questions as appropriate.
    [The prepared statement of Mr. Bauer follows:]
    Prepared Statement of Carl O. Bauer, Director, National Energy 
              Technology Laboratory, Department of Energy
    Thank you, Mr. Chairman and Members of the Committee. I appreciate 
the opportunity to provide testimony on the U.S. Department of Energy's 
(DOE's) research program directed at reducing power plant water use as 
it relates to carbon capture efficiency and optimization.
    Of particular concern is the potential implication on freshwater 
requirements in a future in which carbon dioxide (CO<INF>2</INF>) 
capture technology is required to be installed on coal-based power 
systems. DOE's National Energy Technology Laboratory (NETL) projects 
that, in the absence of successful development of new advanced 
CO<INF>2</INF> capture and water management technologies, 
implementation of today's CO<INF>2</INF> capture technologies would 
significantly increase freshwater consumption by fossil-based power 
plants.
    In the absence of climate legislation, the latest Annual Energy 
Outlook from the Energy Information Administration forecasts that 
CO<INF>2</INF> emissions from the electric power sector would 
contribute over 40 percent of the Nation's annual energy-related 
emissions of CO<INF>2</INF> (equivalent) by 2030. Coal-based power 
plants would emit 84 percent of the power sector's emissions under the 
reference case scenario and, significantly, 95 percent of the 
cumulative CO<INF>2</INF> emissions from coal-fired plants, through 
2030, would stem from existing coal-fired plants (Figures 1-3, 
Appendix).* An additional 15 percent of power generation sector 
emissions emanate from combustion of natural gas. A carbon control 
regime that seeks to dramatically limit CO<INF>2</INF> emissions from 
the power generation energy sector will eventually need to encompass 
both existing and new coal-fired plants as well as natural gas-fired 
power plants. The comparative economics of retrofitting existing plants 
and adding new natural-gas and coal-based plants with carbon capture 
will come to the forefront.
---------------------------------------------------------------------------
    * All figures have been retained in committee files.
---------------------------------------------------------------------------
    Energy and water are indeed inextricably linked. Most Americans do 
not realize that they use more water turning on lights and running 
appliances each day than they do directly through washing their clothes 
and watering their lawns. This is because thermoelectric power 
generation facilities require large volumes of freshwater to operate, 
ranking just behind agricultural irrigation in terms of total 
freshwater withdrawal. These thermoelectric plants contribute over 90 
percent of the Nation's electricity and, in the process, account for 
about 40 percent of the Nation's freshwater withdrawal and about 3% of 
the Nation's freshwater consumption (Figure 4, Appendix).
    It is important to distinguish between water withdrawal and 
consumption. Withdrawal is the removal of water from any water source 
or reservoir, such as a lake, river, stream, or aquifer for human use; 
for power plants, the primary purpose of this withdrawal is cooling. 
Consumption, on the other hand, is that portion of the water withdrawn 
that is no longer available for use because it has evaporated, 
transpired, been incorporated into products and crops, or consumed by 
humans or livestock. Note that water withdrawal rates are two orders of 
magnitude greater than consumption (136 billion gallons per day versus 
4 billion gallons per day). This illustrates that most water withdrawn 
in power generation is not consumed, but returned to its source.
    By comparison, nuclear power plants consume approximately 40 
percent more water, and natural gas combined cycle plants consume 
approximately 60 percent less water than equivalent contemporary 
subcritical Pulverized Coal (PC) technology. Moreover, advanced 
technology coal plants offer the opportunity to significantly reduce 
the consumptive footprint, with integrated gasification combined cycle 
technologies--or IGCC--offering the greatest reduction at 40 percent 
less than that of a subcritical PC (Figures 5-6, Appendix).
    Although a number of commercially available cooling technology 
options--for example hybrid and dry cooling technologies--can reduce or 
mitigate water consumption for all generating options, they all result 
in added cost and increased complexity. In areas where water use is 
constrained, such as the arid Southwest or the currently 
droughtafflicted Southeast, increases in water consumption need to be 
met with careful consideration. Water withdrawal permitting 
requirements give the private sector the incentive it needs to advance 
existing cooling technology options, with the exception of the 
uncertainty associated with future requirements for carbon capture.
    Using today's technologies, efforts to capture carbon from the 
existing coal and natural gas plants, or from new fossil plants, would 
cause increases in water consumption--a big concern for some regions--
and may increase the cost of electricity, a concern for all.
    Capturing carbon from fossil plants requires the addition of 
several energy intensive processes, for example processes that use 
solvents to capture CO<INF>2</INF>, require energy to regenerate the 
solvent so it can be used again. Once the CO<INF>2</INF> is captured, 
it must be compressed for sequestration or beneficial re-use, with 
compressors usually having significant operating power requirements. 
These processes are common to both conventional fossil-based combustion 
processes as well as to advanced technologies such as IGCC. NETL 
estimates that the added energy requirements for these processes 
results in a significant increase in net plant auxiliary load, known as 
parasitic power, resulting in a decrease in net plant power output of 
15 percent to 30 percent. The requirement for additional systems could 
have significant reliability implications.
    NETL analyses indicate that efforts to capture 90 percent of carbon 
emissions by using current near-commercial carbon capture and storage 
(CCS) technologies on PC plants would more than double the amount of 
water consumed per unit of electricity generated. Studies of this 
consumptive footprint have indicated that IGCC with CCS has a 
comparative advantage, with water consumption significantly lower than 
that of postcombustion CCS technologies. Importantly, IGCC with 90 
percent CCS can have a consumptive footprint lower than that of a 
conventional PC power plant without CCS. Furthermore, the greatly 
reduced carbon footprint of IGCC with CCS and its low-water consumption 
compared to nuclear power plants may tend to focus future generation 
technology choices on capital costs related to water consumption as 
well as on CO<INF>2</INF> emissions.
    For instance, advanced coal systems with 90 percent capture emit 
CO<INF>2</INF> at rates substantially below that of existing and new 
Natural Gas Combined Cycle (NGCC) units. A comparable NGCC plant would 
capture over 65 percent of its emissions in order to release 
CO<INF>2</INF> at similar rates. The implementation of CCS on natural 
gas-fired plants would increase water demand in states such as 
California, where natural gas exceeds 50 percent of in-state 
generation. The use of today's post-combustion CO<INF>2</INF> 
mitigation technologies could have substantial economic impacts. IGCC 
technology would not increase the use of water relative to conventional 
post-combustion coal power without carbon capture. Ongoing research and 
development efforts for more cost-effective capture technology, 
including improved water-efficiency, deserves continued attention and 
support.
    NETL actively collaborates with other parties from industry, 
academia, state, and other Federal departments and national 
laboratories in efforts to mitigate the impact of carbon capture on 
water supply. Such activities have included recent collaborations with 
the Office of Electricity Delivery and Energy Reliability, and the 
North American Electric Reliability Corporation in analyzing the 
potential impact of the Clean Water Act 316(b) legislation on the 
Nation's power supply and reliability.
    NETL funds a significant amount of water-related extramural 
research, focusing on technologies to reduce carbon capture water use. 
Activities are further detailed in the Appendix.
    NETL actively works with the Environmental Protection Agency on 
drinking water issues related to CO<INF>2</INF> injection.
    Alongside NETL's expertise in power systems, such research and 
collaboration plays a vital role in understanding the complex 
interactions among energy, water, and the environment in the United 
States.
    In conclusion, DOE's Existing Plants, Emissions, and Capture 
Program has a successful track record and a promising future that will 
ultimately mitigate the impact of carbon capture on water supply.
    Mr. Chairman, Members of the Committee, this completes my 
statement. I would be happy to respond to any questions you may have.

    The Chairman. Thank you very much. Mr. Bolze, go right 
ahead.

   STATEMENT OF STEPHEN BOLZE, PRESIDENT AND CHIEF EXECUTIVE 
       OFFICER, POWER & WATER, GE ENERGY, SCHENECTADY, NY

    Mr. Bolze. Thank you, Mr. Chairman and members of the 
committee. My name is Steve Bolze. I'm the President and CEO of 
GE's power and water business.
    It's a pleasure to appear before this committee and discuss 
a critically important issue that's often overlooked, the use 
of water in the energy sector and also to offer GE's support of 
the Energy and Water Integration Act of 2009. If I could leave 
the committee with only two thoughts it would be these.
    One, 45 percent of all fresh water withdrawals in the 
United States are used for industry.
    Secondly, that percentage can and should decrease through 
the wider adoption of advanced water treatment technologies and 
reuse.
    Federal policies that include incentives that reduce the 
capital cost of installing advanced water treatment equipment, 
similar to those provided for the deployment of renewable 
energy technologies would drive significant water and energy 
savings. You've already witnessed the success of your policies 
in launching the U.S. into the world leader in wind generation. 
Similar actions are needed and possible to set us up the path 
to leadership in water reuse.
    Do you recognize the connection between energy and water? 
In fact in 2008 we integrated our power and water businesses to 
better meet customer needs and address these significant 
challenges. I run our power and water business which represents 
over 30,000 employees. We operate in 140 countries and had 2008 
revenue of 23 billion.
    Based on our experiences of over 50,000 customers globally, 
we believe there are significant energy and water savings to be 
gained by further studying the connections between energy and 
water. That we all know we need water for everything. In fact 
it is said our economy runs on water.
    Unfortunately water demand already exceeds supply in many 
parts of the world. As the world's population continues to grow 
many more areas are expected to experience the imbalance in the 
near future. The situation is no different here in the United 
States where most states expect water shortages over the next 
decade.
    The growing shortage of water also addresses our Nation's 
energy picture. Energy and water are codependent. In simplest 
terms energy is required for making water, as was mentioned 
earlier. Water is essential for making energy.
    Globally to give you a sense the demand for both these 
resources are projected to grow. With energy demand doubling 
and water demand tripling over the next 20 years. Fortunately 
we believe that industry can reuse much more water than it does 
today thereby freeing up scarce water resources for community 
purposes.
    We also believe that increased water reuse would result in 
lower overall energy consumption. With advanced technology 
funding will result in greater efficiencies than achievable 
today. For example GE is working with the University of Wyoming 
to develop advanced coal gasification. Such a process would 
enable customers to more cleanly use low rank coals, but also 
achieving 30 percent reduction in water consumption.
    In short we believe that this committee can play an 
essential part in helping to drive more water reuse in the 
United States. To that end we would like to offer the following 
three specific recommendations to the committee.
    First, support of the NAS Study. We believe that it would 
be valuable for the National Academy of Sciences to conduct a 
study on how the development of energy impacts our Nation's 
water supply as recommended in the draft legislation. GE would 
welcome an opportunity to contribute technical and market 
insights to the study.
    Second, incentives to accelerate more reuse. While we 
support the concept of the NAS Study to conform efficiencies 
available we believe that as we have seen in places like 
Singapore, Australia and other parts of the world. Incentives 
are necessary to drive greater reuse in the U.S. with our 
customers. Our feedback from our industrial customers across 
the Nation is that an investment tax credit of 30 percent would 
drive substantial increases in industrial water reuse.
    Third, advanced technology funding support. We support a 
continued commitment by Federal Government to conduct research 
and important desalination and would welcome an opportunity to 
partner with the public entities in this effort.
    So thank you for conducting this important hearing and for 
the opportunity to present this testimony. I look forward to 
your questions and working with you a little longer term to 
help on greater water and energy efficiencies. Thank you.
    [The prepared statement of Mr. Bolze follows:]
  Prepared Statement of Stephen Bolze, President and Chief Executive 
           Officer, Power & Water, GE Energy, Schenectady, NY
    Mr. Chairman and members of the Committee, my name is Steve Bolze 
and I am the president and CEO of GE Energy's Power & Water business.
    It is a pleasure to appear before your committee today to discuss a 
critically important but often overlooked issue--the use of water in 
the energy sector.
    If I could leave the committee with only two thoughts it would be 
these. First, 45% of all fresh water withdrawals in the United States 
are used by industry. Second, through the leadership of this Committee 
and your colleagues, that percentage can and should decrease--
especially through the establishment of incentives that reduce the 
capital cost of installing water management equipment, similar to those 
that Congress has provided for the deployment of renewable energy 
technologies.
    You have already witnessed the success of your policies in 
catapulting the United States into a world leader in wind generation. 
Similar actions are needed and possible to set us on a path to 
leadership in the area of water reuse.
    GE has long recognized the connection between energy and water. In 
fact, in 2008 we integrated GE's water and power generation businesses 
to better meet customer needs and address significant global 
challenges. GE Power & Water is a global leader with more than 100 
years of industry experience. Our global team of more than 30,000 
employees operates in 140 countries around the world, and had 2008 
revenues of $23 billion. As the following chart shows, GE Power & Water 
offers a diverse portfolio of products and services including renewable 
energy technologies such as wind, solar, and biomass, and fossil power 
generation, gasification, nuclear, oil & gas, water, transmission, and 
smart meters.*
---------------------------------------------------------------------------
    * All charts have been retained in committee files.
---------------------------------------------------------------------------
    I appreciate the opportunity to be here today to offer GE's support 
for the Energy and Water Integration Act of 2009. We believe that it 
would be valuable for the National Academy of Sciences to conduct a 
study on how the development of energy affects our nation's water 
supplies. In addition, we believe it would be beneficial for the 
federal government to identify best available technologies to minimize 
the use of water in the production of electricity. We believe that 
there are significant energy and water savings to be gained in the 
area.
                         the energy-water nexus
    Although energy gets a tremendous amount of attention, it seems 
like many people take clean water for granted. Perhaps that is because 
they have never been in a situation where quality water was not 
available when and where needed. The simple reality is that we need 
water for everything.
    Water is not only the lifeblood for humans, but it's also the 
lifeblood of industry. In fact, it could be said our economy runs on 
water. Unfortunately, water demand already exceeds supply in many parts 
of the world. And, as the world's population continues to grow at an 
unprecedented rate, many more areas are expected to experience this 
imbalance in the near future\1\.
---------------------------------------------------------------------------
    \1\ Greenfacts.org
---------------------------------------------------------------------------
    The situation is no different here in the United States, where most 
states expect water shortages during the next decade. Energy and water 
are co-dependent. In simplest terms, energy is required for making 
water and water is required in the production of energy. Globally, the 
demand for both of these crucial resources is projected to grow at an 
alarming pace, with energy demand doubling\2\ and water demand 
tripling\3\ in the next 20 years, as shown in the figure below.*
---------------------------------------------------------------------------
    \2\ DOE / EIA-0384 (2004)
    \3\ NETL 2006
    * All figures have been retained in committee files.
---------------------------------------------------------------------------
    As we prepare to meet the future electricity demands here in the 
U.S., it is estimated that water demands related to electricity 
production will almost triple from 1995 consumption levels. In 
addition, the deployment of technologies to meet expected carbon 
emission requirements will increase water consumption by an additional 
1-2 billion gallons per day.\4\
---------------------------------------------------------------------------
    \4\ NETL 2006
---------------------------------------------------------------------------
    Importantly, it is estimated that 45% of freshwater withdrawals in 
the United States is used for industrial purposes.''\5\ And nearly 90% 
of all industrial water--or 39% of all freshwater withdrawals--is used 
for the generation of power.\6\ Although power generation facilities in 
the United States today withdraw 136 billion gallons per day (GPD), 
they only consume 4 billion GPD (lost through evaporation, etc.). The 
vast majority of the water is used for once-through cooling water 
applications, and then returned to the receiving stream. Once-through 
cooling, however, consumes large amounts of energy to pump the water, 
and it also elevates the temperature of the receiving stream.\7\ It is 
often less expensive to pull water from a river or the ground than it 
is to reuse it.\8\ In addition, many power plants in the United States 
use potable water from municipal systems to meet their cooling and 
other needs.\9\ This places strains on community systems. If the 
cooling water needs could be met with reused wastewater, however, 
significant benefits would result.
---------------------------------------------------------------------------
    \5\ USGS. Estimated Use of Water in the United States in 2000, USGS 
Circular 1268, March 2004
    \6\ USGS. Estimated Use of Water in the United States in 2000, USGS 
Circular 1268, March 2004
    \7\ USGS, Estimated Use of Water in the United States in 2000, USGS 
Circular 1268, March 2004
    \8\ USGS, Estimated Use of Water in the United States in 2000, USGS 
Circular 1268, March 2004
    \9\ Wade Miller, Executive Director, WateReuse Association (2009)
---------------------------------------------------------------------------
    The following chart shows how water-intensive it is to produce 
electricity in a representative steam turbine plant. Water is required 
for virtually every aspect of producing electricity. An average 1,000 
megawatt power plant--like the one pictured here--requires more than 5 
million gallons of water per day.\10\
---------------------------------------------------------------------------
    \10\ Calculation based on EPRI Standards
---------------------------------------------------------------------------
    And, not surprisingly, it's not just inside the power plant where 
tremendous quantities of water are used in connection with the 
production of energy. The water intensive process begins with the 
production of oil. We understand from some of our customers who are 
major oil companies that they consume an estimated 7 to 10 barrels of 
water to process one barrel of crude oil from the well to the gas 
pump.\11\ Some oil recovery processes are particularly water-intensive, 
including Steam Assisted Gravity Drainage (SAGD), which uses 30-40 
barrels of water to produce one barrel of oil.\12\
---------------------------------------------------------------------------
    \11\ Conversations with GE Customers
    \12\ Conversations with GE Customers
---------------------------------------------------------------------------
    In many cases, the impaired wastewater from these processes is 
injected into deep wells, completely removing it from the hydrological 
cycle. Today, the US will consume over 20 million barrels of crude oil 
and petroleum products\13\, which will require 6 billion gallons of 
water to produce.\14\ Technologies are available today that can enable 
oil producers to reuse water many times over, greatly reducing water 
demand and protecting the environment, but they need the incentives to 
drive the right behavior.
---------------------------------------------------------------------------
    \13\ 13 EIA (Energy Information Administration) http://
www.eia.doe.gov/basics/quickoil.html
    \14\ (20MM bbls oil x 42 gal/bbl x 7 gal H2O/bbl oil)
---------------------------------------------------------------------------
    The good news is that technology advances in both power generation 
and water treatment are reducing the amount of water necessary to 
produce electricity. A recent EPRI study states that ``the larger the 
shift from coal and nuclear to natural gas, the greater decrease in 
water consumption for power generation (possibly as much as a 50% drop 
relative to the base case and a 35% drop relative to today's use)''. 
This report also emphasizes that ``water availability can constrain 
electricity generation siting and power production, both directly and 
indirectly.''\15\
---------------------------------------------------------------------------
    \15\ EPRI--Water & Sustainability (Volume 3): U.S. Water 
Consumption for Power Production--The Next half Century
---------------------------------------------------------------------------
    We believe that there is also good news on the coal front. The new 
GE IGCC coal generation plant is more efficient relative to water 
consumption than a traditional sub-critical coal-fired power plant. In 
Wyoming, for example, GE is working with the University of Wyoming to 
develop advanced coal gasification technology including a unique dry 
feed injection process. The development of this dry feed process will 
enable customers to more cleanly use lower rank coals from Wyoming, 
Colorado, Montana, Utah, South and North Dakota, while taking advantage 
of a 30% reduction in water consumption, through the use of IGCC 
(Integrated Gasification Combined Cycle) technology.
                    promoting greater reuse of water
    According to the WateReuse Association, the US today reclaims and 
reuses about 6% of its wastewater.\16\ In some countries, the level of 
water reuse is much higher. For example, Israel today is reusing 70% of 
its wastewater.\17\ Singapore is reusing 15%, but plans on doubling 
this amount to 30% in 2010.\18\ Australia currently reuses about 8% of 
its wastewater, but it has set a national target of reusing 30% by 
2015.\19\
---------------------------------------------------------------------------
    \16\ National Data Base of Water Reuse Facilities, WateReuse 
Association (2008)
    \17\ US EPA 2004 Guidelines for Water Reuse
    \18\ Source Ministry of Environment Website
    \19\ Wade Miller, Executive Director, WateReuse Association
---------------------------------------------------------------------------
    A number of countries around the world have enacted incentives to 
encourage more reuse.\20\ Singapore, for example, has created a Water 
Efficiency Fund that provides up to 50% of the capital cost of water 
recycling facilities.\21\ To the extent that incentives exist in the 
United States, they tend to be at the local level.
---------------------------------------------------------------------------
    \20\ Addressing Water Scarcity Through Recycling and Reuse: A Menu 
for Policymakers'' May 28, 2008 (http://www.gewater.com/who_we_are/
press_center/pr/05282008-Paper.jsp)
    \21\ Addressing Water Scarcity Through Recycling and Reuse: A Menu 
for Policymakers'' May 28, 2008 (http://www.gewater.com/who_we_are/
press_center/pr/05282008-Paper.jsp)
---------------------------------------------------------------------------
    We believe that industry can reuse much more water than it does 
today. In addition, it is clear that we can harness more municipal 
wastewater to provide for industrial needs. Rather than municipal 
wastewater plants treating and discharging water back to a receiving 
stream, by adding an incremental treatment process, either at the 
wastewater plant or at the industrial plant, this water can meet the 
needs of many industrial processes, including power plant cooling.
    Some 11.4 trillion gallons per year of municipal wastewater is 
being treated in the United States. Some communities are already 
treating this wastewater and using it for applications including power 
plant cooling water (e.g., Burbank, Las Vegas, Phoenix).\22\ A recent 
DOE-sponsored study looked at 110 new power plants proposed for 
construction in 2007 and found that municipal wastewater treatment 
plants located within a 25 mile radius from the proposed power plants 
could satisfy 97% of the new power plant cooling water needs. On 
average, one large wastewater treatment plant can completely satisfy 
the cooling demand for each of these power plants. Incentives to 
collocate municipal wastewater treatment plants and power generation 
plants in the future would go a long way toward providing sustainable 
sources of water, reducing freshwater withdrawal and energy 
consumption.
---------------------------------------------------------------------------
    \22\ ``Reuse of Internal or External Wastwaers in the Cooling 
Systems of Coal-Based Thermoelectric Power Plants, Radisav Vidic, Univ 
of Pittsburgh & David Dzombak, Carnegie Melon Univ Oct 2008
---------------------------------------------------------------------------
    A great example of this type of public-private partnership is in 
Tempe, Arizona, where demand for quality-reclaimed water is gaining 
momentum in water-challenged Arizona as commercial and industrial 
growth is increasing. Application of a GE technology solution enabled 
Tempe to realize 2.5 billion gallons of water per year through water 
reuse. The reclaimed water exceeds the state's Class A+ water reuse 
requirements, which allows it to be used in the widest variety of reuse 
applications. This water is now being used to meet the needs of a 
neighboring power plant as well as a new recreational lake.\23\
---------------------------------------------------------------------------
    \23\ http://www.gewater.com/who_we_are/audio-video/index.jsp
---------------------------------------------------------------------------
    A recent survey by the WateReuse Association of its more than 390 
organizational members for the purpose of identifying water reuse and 
desalination projects that are permitted and ``ready-to-go'' 
demonstrates that: 1) there is a robust demand for water reuse and 
desalination projects; and 2) communities across the U.S. are in need 
of federal support to undertake these projects. The survey identified 
more than 270 ``ready-to-go'' projects in 11 states with aggregate 
construction costs amounting to more than $5 billion.\24\ This level of 
construction activity would, if fully funded, translate into as many as 
185,000 new jobs.\25\ These new drought-proof supplies would provide a 
long-term reliable supply for the economic future of these communities 
and at a lower cost than depending on expensive imported water supplies 
from other watersheds.\26\
---------------------------------------------------------------------------
    \24\ ``Providing Safe, Secure and Sustainable Solutions for 
America's Water Needs,'' The WateReuse Association, January 2009
    \25\ ``Providing Safe, Secure and Sustainable Solutions for 
America's Water Needs,'' The WateReuse Association, January 2009
    \26\ ``Providing Safe, Secure and Sustainable Solutions for 
America's Water Needs,'' The WateReuse Association, January 2009
---------------------------------------------------------------------------
    Finally, we also believe that there are significant opportunities 
to reduce water consumption in the production of oil and natural gas. 
For example, to help minimize the environmental impacts and operating 
costs of their activities, heavy oil producers in Alberta are 
dramatically reducing their water consumption by using GE Water & 
Process Technologies' ecomagination-certified, ``produced water'' 
evaporating system in the oil production process.
    We also believe that--in general--reusing water will reduce energy 
consumption. By way of example, we calculated that an average sized 
1,000 MWh power plant that installs a water reuse system for cooling 
tower blow-down recovery would reduce the energy demand to produce, 
distribute and treat water by a net 15%, or enough to power over 350 
homes for a year.\27\
---------------------------------------------------------------------------
    \27\ Internal GE Calculation March 2009
---------------------------------------------------------------------------
                            ge's commitment
    At GE, we also see the importance achieving water and energy 
efficiencies across our own portfolio of businesses. In 2005, GE 
launched a global environmental initiative called ecomagination, which 
is our commitment to do the five major things showed on the chart 
below.

                    Ecomagination is a commitment to

                                        Double our research investment 
                                        . . . to $1.5B
                                        More ecomagination products . . 
                                        . $20B target
                                        Reducing greenhouse gas 
                                        emissions. . By 30%
                                        Reduce water consumption by 20% 
                                        by 2012
                                        Keep the public informed

    With respect to energy, we have committed to reduce our greenhouse 
gas emissions by 30% on a normalized basis (allowing for projected 
growth of GE's businesses), or 1% in absolute terms from 2006 to 2012. 
In addition, we have committed to reducing our water consumption by an 
absolute 20% during the same time frame. At the same time, we're 
working with our customers around the world to help them achieve 
similar efficiencies.
    In addition, GE is doubling its level of investment in clean 
research and development from $700 million in 2005 to more than $1.5 
billion by the year 2010. This research effort is focused on helping 
our customers meet pressing energy and water challenges.
             ge's white paper on water reuse policy options
    We believe that even though governments in water scarce regions are 
looking for ways to expand water recycling and reuse, they often have 
difficulty finding information on the policy options from which they 
might choose. So, on May 28, 2008, GE issued a white paper entitled 
``Addressing Water Scarcity Through Recycling and Reuse: A Menu for 
Policymakers,'' which draws on examples from around the world.
    Although this white paper provides only a representative sample and 
does not provide an exhaustive list of programs and policies, the four 
major types of policies being used to increase water recycling and 
reuse include the following\28\:
---------------------------------------------------------------------------
    \28\ Addressing Water Scarcity Through Recycling and Reuse: A Menu 
for Policymakers'' May 28, 2008 (http://www.gewater.com/who_we_are/
press_center/pr/05282008-Paper.jsp)

A. Education and Outreach
  <bullet> Recognition awards and certification programs
  <bullet> Information dissemination and educational outreach efforts
  <bullet> Reporting of water consumption, discharge, and reuse data
B. Removing Barriers
  <bullet> Modifying local regulations that require that all water meet 
        potable standards
  <bullet> Revising plumbing codes to allow dual piping
  <bullet> Alleviating stringent permitting and inspection requirements 
        for recycled water
C. Incentives
  <bullet> Direct subsidies
  <bullet> Reductions in payments to the government
  <bullet> Payments for reintroduction of recovered water
  <bullet> Pricing mechanisms
  <bullet> Regulatory relief for recycled water users
  <bullet> Government procurement of water recycling/reuse equipment
  <bullet> Structuring of water rights to reduce the use of potable 
        water
D. Mandates and Regulation
  <bullet> Requiring utilities to develop plans for recycled water
  <bullet> Restricting potable water to human or food related uses
  <bullet> Requiring the use of recycled water for certain large volume 
        activities, e.g., irrigation
  <bullet> Requiring water recovery systems
               ge's policy recommendations going forward
A. The NAS Study
        We believe that it would be valuable for the National Academy 
        of Sciences (NAS) to conduct a study on how the development of 
        energy impacts our nation's water supplies, as recommended in 
        the draft legislation. GE would welcome an opportunity to 
        contribute technical and market insights to the study.
B. Incentives to Accelerate More Reuse
        While we support the concept of an NAS study to confirm the 
        efficiencies achievable, we believe that--as we have seen in 
        places like Singapore--incentives are necessary to drive 
        greater water reuse in the U.S. Our feedback from our 
        industrial customers across the nation is that an investment 
        tax credit of 30% would drive substantial increases in 
        industrial water reuse.
C. Advanced Technology Funding Support
        Finally, we support a continued commitment by the federal 
        government to conduct research in the important field of 
        desalination, and we would welcome an opportunity to partner 
        with public entities in this effort.

    Thank you for holding this important hearing, and for the 
opportunity to present this testimony. I look forward to your questions 
now, and working with you over the longer term to help accomplish 
greater water and energy efficiencies.

    The Chairman. Thank you very much.
    Dr. Gleick.

STATEMENT OF PETER H. GLEICK, PRESIDENT, THE PACIFIC INSTITUTE, 
                          OAKLAND, CA

    Mr. Gleick. Mr. Chairman, Senators, thank you very much for 
the opportunity to come today to talk to you about this issue. 
I want to make three points.
    The first is energy requires water, sometimes a lot of 
water.
    The second is that water, the water systems of the United 
States require energy and sometimes a lot of energy.
    The third is that the failure to consider both energy and 
water together leads us to inefficiencies to make bad policies 
to do things that we shouldn't perhaps otherwise do. For that 
reason I applaud this bill which encourages the Nation to 
consider water and energy together in a more integrated way. 
It's a very important first step forward.
    So first, energy requires water. As we've heard already 
every energy system in the United States requires some amount 
of water to produce the kilowatt hours of energy that we 
require. But not all energy systems require the same amount of 
water. Typically, fossil fuel and nuclear energy systems 
require more water per unit energy than do renewables.
    But as Senator Corker mentioned that's not always the case. 
Solar thermal, geothermal, often requires more water per unit 
energy than some of the traditional sources. Solar 
photovoltaics and wind require almost no water.
    So as we develop our energy policy, if we're smart, we will 
think about the water implications and add those into the mix 
when we decide what we're going to do and where we're going to 
do it. Renewables in one place may make a lot of sense. But 
they may not in another place. Senator Corker's point is 
apropos there.
    Second, the Nation's water system requires energy to move 
water, to treat water, to clean water, to distribute water and 
to use water. All of those things require energy. But like the 
energy system not each aspect of our water system requires the 
same amount of energy. It takes different amounts of energy to 
move water or to treat it with different kinds of systems or to 
use water in the home.
    So when you think about how to save energy and to save 
water, thinking about the two things together makes a lot of 
sense. We want to do the things on the water side. But save the 
most amount of energy.
    In my testimony, in my written testimony, Figure four, I 
believe, is a pie chart that shows an example of the energy 
required to move water to San Diego, to use water in San Diego. 
It takes a lot of energy to move it from Northern California to 
San Diego, to treat it once it's there, to distribute it, to 
use it in the home, to collect it and then treat it again in 
the waste water plant. For a place like San Diego a significant 
portion of that pie is moving the water from Northern 
California to Southern California. You have to pump it over the 
Tehachapi Mountains or you have to move it from the Colorado 
River.
    A significant amount of energy is also required everywhere 
to use water, mostly in the home, hot water for heating, for 
showers, for washing machines, for dishwashers. It turns out a 
big fraction of the energy required for water is in the home. 
As a result policies that save water, better washing machines, 
low flow shower heads.
    We have national standards for those. Also save a 
tremendous amount of energy. So thinking about these two things 
together is incredibly important.
    Finally I offer in my written testimony some specific 
comments on the bill. Most of them are very minor. I'm not 
going to go over them here.
    One example though is in Section 6 in the required sector 
section. You might strengthen the requirement that we look at 
water use efficiency in a sense as an energy efficiency 
savings. The State of California concluded that some of the 
cheapest ways to save energy may turn out not to be energy 
efficiency programs, but water efficiency programs.
    You can save energy cheaper by saving hot water. That's a 
great example of thinking about things together. Maybe coming 
up with a different answer than you would otherwise have come 
up with.
    I also have a set of conclusions in my written testimony. 
Again, I'm not going to go through them. But let me highlight 
four.
    The first is let's pursue new appliance efficiency 
standards at the national level. We have appliance efficiency 
standards, mostly from an energy point of view. We could do 
better from a water point of view as well and save both energy 
and water.
    The second is let's pursue smart labeling of water 
efficient appliances as we've done in the energy sector with 
the Energy Star program. We're starting to do with water 
appliances as well.
    The third is let's promote research and development for 
traditional energy sources to figure out how to cut their water 
use.
    We're going to be using fossil fuels, nuclear for a long 
time. They use a lot of water. Let's see if we can figure out 
how to cut their water use. Both withdrawals and consumption 
are important.
    Finally, let's promote research and development and speed 
development of renewable energy systems which we're trying to 
do anyway from a climate point of view in order to save water 
as well. Thank you for the opportunity to testify. I'd be happy 
to answer any questions at the appropriate time.
    [The prepared statement of Mr. Gleick follows:]
   Prepared Statement of Peter H. Gleick,\1\ President, the Pacific 
                         Institute, Oakland, CA
---------------------------------------------------------------------------
    \1\ Dr. Gleick is President of the Pacific Institute, Oakland, 
California. He is an elected member of the U.S. National Academy of 
Science and a MacArthur Fellow. His comments reflect his own opinion.
---------------------------------------------------------------------------
    Mr. Chairman, Senators: thank you for inviting me to offer comments 
on the critical connections between energy and water in the United 
States. Water use and energy use are closely linked: Energy production 
uses and pollutes water; water use requires significant amounts of 
energy. Moreover, the reality of climate change affects national 
policies in both areas.
    Limits to the availability of both energy and water are beginning 
to affect the other, and these limits have direct implications for US 
economic and security interests. Yet energy and water issues are rarely 
integrated in policy. Considering them together offers substantial 
economic and environmental benefits and I support the effort to do this 
in the Energy and Water Integration Act of 2009.
         international and domestic water and energy challenges
    As we enter the 21st century, pressures on both our national water 
and energy resources are growing. Some recent headlines from around the 
nation tell the story:

  Drought Could Force Nuke-Plant Shutdowns
                The Associated Press, January 2008
  Sinking Water and Rising Tensions
                EnergyBiz Insider, December 2007
  Stricter Standards Apply to Coal Plant, Judge Rules; Activists Want 
        Cooling Towers for Oak Creek
                Milwaukee Journal Sentinel, November 2007
  Journal-Constitution Opposes Coal-Based Plant, Citing Water Shortage
                The Atlanta Journal-Constitution, October 2007
  Maryland County denies cooling water to proposed power plant
                E-Water News Weekly, October 2007
  Water woes loom as thirsty generators face climate change.
                Greenwire, September 2007

    Other nations are also feeling the challenges of energy and water 
problem: The Mayor of London recently rejected plans for a desalination 
plant on the grounds that it would require too much energy. A new 
desalination plant in Perth, West Australia, was build under the 
condition that new, renewable energy systems also be built in order to 
minimize its greenhouse gas contributions. A major wind farm was built 
to supply part of that plant's energy demand. The energy bill to 
operate the British water company, Thames Water, amounted to 17% of 
their total operating costs in 2007 and those costs are rising. Nuclear 
power plants in France were derated during drought because of 
temperature limits in rivers to protect ecosystems.
               the nation's energy system requires water
    Water is used in every phase of the energy cycle, as shown in 
Figure 1.* A substantial fraction--nearly 40%--of the nation's water 
withdrawals are used in the generation phase to cool power plants and 
produce energy. This is the largest single withdrawal of water in the 
United States. While most cooling water is not ``consumed,'' this level 
of water use is putting more and more pressure on regional supplies, 
and it may not be possible to satisfy all of the expected water needs 
of newly proposed powerplants. In arid and semi-arid regions, power-
plant water demand can be a substantial fraction of limited regional 
supplies.
---------------------------------------------------------------------------
    * Figures 1-4 have been retained in committee files.
---------------------------------------------------------------------------
    Far more water is required for nuclear and fossil-fuel energy 
systems than for most renewable energy systems, depending on cooling 
system type (see Figure 2). Moreover, some new fossil-fuel sources 
require substantial amounts of water during mining and processing, or 
contaminate large volumes of water making it unavailable for use for 
other purposes. These differences must be taken into account in 
national energy policy decisions.
               the nation's water system requires energy
    Capturing, treating, moving, distributing, and using water also 
require energy. Figure 3 shows the energy inputs for different phases 
of our water systems. To give you an idea for how substantial some of 
these energy demands can be, the single largest user of energy in the 
State of California is the State Water Project (SWP), which moves water 
from the mountains in the northern part of the state to the coastal 
cities in the south. The SWP uses an average of 5 billion kWhre per 
year. In order to pump 1 acre-foot of water (326,000 gallons) through 
the state system to Los Angeles requires an average of 3,000 kWhre of 
electricity. Figure 4 provides a pie chart breaking down the total 
energy required for water use in San Diego, showing the substantial 
amount of energy to move water to the region, and the even larger 
amount of energy to use water. Most of this energy goes to provide hot 
water, and substantial energy savings are possible by reducing hot 
water use. This startling assessment of the energy costs of water use 
can also be seen in the following estimate: Running the hot-water 
faucet for five minutes uses as much energy as burning a 60W 
incandescent light bulb for 14 hours.
    The growing understanding of these connections is beginning to lead 
to new state and national policies. California is beginning to regulate 
greenhouse gas emissions, including emissions from water utilities. The 
California Energy Commission recently calculated that 95% of the energy 
savings of proposed energy-efficiency programs could be saved at 58% of 
the cost through water-efficiency programs instead and this is leading 
to a rethinking of funding priorities for energy efficiency.

                         WATER AND ENERGY EFFICIENCY SHOULD  BE LINKED: CLOTHES WASHERS
----------------------------------------------------------------------------------------------------------------
                                                                Energy Use  kWhr per         Energy Use  per
                            Year                                        Load             Household  (kWhr/year)
----------------------------------------------------------------------------------------------------------------
1980 to 1990                                                                      3.9                     1,540
----------------------------------------------------------------------------------------------------------------
1990 to 1998                                                                      3.0                     1,190
----------------------------------------------------------------------------------------------------------------
Water-Efficient Washers                                                           1.6                       630
----------------------------------------------------------------------------------------------------------------
Source: Pacific Institute, 2004

    Table 1: The energy efficiency of washing machines has increased in 
recent years, and new machines also save significant amounts of water. 
Source: Pacific Institute, 2004. ``Energy Down the Drain.'' Oakland, 
California.
    Another indication of the links between energy and water use can be 
seen in Table 1, which shows how improvements in the efficiency of 
washing machines has led to a substantial reduction in energy use per 
load, and per household. New washing machines can cut energy demands by 
over 60% compared to earlier models, and they also save substantial 
amounts of water.
    As noted by the California Air Resources Board:

                  Water is one of the few sectors in California's 
                economy where the same policies can serve both 
                preventative and adaptive global climate change goals. 
                Making more efficient use of water will reduce our 
                demands on water resources and shrink the energy 
                consumption associated with water conveyance, pumping, 
                heating and treatment. California water policies can 
                therefore help the State to adapt to the effects of 
                climate change while also minimizing GHG emissions.
                    California Air Resources Board (February 11, 2008), 
                ``Technologies and Policies to Consider for Reducing 
                Greenhouse Gas Emissions in California.''
specific comments for changes in the ``energy and water integration act 
                               of 2009''
    Finally, I'd like to offer specific comments on the proposed bill. 
I commend the sponsoring Senators for proposing this bill, and these 
suggestions for corrections or modifications are modest. As my 
preceding testimony should make obvious, I strongly support the need to 
both analyze the links between water and energy and to develop national 
policies that can minimize the unnecessary use of both resources.
    Section 5(c)(2)C should read ``. . .to reduce the volume and cost 
of desalination concentrated wastes and to dispose of those wastes in 
an environmentally sound manner;''
    Section 6 should generally refer to water-related energy ``use'' 
rather than ``consumption.''
    Section 6. The amended text of Section 205 of the Department of 
Energy Organization Act should include a call to both collect and 
disseminate information on energy use as follows:

                  ``(1) IN GENERAL.--Not less than once during each 3-
                year period, to aid in the understanding and reduction 
                of the quantity of energy used in association with the 
                use of water, the Administrator shall conduct an 
                assessment under which the Administrator shall collect 
                and disseminate information on energy use in various 
                sectors of the economy that are associated with the 
                acquisition, treatment, delivery, and use of water.''
                  Section 6. In the ``Required Sectors'' section, the 
                following should be added after ``(D) domestic 
                purposes.''
                  ``The assessment described in paragraph (1) shall 
                also contain an analysis of the potential to reduce 
                energy use through improvements in water-use 
                efficiency.''
                    conclusions and recommendations
    Water and energy are tightly linked, but these links are poorly 
understood and rarely used in policy.

  <bullet> Decision makers and corporations should better integrate 
        energy issues into water policy and water issues into energy 
        policy.

    The failure to link these issues will inevitably lead to 
disruptions in the supply of both water and power.
    Water efficiency efforts can save substantial water (and energy) at 
lower cost, and faster, than new ``supply.''

  <bullet> Water efficiency should be given a higher priority by 
        resource planners.
  <bullet> Implement water efficiency programs at all levels designed 
        to capture multiple benefits.

    The climate implications of both water and energy policy are 
significant.

  <bullet> There are large opportunities for fast, cost-effective 
        reductions in emissions.

    National policies can help address both water and energy 
challenges. In particular,

  <bullet> Phase out irrigation, energy, and crop subsidies that 
        promote wasteful use of water and energy.
  <bullet> Pursue smart labeling of water efficient appliances that 
        also save energy.
  <bullet> Pursue new appliance standards.
  <bullet> Promote research and development for traditional energy 
        sources that reduce water withdrawals and consumption.
  <bullet> Promote research and development for renewable energy 
        sources that use little to no water.
  <bullet> Use alternative water sources such as reclaimed or saline 
        water for power plant cooling.
  <bullet> Encourage biofuels development that uses little water or 
        discourage water-intensive biofuels.

    I congratulate you for considering this vital issue and for helping 
to raise national attention on the need to re-evaluate and re-focus 
efforts on sustainably managing both our precious freshwater and energy 
resources. Thank you for your attention.

    The Chairman. Thank you very much.
    Dr. Webber.

  STATEMENT OF MICHAEL E. WEBBER, PH.D., ASSISTANT PROFESSOR, 
 DEPARTMENT OF MECHANICAL ENGINEERING AND ASSOCIATE DIRECTOR, 
  CENTER FOR INTERNATIONAL ENERGY & ENVIRONMENTAL POLICY, THE 
           UNIVERSITY OF TEXAS AT AUSTIN, AUSTIN, TX

    Mr. Webber. Mr. Chairman and members of the committee, 
thank you so much for the invitation to testify today. My name 
is Michael Webber and I'm Associate Director of the Center for 
International Energy and Environmental Policy at the University 
of Texas at Austin. My testimony today will make four main 
points.
    The first of which energy and water are interrelated which 
you've heard about from everyone so far.
    The second point is the energy/water nexus is already under 
strain. That means we have vulnerabilities in the system where 
constraints in one sector can create constraints in the other. 
Water shortages or heat waves can create water constraints that 
become energy constraints as power plants either dial back or 
turn off. Energy constraints can create water constraints if 
you don't have the power you need for the water or waste water 
treatment sector.
    The third point is trends imply these strains will only 
become exacerbated because of population growth which puts 
upper pressure on demand for energy and water. Economic growth 
which puts upper pressure on per capita demand for energy and 
water. As we get richer we eat more meat which is very water 
intensive. We have big homes that we air condition. That's very 
energy intensive.
    The third trend that exacerbates this strain is global 
climate change which creates a greater intensity and frequency 
of droughts and heat waves which create those strains I just 
mentioned.
    The fourth trend that creates the exacerbation of these 
strains are policy choices we're making that don't consider the 
energy and water impacts of the other. I'll go into more detail 
on that in just a second.
    The fourth point that I'd like to make is that there are 
different policy actions at the Federal level that can help.
    Coming back to the policy choice trends. We're making 
movement as a Nation by choice, by policy choice, toward more 
energy intensive water and more water intensive energy. For 
example we're moving toward more energy intensive water.
    We're raising the environmental standards for water and 
waste water for good reason. But there are energy impacts of 
those choices. Also as municipalities face water constraints 
they push for new supplies of water from distant, low quality 
sources which implies long haul pipelines or deeper aquifer 
production or desalination all of which require more energy.
    We're also moving toward more water intensive energy. We're 
moving toward energy choices that require more water. For 
example, nuclear power which is great from a carbon and 
domestic perspective, but it requires more water than coal and 
natural gas in most cases.
    There is some good news. We're also moving toward solar 
photovoltaics and wind which require no energy, as Dr. Gleick 
mentioned. No water, excuse me.
    Another important policy choice we're making is in the area 
of transportation fuels. We're focusing on a wide suite of 
transportation fuels almost all of which require more water to 
produce depending on how you make them. For example 
unconventional fossil fuels from oil shale, coal to liquids, 
gas liquids and tar sands all require more water than 
conventional gasoline.
    Electricity for plug in hybrid electric vehicles, if made 
from thermal electric power plants requires more water as well. 
If that electricity is made from wind or solar photovoltaics, 
it's better from a water perspective. Hydrogen could also be 
more water intensive if made from the standard grid. Then the 
real example is biofuels which require a lot of water to 
produce.
    So if we looked at how many gallons of water are required 
per mile traveled, biofuels require something like 20 gallons 
or more of water per mile traveled compared to a tenth or two-
tenths of a gallon of water for conventional gasoline. Biofuels 
can be 100 to 1,000 times more water intensive. If that biofuel 
is made from natural rainfall, maybe we don't care.
    But if it's made from irrigation it can have water impacts. 
So if you commute here ten miles and then commute home ten 
miles and you drive on E85 from irrigated corn ethanol. You're 
responsible is about 400 gallons of water consumed to meet the 
fuel for your car and your commute.
    Overall if you look at the Energy Policy Act 2005 and the 
Energy Independence Security Act 2007, we have mandated 
essentially that water consumption will go up because of the 
targets for biofuels. If we look just at the E10 mandate worth 
15 billion gallons a year from corn based ethanol that will 
push our transportation fuel's water use from a trillion 
gallons of water a year today to roughly two and a half 
trillion gallons of water per year in 2022. That means all 
water consumption for transportation fuels will grow from about 
3 percent of national consumption today to about 7 percent.
    This is a big jump. We need to make sure we have the water. 
So we're making policy choices that don't consider this nexus 
and might only exacerbate the strains.
    The fourth point is that there are a variety of different 
policy actions that can help because rivers, watersheds, basins 
and aquifers can span several states and countries there's a 
need for Federal engagement on energy water issues. There are 
some policies pitfalls. For example energy water policymaking 
are disaggregated. They have different funding oversight 
mechanisms. There are many agencies and committees that touch 
energy and water, but none with clear authority.
    Water planners often assume they have the energy they need. 
Energy planners often assume they have the water they need. 
Those assumptions might break down.
    Energy has a top down structure with strong Federal 
agencies. Water has an inverted structure with strong local or 
State agencies. The data on water quantity are sparse, out of 
date, inconsistent and error prone, unfortunately.
    We can't even agree on which units to use. In the East we 
use gallons. In the West we use acre feet. So this results in 
errors in the data. That's difficult for policymakers.
    There are some policy opportunities at the energy water 
nexus. Firstly is conservation. Water conservation, energy 
conservation are synonymous. Policies that promote water 
conservation achieve energy conservation as a byproduct. 
Policies that promote energy conservation achieve water 
conservation as a byproduct.
    Secondly we need to collect, maintain and make available 
accurate, updated, comprehensive, water data probably through 
the U.S. Geological Survey. The Energy Information 
Administration has extensive data on energy production, use, 
trade consumption of all sorts. We need an equivalent source of 
data for water.
    We need to establish Federal oversight for water quantity. 
The EPA has oversight of water quality.
    We need to establish strict standards of building codes for 
water efficiency as Dr. Gleick said.
    We need to invest very aggressively in water related R and 
D to match increases in energy related R and D. High R and D 
targets might be novel approaches to desalination, air cooling 
systems from power plants or biofuels that don't require fresh 
water irrigation, for example, cellulosic sources or algae.
    We need to support these to reclaim the water power plants 
for industry and also agriculture.
    Lastly I think we need to reconsider water markets. Water 
is widely expected to be free and unlimited. Consequently we 
waste it. We need to find a way to value water appropriately 
while accomplishing our goals for social justice, human rights 
making sure water is available.
    In summary this is a complicated issue. I'm very pleased to 
know that you're paying attention. Mr. Chairman, that concludes 
my testimony. I'd be happy to answer questions later.
    [The prepared statement of Mr. Webber follows:]
 Prepared Statement of Michael E. Webber, Ph.D., Assistant Professor, 
Department of Mechanical Engineering and Associate Director, Center for 
International Energy & Environmental Policy, The University of Texas at 
                           Austin, Austin, TX
    Mr. Chairman and Members of the Committee, thank you so much for 
the invitation to speak before your committee on the nexus of energy 
and water. My name is Michael Webber, and I am the Associate Director 
of the Center for International Energy and Environmental Policy and 
Assistant Professor of Mechanical Engineering at the University of 
Texas at Austin. I appear here today to share with you my perspective 
on important trends and policy issues related to this nexus.
    My testimony today will make four main points:

          1. Energy and water are interrelated,
          2. The energy-water relationship is already under strain,
          3. Trends imply these strains will be exacerbated, and
          4. There are different policy actions that can help.

    I will briefly elaborate on each of these points during this 
testimony.
                   energy and water are interrelated
    Energy and water are interrelated: we use energy for water, and we 
use water for energy.
    For example, we use energy to heat, treat and move water. Water 
heating alone is responsible for 9% of residential electricity 
consumption in the U.S. And, nationwide, water and wastewater treatment 
and distribution combined require about 3% of the nation's electricity. 
However, regionally, that number can be much higher. In California, 
where water is moved hundreds of miles across two mountain ranges, 
water is responsible for approximately 15% of the state's total 
electricity consumption. Similarly large investments of energy for 
water occurs wherever water is scarce and energy is available.
    In addition to using energy for water, we also use water for 
energy. We use water directly through hydroelectric power generation at 
major dams, indirectly as a coolant for thermoelectric power plants, 
and as a critical input for the production of biofuels. The 
thermoelectric power sector--comprised of power plants that use heat to 
generate power, including those that operate on nuclear, coal, natural 
gas or biomass fuels--is the single largest user of water in the United 
States. Cooling of power plants is responsible for the withdrawal of 
nearly 200 billion gallons of water per day. This use accounts for 49% 
of all water withdrawals in the nation when including saline 
withdrawals, and 39% of all freshwater withdrawals, which is about the 
same as for agriculture. On average, anywhere between 1 to 40 gallons 
of water is needed for cooling for every kilowatt-hour of electricity 
that is generated. However, while power plants withdraw vast amounts of 
water, very little of that water is actually consumed; most of the 
water is returned to the source though at a different temperature and 
with a different quality. Thus, while power plants are major users of 
water, they are not major consumers of water, which is in contrast with 
the agriculture sector, which consumes all the water it withdraws.
         the energy-water relationship is already under strain
    Unfortunately, the energy-water relationship introduces 
vulnerabilities whereby constraints of one resource introduces 
constraints in the other. For example, during the heat wave in France 
in 2003 that was responsible for approximately 10,000 deaths, nuclear 
power plants in France had to reduce their power output because of the 
high inlet temperatures of the cooling water. Environmental regulations 
in France (and the United States) limit the rejection temperature of 
power plant cooling water to avoid ecosystem damage from thermal 
pollution (e.g. to avoid cooking the plants and animals in the 
waterway). When the heat wave raised river temperatures, the nuclear 
power plants could not achieve sufficient cooling within the 
environmental limits, and so they reduced their power output at a time 
when electricity demand was spiking by residents turning on their air 
conditioners. In this case, a water resource constraint became an 
energy constraints.
    In addition to heat waves, droughts can also strain the energy-
water relationship. During the drought in the southeastern United 
States in early 2008, nuclear power plants were within weeks of 
shutting down because of limited water supplies. Today in the west, a 
severe multi-year drought has lowered water levels behind Hoover Dam, 
introducing the risk that Las Vegas will lose a substantial portion of 
its drinking water at the same time the dam's hydroelectric turbines 
quit spinning, which would cut off a significant source of power for 
Los Angeles. In addition, power outages hamper the ability for the 
water/wastewater sector to treat and distribute water. Thus, strain in 
the energy-water nexus is very real in the United States and is here 
today.
    It is important to note that while constraints in one resource 
introduce constraints on the other, the corollary of that relationship 
is also true. That is, both resources can be enabling for the other: 
with unlimited energy, we could have unlimited freshwater; with 
unlimited water, we could have unlimited energy.
             trends imply these strains will be exacerbated
    While the energy-water relationship is already under strain today, 
trends imply that the strain will be exacerbated unless we take 
appropriate action. There are four key pieces to this overall trend:

          1. Population growth, which drives up total demand for energy 
        and water,
          2. Economic growth, which can drive up per capita demand for 
        both energy and water,
          3. Climate change, which intensifies the hydrological cycle, 
        and
          4. Policy choices, whereby we are choosing to move towards 
        more energy-intensive water and more water-intensive energy.
Population Growth Will Put Upward Pressure on Demand for Energy & Water
    Population growth over the next few decades might yield another 100 
million people in the United States over the next four decades, each of 
whom will need energy and water to survive and prosper. This 
fundamental demographic trend puts upward pressure on demand for both 
resources, thereby potentially straining the energy-water relationship 
further.
Economic Growth Will Put Upward Pressure on Per Capita Demand for 
        Energy & Water
    On top of underlying trends for population growth is an expectation 
for economic growth. Because personal energy and water consumption tend 
to increase with affluence, there is the risk that the per capita 
demand for energy and water will increase due to economic growth. For 
example, as people become wealthier they tend to eat more meat (which 
is very water intensive), and use more energy and water to air 
condition large homes or irrigate their lawns. Also, as societies 
become richer, they often demand better environmental conditions, which 
implies they will spend more energy on wastewater treatment. However, 
it's important to note that the use of efficiency and conservation 
measures can occur alongside economic growth, thereby counteracting the 
nominal trend for increased per capita consumption of energy and water. 
At this point, looking forward, it is not clear whether technology, 
efficiency and conservation will continue to mitigate the upward 
pressure on per capita consumption that are a consequence of economic 
growth. Thus, it's possible that the United States will have a 
compounding effect of increased consumption per person on top of a 
growing number of people.
Climate Change Is Likely To Intensify Hydrological Cycles
    One of the important ways climate change will manifest itself it 
through an intensification of the global hydrological cycle. This 
intensification is likely to mean more frequent and severe droughts and 
floods along with distorted snowmelt patterns. Because of these changes 
to the natural water system, it is likely we will need to spend more 
energy storing, moving, treating and producing water. For example, as 
droughts strain existing water supplies, cities might consider 
production from deeper aquifers, poorer-quality sources that require 
desalination, or long-haul pipelines to get the water to its final 
destination. Las Vegas, San Diego and Dallas are already considering 
some version of these options, all of which are extremely energy-
intensive. Desalination in particular is alarming because it is 
approximately ten times more energy-intensive than production from 
surface freshwater sources such as rivers and lakes. Some areas are 
considering a combination of desalination plus long-haul pipelines, 
which has a compounding effect for energy use.
Policy Choices Exacerbate Strain in the Energy-Water Nexus
    On top of the prior three trends is a policy-driven movement 
towards more energy-intensive water and water-intensive energy.
    We are moving towards more energy-intensive water because of 
increasingly strict treatment standards for water and wastewater, which 
requires more energy than traditional approaches that met prior 
standards. In addition, instead of a push for water efficiency and 
conservation, many municipalities are pushing for new supplies of water 
starting with sources that are farther away and lower quality, and 
thereby require more energy to get them to the right quality and 
location.
    For a variety of reasons, including the desire to produce a higher 
proportion of our energy from domestic sources and to decarbonize our 
energy system, many of our preferred energy choices are more water-
intensive. For example, nuclear energy is produced domestically, but is 
also more water-intensive than other forms of power generation. The 
move towards more water-intensive energy is especially relevant for 
transportation fuels such as unconventional fossil fuels (oil shale, 
coal-to-liquids, gas-to-liquids, tar sands), electricity, hydrogen, and 
biofuels, all of which can require significantly more water to produce 
than gasoline (depending on how you produce them). It is important to 
note that the push for renewable electricity also includes solar 
photovoltaics and wind power, which require very little water, and so 
not all future energy choices are worse from a water-perspective.
    Almost all unconventional fossil fuels are more water-intensive 
than domestic, conventional gasoline production. While gasoline might 
require a few gallons of water for every gallon of fuel that is 
produced, the unconventional fossil sources are typically a few times 
more water-intensive. Electricity for plug-in hybrid electric vehicles 
(PHEVs) or electric vehicles (EVs) are appealing because they are clean 
at the vehicle's end-use and it's easier to scrub emissions at hundreds 
of smokestacks millions of tailpipes. However, powerplants use a lot of 
cooling water, and consequently electricity can also be about twice as 
water-intensive than gasoline per mile traveled if the electricity is 
generated from the standard U.S. grid. If that electricity is generated 
from wind or other water-free sources, then it will be less water-
consumptive than gasoline. Hydrogen can also be more water-intensive 
than gasoline, depending on how it is produced. If made from steam 
methane reforming or electrolysis from water-free electrical sources 
such as wind, then hydrogen is no worse than gasoline (and potentially 
much better). However, if hydrogen is made from electrolysis using 
electricity from the standard U.S. grid, then producing hydrogen might 
consume more than 25 gallons of water and withdraw more than 1000 
gallons for every gallon of gasoline equivalent energy that is 
produced. Though unconventional fossil fuels, electricity and hydrogen 
are all potentially more water-intensive than conventional gasoline by 
up to a factor of 10 or so, biofuels are particularly water-intensive. 
Growing biofuels consumes more than 1000 gallons of water for every 
gallon of fuel that is produced. Sometimes this water is provided 
naturally from rainfall, however for a non-trivial proportion of our 
biofuels production, irrigation is used. Irrigated biofuels from corn 
or soy can consume twenty or more gallons of water for every mile 
traveled.
    Note that for the sake of analysis and regulation, it is convenient 
to consider the water requirements per mile traveled. Doing so 
incorporates the energy density of the final fuels plus the efficiency 
of the engines, motors or fuel cells with which they are compatible.
    If we compare the water requirements per mile traveled with 
projections for future transportation miles and combined those figures 
with mandates for the use of new fuels, such as biofuels, the water 
impacts are startling. Water consumption might go up from approximately 
one trillion gallons of water per year to make gasoline (with ethanol 
as an oxygenate), to a few trillion gallons of water per year. To put 
this water consumption into context, each year the United States 
consumes about 36 trillion gallons of water. Consequently, it is 
possible that water consumption for transportation will more than 
double from less than 3% of national use to more than 7% of national 
use. In a time when we are already facing water constraints, it is not 
clear we have the water to pursue this path. Essentially we are 
deciding to switch from foreign oil to domestic water for our 
transportation fuels, and while that might be a good decision for 
strategic purposes, I advise that we first make sure we have the water.
            there are different policy actions that can help
    Because there are many rivers, watersheds, basins and aquifers that 
span several states and/or countries, there is a need for federal 
engagement on energy-water issues.
    Unfortunately, there are some policy pitfalls at the energy-water 
nexus. For example, energy and water policymaking are disaggregated. 
The funding and oversight mechanisms are separate, and there are a 
multitude of agencies, committees, and so forth, none of which have 
clear authority. It is not unusual for water planners to assume they 
have all the energy they need and for energy planners to assume they 
have the water they need. If their assumptions break down, it could 
cause significant problems. In addition, the hierarchy of policymaking 
is dissimilar. Energy policy is formulated in a top-down approach, with 
powerful federal energy agencies, while water policy is formulated in a 
bottom-up approach, with powerful local and state water agencies. 
Furthermore, the data on water quantity are sparse, error-prone, and 
inconsistent. The United States Geological Survey (USGS) conducted its 
last survey on water consumption in 1995 and its last published data on 
water withdrawals are from 2000. National databases of water use for 
power plants contain errors, possibly due to differences in the units, 
format and definitions between state and federal reporting 
requirements. For example, the definitions for water use, withdrawal 
and consumption are not always clear. And, water planners in the east 
use ``gallons'' and water planners in the west use ``acre-feet,'' 
introducing additional risk for confusion or mistakes.
    Despite the potential pitfalls, there are policy opportunities at 
the energy-water nexus. For example, water conservation and energy 
conservation are synonymous. Policies that promote water conservation 
also achieve energy conservation. Policies that promote energy 
conservation also achieve water conservation. It is my opinion that 
robust energy and water policies should begin with conservation because 
of the cascading cross-over benefits they offer.
    Thankfully, the federal government has some effective policy levers 
at its disposal. I recommend the following policy actions for the 
energy-water nexus:

          1. Collect, maintain and make available accurate, updated and 
        comprehensive water data, possibly through the USGS. The 
        Department of Energy's Energy Information Administration 
        maintains an extensive database of accurate, up-to-date and 
        comprehensive information on energy production, consumption, 
        trade, and price available with temporal and geographic 
        resolution and standardized units. Unfortunately, there is no 
        equivalent set of data for water. Consequently, analysts, 
        policymakers and planners lack suitable data to make informed 
        decisions.
          2. Establish federal oversight for water quantity. The 
        Environmental Protection Agency has oversight of water quality, 
        but it's not clear if any agency has oversight of water 
        quantity.
          3. Establish strict standards in building codes for water 
        efficiency. Building codes should include revised standards for 
        low-flow appliances, water-heating efficiency, purple-piping 
        for reclaimed water, rain barrels and so forth in order to 
        reduce both water and energy consumption.
          4. Invest heavily in water-related R&D to match recent 
        increases in energy-related R&D. R&D investments are an 
        excellent policy option for the federal government because 
        state/local governments and industry usually are not in a 
        position to adequately invest in research. Consequently, the 
        amount of R&D in the water sector is much lower than for other 
        sectors such as pharmaceuticals, technology, or energy. 
        Furthermore, since energy-related R&D is expected to go through 
        a surge in funding, it would be appropriate from the 
        perspective of the energy-water nexus to raise water-related 
        R&D in a commensurate way. Topics for R&D include low-energy 
        water treatment, novel approaches to desalination, remote leak 
        detectors for water infrastructure, and air-cooling systems for 
        power plants. In addition, DoE's R&D program for biofuels 
        should emphasize feedstocks such as cellulosic sources or algae 
        that do note require freshwater irrigation.
          5. Support the use of reclaimed water at powerplants, 
        industry and agriculture. Using reclaimed water for 
        powerplants, industry and agriculture spares a significant 
        amount of energy. However there are financing, regulatory and 
        permitting hurdles in place that restrict this option.
          6. Rethink water markets. Water is widely expected to be free 
        and unlimited, even though water is a limited resource that we 
        should value highly. Consequently, it is worthwhile to consider 
        implementing water markets that balance our competing needs to 
        meet our social justice and human rights goals (that is, 
        everyone needs water to survive, whether rich or poor), while 
        also meeting our need to discourage water waste through high 
        prices. Block pricing, whereby the first amount of water usage 
        is cheap or free in order to meet our survival needs, after 
        which the price escalates significantly in order to curtail 
        water use for non-critical purposes, might be a fruitful 
        approach.

    The energy-water nexus is a complicated, important issue, and so I 
am very pleased to know that you are being attentive to the matter.
    Mr. Chairman, that concludes my testimony. I'll be pleased to 
answer questions at the appropriate time.

    The Chairman. Thank you very much.
    Dr. House.

     STATEMENT OF LON W. HOUSE, PH.D., ENERGY ADVISOR, THE 
   ASSOCIATION OF CALIFORNIA WATER AGENCIES, CAMERON PARK, CA

    Mr. House. Good morning. My name is Lon House. I'm the 
Energy Advisor to the Association of California Water Agencies. 
I'm the Water Energy Consultant to the California Public 
Utilities Commission. I'm a Water Energy Researcher for the 
California Energy Commission.
    I'm going to be talking about one of the issues that this 
bill addresses which is the amount of energy that's in the 
water. The SB 531 calls for several studies to collect data on 
energy uses and water delivery and treatment. That's a very 
good first step.
    We did it backward in California. We went out and started 
water energy pilots. It got bogged down because we didn't have 
defensible data on how much energy was actually in the water 
that were being saved by these pilots. So I just wanted to 
congratulate you guys on doing things sequentially and in the 
correct order and getting the data there first.
    There is a lot of energy in the water in the United States. 
On the electricity side about 18 percent of all the electricity 
in the U.S. is used somewhere in the water, on the water side. 
The water systems use about 4 percent to procure the water, 
treat it, distribute it, collect the waste water.
    The residential consumers use about five and a half 
percent. Agricultural/industrial sector uses about another 
eight and a half percent to treat and process their water. The 
projections of energy use in this area, as you've heard are 
anticipated to increase faster than the rate of population due 
primarily to accessing previously unused water sources and 
increased treatment requirements.
    As other parties on this panel have said one of the nice 
things about water is anytime that you save water, you're going 
to save energy because there is energy in the water. There's 
three principles ways that my testimony goes into detail about 
how to solve this.
    One is to reduce the amount of energy that's embedded in 
the water delivered. This is to reduce the amount of energy, 
improve the efficiency of the water systems that are 
delivering, supplying and treating that water.
    The second is to reduce the amount of energy used by the 
customers and the amount of water used by the customers. As 
I've previously stated the end use is actually a higher usage 
of electricity than the water delivery systems.
    Then the third thing that I wanted to highlight is to 
increase the amount of renewable energy generated by the water 
agencies. In California the water agencies in California have a 
peak demand of about 2,800 megawatts. We have over 3,000 
megawatts renewable generation, the water agencies have.
    I would just like to leave you real quickly with a couple 
of recommendations.
    One is that you currently have on appliances the energy 
star program. You also have the EPA water sense program, but 
those are never combined. So that would be one of the things 
that you could do is on water appliances. Then a customer could 
look at that and say, this is how much water I'm saving and how 
much energy I'm saving from that particular appliance.
    You could produce legislation that would encourage the use 
of renewable energy resources to address the energy needs 
associated with various aspects of water energy use. The Energy 
Efficiency and Conservation block grant program in the 2008 
Energy bill exclude water systems. You could change that so 
that water systems could have access to that particular money.
    I would encourage that this committee look at Federal 
agencies and require Federal agencies to use life cycle costing 
and to include water and energy savings in their evaluation of 
new technologies, particularly for things such as new pumps and 
things like that.
    Then the last thing I would leave you with is there is 
still a lot of work that could be done in this area. The 
Federal agencies, the Department of Energy and the EPA could 
and should expand research on improving the efficiency of water 
supplies, water systems, water and waste water treatment and in 
water use.
    Thank you for allowing me to provide these comments.
    [The prepared statement of Mr. House follows:]
    Prepared Statement of Lon W. House, Ph.D., Energy Advisor, the 
       Association of California Water Agencies, Cameron Park, CA
    Thank you Mr. Chairman and members of the Committee. I appreciate 
the opportunity to address this important legislation. My name is Lon 
W. House, Ph.D. I am the president of Water and Energy Consulting\1\, 
and I serve as the Energy Advisor to the Association of California 
Water Agencies. I am the Water-energy consultant for the California 
Public Utilities Commission, and I am a Water-energy researcher for the 
California Energy Commission.
---------------------------------------------------------------------------
    \1\ Address: 4901 Flying C Road, Cameron Park, Ca 95682. email: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8be7e4e5fce3e4fef8eecbfceaffeef9eae5efeee5eef9ecf2e8e4e5f8fee7ffe2e5eca5e8e4e6a5">[email&#160;protected]</a> Phone: 530.676.8956.
---------------------------------------------------------------------------
    The bill, S 531, calls for several studies to collect data on 
energy usages in water delivery and treatment. This is a laudable 
effort that should provide valuable information for future reference. 
In addition to the steps taken in your bill, there are other immediate 
opportunities to save water and energy that could be implemented now. 
My testimony is going to provide suggestions in this area. I recognize 
some of these suggestions are out of the scope of this committee but I 
am offering them for your consideration as a member of the finance 
committee Mr. Chairman and Ranking Member Murkowski's role on the 
Appropriations Committee.
                            energy in water
    The use of water requires energy: energy to procure, treat and 
distribute freshwater, and collect and treat wastewater, as well as the 
energy the customer puts into water to heat/cool, pressurize, and treat 
the water for their use. Nationwide, residential consumers alone use 
5.5 percent of all the electricity in the U.S. to heat, treat, and 
pressurize water for their domestic use\2\. The commercial, industrial, 
and agricultural sectors can use another 8.5 percent of the electricity 
consumed nationally for their water processing and treatment\3\. The 
water and wastewater sector consumes about 4 percent of electricity 
used in the U.S. to supply water to customers and treat the wastewater 
produced\4\.
---------------------------------------------------------------------------
    \2\ U. S Household Electricity Report, Table US-1, Energy 
Information Administration, available at: http://www.eia.doe.gov/emeu/
reps/enduse/er01_us.html (for residential use) and http://
www.eia.doe.gov/cneaf/electricity/epm/table5_1.html for total 
electricity consumption.
    \3\ California Energy Commission (CEC), 2005. ``California's Water-
Energy Relationship.'' Final Staff Report, June 2005 CEC-700-2005-011 
http://www.energy.ca.gov/2005publications/CEC-700-2005-011/CEC-700-
2005-011-SF.PDF
    \4\ EPRI, Electric Power Research Institute, 2002. Water and 
Sustainability (Volume 4): U. S. Electricity Consumption for Water 
Supply & Treatment--The Next Half Century, No. 1006787, Palo Alto, 
California.
---------------------------------------------------------------------------
                   projections of energy use in water
    There is an increasing need to address water conservation and 
associated energy conservation in the water sector. There are areas of 
the U.S. that are subject to chronic water shortages\5\, and the energy 
used for providing and using water is expected to significantly exceed 
population growth. In the next decade, water systems are expected to 
add significant amounts of new electrical load as they access 
previously unused water sources and address increased treatment 
requirements\6\. Over the next 45 years, electricity demand associated 
with supplying water and its treatment is expected to double, alongside 
population growth. Irrigation pumping and industrial uses (excluding 
mining), however, are projected to triple in that same time frame\7\.
---------------------------------------------------------------------------
    \5\ U.S. Government Accountability Office (GAO) ``Freshwater 
Supply: States' View of How Federal Agencies Could Help Them Meet the 
Challenges of Expected Shortages'', GAO-03-514, July 9, 2003
    \6\ House, L. W.2007. ``Will Water Cause The Next Electricity 
Crisis?'' Water Resources Impact 9 (1), January 2007.
    \7\ ``Energy Demands On Water Resources'', Report To Congress On 
The Interdependence Of Energy And Water, U.S. Department Of Energy, 
December 2006.
---------------------------------------------------------------------------
           water programs have dual water and energy impacts
    Water conservation and efficiency programs have several 
characteristics that make them more attractive than simple energy 
conservation programs.
Water efficiency saves water and energy--energy efficiency saves only 
        energy
    Every time you save water you also are saving the energy that was 
previously used to treat and distribute that water. Water conservation 
and efficiency programs give you a double environmental impact for your 
dollar.
Water efficiency savings are more permanent
    Energy efficiency tends to reduce the rate of increase in energy 
use. This is due to the substitution effect, where the energy savings 
that are realized with a more efficient appliance or application are 
often replaced by the energy use of another appliance (the energy 
savings that come from a more efficient refrigerator are replaced when 
the customer buys a new flat screen TV). However, when a customer buys 
a more efficient clothes washer or installs low water landscaping, they 
don't usually turn around and use that water somewhere else in their 
house.
    The following graph shows that California, through billions of 
dollars of investments in energy efficiency, has managed to stabilize 
its per capita electricity usage.* By comparison, California has 
reduced its per capita water usage by 50 percent in the last 40 years. 
The state's total annual water consumption has remained the same since 
1970 even as its population has doubled to nearly 37 million. Its per 
capita water use has plunged to less than half of what it was then.
---------------------------------------------------------------------------
    * Graphs have been retained in committee files.
---------------------------------------------------------------------------
 water systems have an interest, ability, and proclivity to invest in 
                       more renewable generation
    Water and wastewater systems have a unique opportunity to 
significantly increase the amount of renewable generation available. 
They have electrical load (pumping and treatment facilities), available 
land (for solar and wind), fuel sources (for biogas), and multiple 
sites for hydroelectric generation. Already in California, water and 
wastewater agencies have renewable generation over 3,000 MW of existing 
capacity, with more than 1,000 MW of additional capacity under 
consideration. Across the nation, these systems have the facilities, 
professional staff, and local leadership capability to play a 
foundational role in transforming the nation's energy policy if the 
proper incentives are available and current impediments are reduced.

       Demand/Generation Statistics of California Water Agencies

                       Demand and Demand Response

                Water agencies in California currently2,800+ MW 
                maximum demand
                Water agencies curtail approximately 400+ MW of on-peak 
                demand

                        Water agency generation

                500+ MW of existing standby generators available
                Hydro--2,547 MW existing, +255 MW new small in-conduit 
                potential
                Biogas--57 MW, +36 MW new potential
                Wind--1 MW, + unknown potential
                Natural gas engines--existing100 MW, +200 MW 
                additional potential
                Solar--18 MW installed, 48 MW under construction, +500 
                MW being
                  reviewed by water agencies.
             options for energy reductions in water sector
    Looking at water systems comprehensively (addressing both the 
consumer and the supply systems) and ensuring conservation, efficiency, 
and renewable generation projects are designed in tandem creates even 
greater efficiency and conservation opportunities which can result in 
significant water and energy savings and dual benefits to the 
environment.
    There are three principle implementation areas within the water 
sector: 1) reduce the energy embedded in water delivered, 2) reduce the 
energy in the water used by customers and amount of water used by 
customers, and 3) increase the amount of renewable generation by water 
agencies.
1. Reduce the energy embedded in water delivered
    Provide incentives to water systems to invest in more efficient 
system configuration, components, and operation to improve energy 
efficiency and to reduce peak electric demand.
    Energy Efficiency (system redesign and retrofitting of equipment, 
low-friction pipe, high efficient pumps, adjustable speed drive motors, 
SCADA [Supervisory Control And Data Acquisition] system installation 
with real-time pump and process integration, efficient lighting, 
increased efficiency treatment options). 25% of industrial electricity 
use and 50% of municipal and wastewater use is due to pumps. High 
efficiency pumps are typically 20% more efficient. Purchasers typically 
use lowest installed cost--not lifecycle cost, and purchase the less 
efficient options. Pumps have a 15-20 year typical life, so the pumps 
purchased today will be consuming electricity for a long time. Variable 
Frequency Drives (VFDs) are also a good option on pumps with varying 
demand to reduce electricity consumed.
    Peak Electric Demand/Demand Response (increased storage, 
aggregation of water system utility accounts, SCADA system 
installation, improvements to primary/secondary water and wastewater 
treatment). All water systems have some sort of water storage to 
accommodate varying demands for water throughout the day. They can use 
that storage to reduce their pumping during the electrical peak demand 
periods. In California, the water agencies in the state typically 
reduce their electrical demand by 400 MW during on-peak hours\8\. 
Increased water storage facilities could result in hundreds of MWs of 
additional on-peak electrical demand reduction.
---------------------------------------------------------------------------
    \8\ House, L.W., ``Water Supply Related Electricity Demand in 
California'', Demand Response Research Center Report, LBNL-62041, 
December 2006.
---------------------------------------------------------------------------
    Improve leak detection and reduce system loss (SCADA improvements, 
Automated Meter Reading (AMR)/Advanced Metering Infrastructure (AMI) 
installation). There is always some leakage within water systems, due 
to the necessity to maintain a pressure differential between inside the 
system and outside the system. As systems age they develop more leaks. 
The development of relatively inexpensive AMI and AMI allows almost 
instantaneous feedback on water movement throughout the water 
distribution system and can allow leaks to be identified and addressed 
rapidly.
    Increase energy utility investments in water system efficiency and 
demand response. One of the frustrations in California has been the 
relative lack of ability of water systems to participate in utility 
energy conservation programs\9\. While this is slowly changing, the 
utility energy conservation programs typically address energy systems 
they are familiar with--air conditioning, lighting, heating, etc.--that 
do not apply to water system efficiency improvements. The ability of 
increased water system storage to reduce peak electrical demands 
likewise has been neglected by utility programs.
---------------------------------------------------------------------------
    \9\ House, L.W. ``Public Versus Private Customer Perspectives on 
Participation in Demand-side Programs'', Strategic Planning for Energy 
and the Environment, Volume 27, No. 3, Winter 2008, pg 59-66.
---------------------------------------------------------------------------
    Increase use of recycled water. The use of recycled water for 
agricultural, industrial and commercial purposes and for outdoor 
irrigation results in significant reductions in the demand for water 
from the environment and in the amount of energy needed by the water 
sector. The wastewater has to be treated anyway. If that water can be 
used in lieu of additional fresh water it saves not only all that water 
but all the energy associated with providing the additional fresh 
water. California has a state policy that no fresh water can be used 
for electrical production if there are available alternatives--
including recycled water--recycled water is a major component of 
existing and future water supplies. Capture and use of stormwater and 
rainwater. The use of stormwater and rainwater to supplement fresh 
water sources can significantly enhance available fresh water supplies 
and are often at energy costs lower than other new sources of fresh 
water.
            Increase research on improving energy efficiency of water 
                    systems
    Improvements in the energy efficiency of water systems will have 
long lasting results. Additional research needs to be accomplished in 
the following areas.

                  Reductions in energy requirements of new water 
                supplies (desalination, membrane technology, well head 
                treatment, integrated water system planning, natural 
                treatments systems)
                  Reductions in energy requirements of water 
                distribution and service systems
                  Reductions in energy requirements of wastewater 
                treatment and recycled water systems.
2. Reduce the energy in the water used by customers and amount of water 
        used by customers
    Provide incentives that encourage customers to more efficiently use 
existing water supplies and to reduce water demand which saves both 
water and energy.
    New appliance efficiency standards (residential and commercial 
clothes washers, dishwashers, clothes dryers, pool and spa pumps and 
heaters, showerheads and faucets, toilets, urinals, landscaping 
irrigation). New appliance standards should be evaluated based upon the 
contributions of both their water and energy savings.
    Rebates/grants/tax credits for efficient appliances that go beyond 
current standards (aggressive production tax credits spur market share 
growth for the most energy and water efficient appliances, combine 
ENERGY STAR and WATERSENSE labeling). More efficient water-using 
appliances save both water and energy--directly, as in the case of 
water heaters, dishwashers, clothes washers--indirectly, by reducing 
water use as in the case of high efficiency toilets. Incentives for 
increased efficiency should involve both water and energy savings.
    Improve leak detection (AMR/AMI installation). The development of 
relatively inexpensive AMI and AMI allows almost real-time water 
consumption information, which makes customer leak detection virtually 
instantaneous, as the following graph illustrates. This allows customer 
leaks to be identified and fixed much more rapidly than has been the 
case in the past.
    Incorporate water efficiency requirements into new construction and 
upon resale (LEED standards, plumbing fixtures, appliances, landscape 
and landscape irrigation, cooling towers, decorative and recreational 
water features). New construction and transfer of ownership presents a 
unique opportunity to reduce water consumption which, once 
accomplished, continues to save water and energy for an extended period 
of time.
    Increase electric and gas utility programs in water programs. There 
is a need to increase electric and gas utility programs in water 
efficient appliances and processes. Allowing energy utilities to 
partner with water systems on water conservation projects as part of 
their energy saving portfolios has tremendous potential. California has 
a pilot program through the California Public Utilities Commission 
(CPUC) that allows the investor owned energy utilities (IOUs) to 
partner with water providers to implement jointly funded programs 
designed to save energy via water savings\10\. This pilot focuses on 
efforts that conserve water, use less energy-intensive water, make 
delivery and treatment systems more efficient, and determine actual 
water savings and actual energy savings.
---------------------------------------------------------------------------
    \10\ A.07-01-024 et. al.
---------------------------------------------------------------------------
3. Increase the amount of renewable energy generated by water agencies.
    Provide incentives and remove impediments for water systems to 
become more energy self-sufficient and, where possible, to feed 
renewable power into the grid. It should be noted that the majority of 
water systems are government owned, and traditional incentives such as 
tax credits have limited effectiveness. About 85 percent of the fresh 
water systems serving more than 10,000 people in the U.S. are publicly 
owned, and about 91 percent of systems serving more than 100,000 people 
are publicly owned. Nearly all of the wastewater treatment plants are 
owned by public institutions (municipalities or specially designated 
districts)\11\.
---------------------------------------------------------------------------
    \11\ USEPA, 2002. Community Water System Survey, United States 
Environmental Protection Agency, Office of Water, Washington, D.C., 
December 2002, EPA 815-R-02-005A.
---------------------------------------------------------------------------
    Rebates/grants for renewable generation including small 
hydroelectric, in-conduit hydroelectric, solar, biogas and wind 
generation. California has a couple programs in this area: the 
California Solar Initiative (CSI) that deals primarily with solar and 
the California Self Generation Incentive Program which deals with other 
types of renewables. For the CSI, California has two levels of 
incentives--one for tax paying entities that can take advantage of tax 
credits, and another higher incentive level for those entities that 
cannot use tax credits. There are constraints in both these programs 
that result in less renewable generation developing than would 
otherwise be the case. Specifically, there is a low maximum size 
allowed (on the order of 1 MW per installation) that results larger 
projects not being developed, and the requirement that all energy 
produced must be used on site also truncates the size of these 
installations.
    Tax Credits that promote private public partnerships for renewable 
energy installation and energy production. The ability of public 
entities to use tax credits like the CREBS (Clean Renewable Energy 
Bonds) to develop renewable energy projects provides access to money 
that would otherwise be unavailable to the public entities. PG&E 
(Pacific Gas & Electric Company) recently filed an Application for 
Photovoltaic Program with the CPUC in which they are seeking 
partnerships in the development of solar projects with guaranteed 
prices for the solar electricity.
    Net Energy Metering programs allow the offset of retail rates with 
the renewable generation. Net Energy Metering (NEM) tariffs in 
California allow renewable generation to be credited against retail 
rates for electricity at the specific location. A major disadvantage of 
this program is that any electricity generated in excess of use is not 
compensated for. This results in much smaller renewable projects 
(particularly solar) than may be economically attractive, as there is 
no ability to sell excess electricity generated to the utility.
    Remote Net Metering Programs that allow renewable generation at one 
location to be credited against a portion of retail rates another 
system location. California's AB (Assembly Bill) 2466 is called the 
Local Government Renewable Energy Self-Generation Program and is 
codified as Section 2830 of the Public Utilities Code. It allows 
government entities to generate renewable energy at one location, and 
have it credited against part (the generation part only) of retail 
rates at another location. It's size limit is1 MW and the inability to 
access any other incentives in the development of the renewable project 
are limiting its usefulness.
    Renewables Feed-In Tariffs that provide a utility standard contract 
with specified renewable energy price. California's Assembly Bill (AB) 
1969 added Public Utilities Code Section 399.20, authorizing tariffs 
and standard contracts for the purchase of eligible renewable 
generation from public water and wastewater facilities. It has size 
limitations (1 MW) and the inability to access any other incentives in 
the development of the renewable project is resulting in less renewable 
generation that could be developed.
                     conclusion and recommendations
    Thank you for this opportunity to discuss these issues before this 
Committee. I would like to make the following suggestions.

          1. Legislation should recognize and encourage the economic 
        and environmental benefits associated with the energy 
        efficiency-water use efficiency/conservation. Two practical 
        things that could be done now are to combine the DOE energy 
        star program with the EPA Watersense program for water using 
        appliances, and promote the use of recycled water, especially 
        where its use would result in a lower overall energy footprint 
        and have positive environmental impacts.
          2. Legislation should encourage the use of renewable energy 
        sources to address energy needs associated with all aspects of 
        water use--recognizing that most of the water systems are 
        publicly owned. Expand the energy efficiency and conservation 
        block grant program in the 2007 energy bill to allow water 
        agencies to be eligible units of local governments. Expand the 
        funding for the CREBS bond program.
          3. Legislation should encourage federal agencies to identify 
        opportunities to advance energy and water efficiency, including 
        alternative/renewable sources of energy. Federal installations 
        should be required to use life cycle costs in the procurement 
        process, and take into consideration both the water and energy 
        savings that result from more efficient technologies and 
        processes.
          4. Federal Agencies (the Department of Energy and the 
        Environmental Protection Agency) should expand research on 
        improving the energy efficiency of water supplies, water 
        systems, water and wastewater treatment, and in water use.

    The Chairman. Thank you very much. Why don't we call on 
Senator Murkowski for any comments she has at this point before 
we go to questions.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. It's taken me a 
little bit longer to move today so I apologize. But I 
appreciate the opportunity to hear the testimony from the 
witnesses today on this issue of energy and water and how the 
two relate.
    I think we're all interested in the connection between the 
two. All forms of energy, fuel extraction, fuel refinement, 
energy production, energy distribution it all comes together 
with water and affects our water resources in some manner. So 
by identifying the relative linkages between energy and water 
systems and our key research needs I think we certainly get a 
greater return on our investment research in the development, 
the commercialization of energy and water technologies.
    I think we recognize that an energy technology that is 
cheap to produce and has zero emissions is useless if it's 
really going to consume more water than we can supply. I don't 
think that we think about that in the general course of our 
discussion about our energy consumption. We need to be thinking 
about it.
    So I'm pleased to see that we're placing this emphasis on 
the water use efficiency and recognize that the work that we're 
doing in our legislation is going to be focusing on this. So I 
appreciate the comments from the gentlemen this morning.
    The Chairman. Did you want to go ahead and ask questions or 
do you want me to ask some first and then you? How would you 
like to? Ok.
    Let me start and ask a few questions. One of the issues 
Senator Corker raised in his opening comments was that solar 
thermal requires a great deal of water. I think some of you 
have made reference to that.
    I'm not clear though as to whether this is consumption of 
water or whether this is just use of water. Because my 
impression is that for example our large utility in New Mexico 
was getting ready to put in a solar thermal facility or at 
least they hope to. I thought that the water they would be 
using in that operation would be largely recycled. That was my 
impression.
    Any of you have an opinion on that? Dr. Webber.
    Mr. Webber. For a solar thermal system you have a loop of 
water you use for the process loop to create the power and then 
a cooling loop. You have two different loops of water. The 
cooling loop is important for solar thermal. It does use a lot 
of water for cooling, the way coal or other hot power plants 
might.
    It's not clear how much water needs because we don't have 
many data points or many examples, actually and so existing 
power plants use more water, as was noted earlier. However some 
new data I just got last week from the National Renewable 
Energy lab in Golden, Colorado from the Department of Energy 
suggests that solar thermals needs less water than coal and 
nuclear. I'll be happy to get those data out after this.
    So it's not clear. It definitely needs water, solar thermal 
does for its cooling loops. Solar photovoltaics generally do 
not is the main distinction.
    The Chairman. Dr. Gleick.
    Mr. Gleick. Yes, if I might add just a quick point. Systems 
like solar thermal and fossil fuels and nuclear require a lot 
of water for cooling. The amount of water they consume depends 
largely on the type of cooling system they have.
    The cheapest cooling systems to install consume the most 
water. More expensive cooling systems can be put in that 
recycle a lot of the water in the cooling systems. So in part 
the answer to your question depends on what we're willing to 
spend for the cooling system which in part depends on how 
scarce the water is in the particular place we're building the 
plants.
    The Chairman. Ok. Dr. House.
    Mr. House. This last week we just ran into exactly this 
issue in California. There's a big solar thermal facility 
that's proposed to go in Southern California. They were 
proposing like Dr. Gleick says wet cooling which is evaporative 
cooling.
    Now they're having to come back because you know California 
has a policy that no fresh water can be used for power plant 
production if there's an alternative. So this solar thermal 
facility is now having to come back and it's considerably more 
expensive. But they're having to go to recycle or to what they 
call dry cooling towers because of the amount of fresh water 
that they were proposed to use.
    The Chairman. Ok. Let me ask you, Mr. Bolze. Your 
suggestion, that we consider an investment tax credit of 30 
percent to drive increased water reuse.
    We are being urged to increase the investment tax credit 
for cogeneration of heat and power from 10 percent to 30 
percent. You're suggesting that a similar tax credit would be 
appropriate for in this area. That it would result in 
substantial savings in energy.
    Could you just elaborate on that?
    Mr. Bolze. Yes. What I wanted to point out is some feedback 
that we get from our customer base around the world. To give 
you a sense in our written testimony I laid out that there's 
some numbers that says that the U.S. reuses about 6 percent of 
its water on the industrial side. To give you a sense, 
Australia is about 8 percent. But they have incentives in the 
plate to get that to 30 percent by 2013.
    Singapore is at 15 percent, going to 30 percent by 2010. 
Israel is at 70 percent. So as we look at it there is 
opportunities, clearly, to reuse more of the water that's used 
in industrial and power generation.
    To the point that I brought up on investment tax credits--
--
    The Chairman. Let me just ask on that.
    Mr. Bolze. Yes.
    The Chairman. Do you have the specific policies that each 
of those countries has put in place to increase water reuse? 
Could we get access to that?
    Mr. Bolze. We do. We have a white paper.
    The Chairman. Ok.
    Mr. Bolze. That we've had out for about 6 to 9 months. 
There are a variety of different policies. Not every country 
employs the same policy. But there are a number of different 
ones. But we can provide that.
    The Chairman. That would be great if you would.
    Mr. Bolze. Back to the investment tax credits, of our over 
50,000 customers today, I would say that less than 1 percent 
are really applying any material reuse of water. When you 
really bore into that it comes down to economics. Right now, 
today, it's less expensive to pull water from ground river, 
municipal systems than it is to invest in water reuse.
    That's why we support the NAS study in laying the associate 
economics of that. We as a company have not studied that, but 
our customers say as you look at a tax credit it allows them to 
look at that more holistically. So that was the point we were 
trying to raise.
    The Chairman. Good. Senator Murkowski.
    Senator Murkowski. You know they always say that water is 
the next oil in terms of the fight and the competition. I truly 
believe that we're going that way. When you understand how all 
that we're trying to do as we move to this new world of 
renewables and recognizing that you can't get there from here 
without significant water. The phrase water becomes the new oil 
is even more realistic.
    Tell me where we need additional Federal engagement on the 
energy/water issues. Mr. Webber, you alluded to it saying you 
know, we're not even using the same unit measures in parts of 
the country. What should we be doing from the Federal 
perspective?
    Are there any institutions that should be specifically 
involved or strengthened to provide for more effective policy? 
I throw that out to anyone of you.
    Mr. Webber. There are several agencies that I think should 
be involved. The Department of Energy certainly is already 
involved in the energy/water nexus. They should continue that. 
They may lead on some R and D efforts.
    The United States Geological Survey has taken the, sort of, 
lead on collecting data related to water, water quantity at 
least. I'd like to see that role expanded and continued. The 
data collection that they offer, unfortunately is limited and 
infrequent. I think that needs to be done in a much more 
systematic and supported way.
    Those data would be very valuable for people like us having 
these discussions. So that's one easy way for Federal 
Government to engage. Because you have the capacity for data 
collection and management that states would have difficulty 
with.
    Senator Murkowski. I have a comment on that. Several years 
ago I introduced legislation that would enhance and build the 
stream monitoring gauges in the State of Alaska. We recognize 
that if we want to do anything more with development we've got 
to know what the baseline is. We don't have any baseline.
    I know that we're at a disadvantage in my State. But I 
think that we're similarly disadvantaged throughout the rest of 
the Nation in understanding what those real resources are. Any 
other comments to the question?
    Dr. Gleick.
    Mr. Gleick. Yes, if I might add a few. I think that there 
are many issues among water and energy that are local. But 
there are a lot of series of Federal responsibilities.
    One thing we might consider is phasing out irrigation 
energy crop subsidies that promote wasteful use of water and 
energy together. Another is, and I've made these 
recommendations already. Smart labeling of appliances, better 
appliance efficiency standards, research and development on 
energy technologies that reduce water demands.
    The concept of using alternative sources of water for power 
plant cooling has come up. But I think probably should be 
pursued more aggressively. The example of the Palo Verde 
nuclear plant, it's the only plant in the country, nuclear 
plant that uses reclaimed water for cooling.
    There's an opportunity to use recycled or reclaimed water 
for cooling in a lot of places or brackish ground water that we 
can't use for irrigation or other things. Look at other sources 
of water for meeting some of our energy needs. We should 
encourage biofuels development only when it's not water 
intensive.
    Dr. Webber talked about that. There have been a number of 
Federal policies on the energy side that have not integrated 
the water issue and if had integrated them together we would of 
perhaps made a different choice.
    Then finally this issue of a water census has come up on 
the House side. There is some legislation proposing that the 
U.S. do a comprehensive assessment of the water resources of 
the Nation both what we have and what we use and how we use it. 
We don't have such a census.
    The USGS is the perfect place to do such a thing. They do 
work in both of those areas, water availability and water use. 
But we ought to be doing a regular census of how much water we 
use and where and how. That would help on the energy side as 
well.
    Senator Murkowski. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. I think this is an 
outstanding hearing. I think the testimony has been most 
useful.
    The census issue you just mentioned, Dr. Gleick. We had an 
issue in our State where folks were considering shipping water 
down to another city which was, you know, in my opinion, not 
intelligent. Because if you look at the whole issue of 
sustainability.
    I mean the energy uses into the future are going to be 
huge. I think the comment you just made about maybe having an 
inventory of that, if you will, for the future and for cities 
and states to be using that as a measurement as to their 
sustainability into the future is something I think is very 
important. So you know, here today we've talked about the fact 
that wind and solar voltaic uses no water. Biofuels which we 
actually are pursuing heavily in our State uses a lot of water. 
Ok, I think that's good for all of us to know.
    Our State also uses a lot of coal to be candid. We use a 
lot of nuclear power also. We have a lot of discussions here in 
Washington about carbon sequestration, capture and 
sequestration. I'm a skeptic. It's sort of like when donkeys 
fly we'll be doing that on a commercial basis.
    But it seems to me the whole issue of water makes that even 
more difficult. Because when you capture, as Dr. House was 
talking about, the fact is when you capture electricity it uses 
more electricity to do that. It makes it less efficient, if you 
will.
    But then second a lot of water is used in that process. I 
wondered if each of you or those of you who wish to might 
respond to how you think water usage really plays into the 
whole issue of carbon capture and sequestration?
    Mr. Webber. So I'll make a couple comments. Firstly you 
often use water as a process chemical to stress separate out 
the carbon dioxide. You bubble your smokestack gases through a 
solution that has water. That's one way water shows up.
    That itself is water and then it becomes parasitology, you 
already heard, where it lowers the efficiency of the power 
plant. So that affects your total water use per kilowatt hour 
that's useful. Then you can impact water quality if you don't 
sequester carefully. So you have to be careful how you 
sequester and where you store your CO<INF>2</INF> when you 
liquefy it and put it into the system.
    In Texas we've been doing carbon sequestration injection 
for advanced oil recovery for a few decades. In a lot of the 
permeating centers around water quality ensuring you don't 
pollute the water systems. So it's an important, complicated 
system. You start to see energy/water/carbon tradeoffs.
    There are some simple synergies, things that are good for 
energy that reduce energy, also reduce carbon and reduce water 
and vice versa. But now we have these more complicated 
interactions where things that are good for carbon, like 
biofuels, might be bad for water. But things that are good for 
water, like dry cooling. If you don't do it right, it might be 
bad for carbon.
    So we have to be very thoughtful about this. There's 
definitely very complicated relationship, but they can't all be 
overcome. But you do have to sort of pay attention ahead of 
time.
    Mr. House. One of the things that the water agencies in 
California says, you know we have a little more rigorous goal 
on greenhouse gases than the rest of the country has. But, so 
one of the things that the water agencies in California do, and 
is, they're determining their carbon footprint. This is where 
the renewables comes in.
    What they're doing is we're building renewables to 
basically offset the amount of electricity that we're using. In 
my testimony I have a description of what kind of technologies 
are out there and how much the water agencies are doing. But 
one of the things which, the two things which has really 
happened is one is that the water agencies, the largest single 
group of solar installations of the State and the other is that 
for biogas, basically it will be impossible to flair biogas 
from waste water treatment facilities.
    So what the water agencies are doing is they're taking that 
and they're running it through generators now and they're using 
biogas to do that. So at least, I think that from that one 
market segment which is for a particular water industry. They 
have, at least in California, and I think the rest of the 
country, they have the space and they have the interest to try 
and offset their carbon emissions completely or fairly 
significantly through the installation of renewable generation 
on their locations.
    Mr. Gleick. Senator, you're asking a great question. I 
don't know of any real research that's been done on the water 
implications of sequestration. It may have been done. But if it 
hasn't, it's a great example of the need to look at water when 
you make an energy decision.
    Sequestration is one of the many solutions we're going to 
have to think about in dealing with carbon. Obviously the best 
way to get carbon out of the atmosphere is not to put it there 
in the first place. If we have to sequester carbon it's going 
to be very expensive to do. It's considered an option but we 
have to think about the implications.
    The final point is here, you pointed out about the census. 
One of the reasons why this is a national, should be a 
national, not a local or a State effort that I give a water 
census. It's precisely because we have State boundaries. Our 
watershed boundaries don't pay attention to State boundaries.
    Water crosses political borders. So you don't want a State 
doing a census. You want a watershed census.
    The Colorado River is shared by seven states. A lot of the 
rivers in the Southeast are shared by multiple states. It's the 
perfect example of where a Federal role in doing an evaluation 
of how much water we have, where it is and who uses it, is 
appropriate.
    Mr. Bolze. Senator, the only thing I would add is again, as 
was mentioned earlier, looking at energy, water and the carbon 
issues are interrelated, obviously. We don't have any specific 
data around on carbon sequestration. We're obviously involved 
with some projects to look at that with our customer base.
    But I agree with your point. It needs to be studied as they 
look at that investment. I think, as was mentioned earlier, 
carbon sequestration is used in a number of areas and has been 
for a number of years in the area of enhanced oil recovery.
    As our customer base, some of the customer base looks at 
carbon sequestration, they have to look at the economics of 
that sequestration system that has to be put into place and how 
that works for the total cost of, you know, their output of 
production. So I agree with your point. It's got to be looked 
at, not only for coal gasification or for coal plants with 
carbon sequestration, but also with all of the various energy 
options.
    I believe those economics will vary based on location, 
obviously climate, location because the technologies perform 
differently and it also is dependent on the water scarcity in 
that specific region.
    Mr. Bauer. I would just add that there is carbon 
sequestration work at the Department of Energy in which NETL, 
National Energy Technology Laboratory leads and coordinates the 
regional partnerships across the country. Water and the impact 
of sequestration injection is part of those considerations. 
Having said that, there is data coming out, but there's a great 
sensitivity to that as Dr. Webber pointed out, a good example 
is the EOR. It's been done for decades where water is one of 
the issues that must be dealt with in a permitting process. So 
obviously water is something that must be dealt with.
    There is another side of this; in the bill it talks about 
the nexus of energy and water, but it kind of emphasizes the 
energy side of it. I think the dependence of water on the 
availability of energy must be considered as well. Because as 
Steve just said, if you don't have the energy to move the 
water, you don't have the water.
    So the quantity of energy needed has to be traded off 
against how you deal with it, which is all the variables we 
have to deal with in both water, carbon dioxide and energy. 
They have to interplay both on the banks of technical and 
potential, positive or negative results. But also the economic 
impacts are substantial and have to be considered in the 
tradeoffs.
    Senator Corker. Mr. Chairman, thank you. Thank you all.
    The Chairman. Thank you. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. I would like to 
welcome the panel. Thank the chairman and the ranking member 
for holding this important hearing. The water supplies are 
important in all parts of our country. But certainly in the 
West we, as in the Rocky Mountain West, we really know, living 
in an arid climate, the challenges that we face.
    I think you can measure society's health with a number of 
different metrics. The energy supplies for one, based on where 
the accessibility, the affordability, the predictability, you 
could do the same thing with water and water supplies. The two 
are interrelated as our hearing is showing us here today.
    Dr. Gleick, I note of some interest to you, you talked 
about the potential we had some 100 years ago or 150 years ago 
to organize the West in particular on watersheds. There's a 
well known Civil War Major, one armed veteran, Major Powell who 
made that very proposal. We're now trying in the West to govern 
ourselves based on his principles.
    It's an opportunity lost. Nonetheless we have to move 
forward. So I appreciate your making that point.
    I have been in an Armed Services hearing, so forgive me for 
arriving a bit late. I know the Chairman pursued a question 
around whether incentives for water reuse. I wanted to follow 
on with the panel with this question.
    Are there regulations and policies that stand in the way of 
increased water reuse and recycling for industry, business and 
homes? What are these and how could Congress address these 
issues? Would anybody on the panel like to dive in and take a 
shot at answering that question?
    Dr. House, you? California experiences would be 
informative.
    Mr. House. In California water reuse really isn't much of 
an issue because we do it and particularly in Southern 
California. If you look at the new sources of water supply that 
we're looking at, conservation is Number 1 and reuse is Number 
2. Within a few years, probably within the next decade there 
will probably be no waste water that has been treated that's 
sent out to the environment, to the ocean anymore.
    We're using it. There's something like 250 cities that are 
using it on parks and it's used for agriculture. It's used for, 
as I said earlier, for power plant treat, for power plant water 
use. Basically the policy basically prohibits the use of fresh 
water at power plants in California.
    What that's done is it forced the number of the new power 
plants to go to reclaimed water. Then the other thing that is 
happening particularly in the Southern part of the State is 
that the reclaimed water is used for aquifer recharge. So at 
least in California and I can't speak for the rest of the 
country, but reclaimed water and water reuse is one of the 
building blocks to get to the future for the State.
    Senator Udall. So from your experience there are no Federal 
laws or policies that get in the way of the policies that 
you're pursuing in California proper?
    Mr. House. I am unaware of any. The one thing that does 
sort of come into this depending on what you use the reclaimed 
water for, you have to treat it to a much lower standard if 
you're going to use it say, in a power plant than if you're 
going to use it to recharge an aquifer. So for example, if you 
used it to recharge an aquifer you basically have to treat it 
to drinking water standards, the waste water, to drinking water 
standards before you put it back into the aquifer.
    So it does have some impact upon the level of treatment 
that you use depending upon what the use of the recycled water 
is.
    Senator Udall. Other panelists.
    Mr. Bolze. Senator, just addressing the other side of your 
question in terms of are there additional policies or such or 
what are the policy options that are available. I had mentioned 
earlier that we have a white paper that just addresses what are 
some of the other options for water scarcity, addressing water 
scarcity through recycling and reuse. We can make that 
available.
    What I boil it down to is a couple things. Some of which 
we've talked about. One of which is just around education 
outreach which is just a little more visibility around the 
various water usages and statistics by location. I know this 
committee is looking at that as part of its legislation.
    Second of which is, as we talked about is some countries 
around the world are looking at direct incentives be those for 
investment tax credits. Some are looking at accelerated 
depreciation policies. There's different ways to do that. I 
wouldn't say there's one that's perfect but there are a variety 
of ways to look at direct incentives.
    The third of which is some countries are looking at 
mandates and regulations around specific water reuse or percent 
reuse.
    I think the fourth of which has to do with your earlier 
question which is around removing barriers, if they do exist, 
be it at the local level, the State level, the Federal level 
and such.
    So I think there are a variety of different options. What 
we have seen as we talk to people, not only in the United 
States but around the world is there's different ways to go at 
this. But right now I would say the biggest issue we hear back 
from our customers is again back to the point of the economics 
of using/reusing water that's been say treated for industrial 
purposes verses then going and getting new water from the 
ground or wells etcetera. The economics better supports going 
out and using new water. So just some options for the 
committee.
    Senator Udall. Thank you.
    The Chairman. Thank you very much. Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman. It has been a 
very useful hearing. It raises all kinds of questions.
    Let me ask a probably stupid one, but one that occurs to 
me. Mr. Bauer, you indicated and I think that the vocabulary of 
the panel indicates that water is reused. There is a difference 
between use and consumption because it goes, evaporates and 
then it comes down in rain.
    That raises the question is there a finite amount water in 
the planet that is disappearing as a result of human activity?
    Mr. Gleick. Senator, there's no such thing as a stupid 
question.
    Senator Bennett. Just stupid people who ask them.
    [Laughter.]
    Mr. Gleick. No. The amount of water on the planet is fixed. 
What's not fixed is where it is and when it is.
    Senator Bennett. Alright.
    Mr. Gleick. It moves in and out of stocks of water, lakes, 
ground water, oceans and flows of water, flows in the river, 
rainfall. It's constantly in motion. It's a hydrologic cycle.
    What we worry about is two things. Withdrawal of water, 
just the total amount of water that is withdrawn to do 
something. For power plant cooling it's a tremendous amount----
    Senator Bennett. When it is withdrawn from your first 
statement, it doesn't disappear?
    Mr. Gleick. Not always.
    Senator Bennett. Ok.
    Mr. Gleick. There are problems with withdrawal, only 
withdrawal, not consumption if you're in a place that just 
doesn't have much water where there are already demands for 
water. You just can't withdraw anymore. You can't build a new 
power plant because all the water is spoken for.
    Senator Bennett. So you're talking location?
    Mr. Gleick. That's a location question. In other places the 
consumption of water which is a small fraction for power, a 
much smaller fraction, is typically steam that goes to the 
atmosphere. It goes and it disappears in the watershed that use 
it and it comes down as rainfall, maybe 1,000 miles away.
    Senator Bennett. Ok.
    Mr. Gleick. It doesn't disappear but it's no longer useable 
where you had it.
    Senator Bennett. Alright now it comes down as rainfall. Two 
thirds of the world is ocean and we have not yet found a really 
economic way to use all the water in the ocean. Desalination is 
very expensive and very difficult.
    Does this mean there is, by virtue of human activity a 
trend away from water on land that we use toward being absorbed 
in the oceans? If we go back to your first point that the whole 
thing doesn't go away, but the location changes?
    Mr. Gleick. No. If you consume water in a watershed it 
doesn't affect how much water that watershed gets next year or 
next month. That's not, unless you're changing the climate, and 
there's long term changes.
    Senator Bennett. Yes. Right.
    Mr. Gleick. It all ends up in the ocean, goes back. In the 
end it comes back again. So the comsumpted use of water doesn't 
affect the long term renewability of the water in a watershed.
    Desalination, 97 percent of the planet's water is salt 
water.
    Senator Bennett. Right.
    Mr. Gleick. We do know how to desalinate. The technology is 
well understood. It's, as you say, expensive.
    We will use desalination more and more where we're willing 
to pay for it if we evaluate it on equal footing with recycled 
water with conservation and if they see when it's cost 
effective. I think we'll see more of that.
    Senator Bennett. Alright. Dr. House? Thank you for that. 
That's helpful to me.
    Mr. House, you said there are no Federal requirements that 
get in your way of water. You treat it to various levels, an 
industrial level, a culinary level, so on. I've had complaints 
from municipalities along the Wasatch front that's a provincial 
term for people whose cities are at the foot of the Wasatch 
Mountains on the west side of it. They are required by Federal 
law to clean up the water that goes through their municipality 
to drinking water standards when it comes out the back end of 
the pipe.
    When it comes out the back end of the pipe it immediately 
goes into the Great Salt Lake where obviously it is not 
drinkable. Is this just unique to Utah or do you have Federal 
requirements that get in the way of your reusing water that 
raise the cost?
    Mr. House. No. There are Federal requirements for various 
types of water. In the situation that you're talking about is 
kind of unique because what I was talking about is the reuse of 
the water. So in California what we typically do is we take the 
water. We treat it to some level to our standards.
    Senator Bennett. Yes, yes.
    Mr. House. Then we reuse it. In your case that water is not 
being reused.
    Senator Bennett. I know. The Fed standard doesn't pay any 
attention to where it goes after it comes out of the pipe.
    Mr. House. Nope.
    Senator Bennett. If it did then it would say, well you 
don't have to do that. It could be to perhaps what you would 
call an industrial level. So should the Federal law be adjusted 
to say we have to pay attention to the use rather than just say 
when it comes out of the end of the pipe it always has to be of 
drinking level quality?
    Your comment to Senator Udall indicated that maybe there is 
that kind of flexibility. My experience is that there's not.
    Mr. House. I don't know exactly what--and I'm not here to 
make policy.
    Senator Bennett. No, I understand that. You're here to 
inform us.
    Mr. House. But the use of that water, the reclaimed water 
is very useful. I think the solution would be to find something 
that would use that water in the Salt Lake area. Then you don't 
have cleaning up water.
    I know that in California we have a lot of issues to in the 
area where I live they not only have to treat the water to 
drinking water standards, they have to cool it before they send 
it back into the environment because it's a trout stream. So I 
know that the water agency gripes about that. So, you know, 
we've got to cool this water to a certain temperature before we 
can put it back into the stream.
    But those are policy issues that you guys deal with.
    Senator Bennett. Ok, yes. Doctor.
    Mr. Gleick. Senator, there is nothing at the Federal level 
that prohibits you from not putting the water in Great Salt 
Lake, but reusing it. What the barriers are, as we've discussed 
financial, sometimes structural because there's no pipe to get 
the water from where we have it treated to where we could use 
it for outdoor irrigation or for flushing toilets. We don't 
even have to use it for drinking.
    But the challenge is overcoming those barriers. The 
challenge is finding financial incentives so that it now makes 
sense not to throw it in Great Salt Lake, but to reuse it 
locally rather than finding a new source of pristine water 
that's maybe more expensive. It's a financial challenge rather 
than a regulatory one.
    Senator Bennett. Yes. Ok. Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. If I 
could Dr. Webber, you had mentioned that water consumption for 
transportation fuels is going to be more than double because of 
the new fuel mandates. I was reading a Wall Street Journal. It 
was an editorial from October 2007. It talked about ethanol 
plants consume roughly four gallons of water to produce each 
gallon of fuel.
    But it goes on to say that when you count the water needed 
to grow the corn one gallon of ethanol requires a staggering 
1,700 gallons of water. I wondered if I could ask you to 
comment on that? Then a little bit about what you think this 
whole impact is going to be on our water supply nationally, 
worldwide over the next decade how this may impact different 
issues of farming, ranching and others?
    Mr. Webber. I think you're exactly right. Early on the 
people that focus on how much water was needed for processing 
or upgrading to the feed stock, bio feed stocks into fuels. 
It's a few gallons of water per gallon of fuel which is not so 
different than gasoline or unconventional fossil fuels.
    The difference is on the growth side where you're producing 
the feed stock. It needs anywhere from 400 to 1,700 gallons of 
water per gallon of fuel. That water has to come from 
somewhere.
    Most of that water comes from rainfall. But about 15 to 20 
percent of those crops are produced from irrigation. When 
you're using irrigation you're taking it from surface sources, 
rivers or lakes or from aquifers. So you can affect water 
supply issues.
    So there's no question that biofuels are very water 
intensive. In some parts of the world you have the water so 
it's not a problem. But in some places the water is strained. 
You have to take it from aquifers or other finite sources.
    So these trends toward biofuels that require irrigation can 
be problematic on the water supply system. However there are 
ways to grow biofuels without irrigation. You can use other 
sources. It doesn't have to be corn. You can use cellulosic 
sources or non irrigated sources. Feed stocks can grow in 
different types of land, that kind of thing.
    So we should be attentive, I think, to the type of feed 
stock we're using for sure.
    Senator Barrasso [continuing]. Solar power the other day 
Senator Kyle was talking about, you know, where the sun is in 
Arizona. But due to the lack of water it could be much more 
difficult to because of the water demands for using solar 
power.
    Mr. Webber. It depends on whether you're using solar panels 
that are photovoltaic power or solar thermal. Solar thermal 
needs water for cooling, certainly.
    Senator Barrasso. Ok.
    Mr. Webber. It's not clear exactly how much it needs 
compared to coal or nuclear power.
    Senator Barrasso. Ok. Mr. Bolze, if I could. You note in 
the last paragraph of your testimony you said there is also 
good news on the coal front. Since we know that coal is the 
most available, abundant, reliable and secure source of energy 
we have in the United States. Can you talk a little bit about 
that? Because you do mention, you know the dry feed injection 
process and efforts to really keep down the use of water in the 
carbon sequestration.
    Mr. Bolze. That's correct. There is a lot of technology on 
today for advanced uses of coal as a power source and doing it 
with in mind with water consumption in mind. One of the things 
we had mentioned earlier was as in the State of Wyoming we have 
a relationship with the University of Wyoming to develop 
advanced coal gasification.
    This is for the use of what are called lower rank coals. So 
many of the western states, Wyoming, Colorado, Montana, Utah, 
South and North Dakota have these coals and as we can utilize 
advanced technologies we can use that for power generation. We 
can do it in a way that has much less water consumption than 
existing coal plants.
    That technology still needs to be, you know, further 
developed. We are building one of those plants today with 
eastern coals. But it's one that's getting a lot of attention. 
I think back to the purpose of one of things we're going 
through here is as our customers look at those investments. You 
have to look at both the energy as well as the water 
consumption issues associated with that investment.
    Senator Barrasso. From the standpoint of lower rank coal 
you're talking about the number of British thermal units, the 
BTUs.
    Mr. Bolze. That's correct.
    Senator Barrasso. It's under 9,000 or 8,500.
    Mr. Bolze. That is correct. That plays into how our 
customers look at the cost of generating power because how much 
BTU can you get out of that specific coal resource.
    Senator Barrasso. Then though the Wyoming call it, the 
areas you described are also low sulfur coal.
    Mr. Bolze. That has to play a factor as part of the 
decision also. Correct.
    Senator Barrasso. Ok, thank you. Thank you, Mr. Chairman.
    Mr. Bolze. Thank you.
    Senator Barrasso. Thank you.
    The Chairman. Senator Shaheen, you just arrived. You 
haven't had a chance to ask questions. Did you want to go ahead 
or do you want us to see if there are other questions here 
before you----
    Senator Shaheen. Why don't you do that?
    The Chairman. Ok. Let me just ask one other question that 
I'm confused on. I think one of you, maybe it was you, Mr. 
Bauer, talked about an increase in the price of electricity 
results in an increase in the price of water. I believe that 
was the testimony.
    I'm just not exactly clear how that cause and effect works. 
Could you just elaborate on that?
    Mr. Bauer. Yes, sir. Thank you for the question. 
Recognizing that water is very energy dependent as we've all 
spoken to this morning, and largely electricity dependent, as 
you raise the price of electricity the cost of electricity to 
move the water, treat the water, handle the water goes up.
    So there's a substantial component of water cost, a 
doubling, for example. The doubling of the price of electricity 
would probably raise the price of water by about 25 to 40 
percent depending on how far the water had to be transferred, 
as we spoke about earlier in the panel. So it's just a simple 
connection of the----
    The Chairman. So it's the use of the energy, the 
electricity----
    Mr. Bauer. Right.
    The Chairman [continuing]. To move the water and utilize 
the water that drives up the price of the water.
    Mr. Bauer. Yes, sir. It's not, at least not initially a 
direct relationship to how much water is being utilized by the 
generation of electricity. It's purely the price of electricity 
that's caused by whatever raises the price, whether it's 
different kinds of technology, whether it's greenhouse gas 
influence in the price of producing electricity.
    Those will all also have a substantial impact on water. Yet 
we need the energy to have the water. So it was just to make 
that point of another form of interconnection that we have to 
realize as we think about these things.
    The Chairman. Ok. Do all of you agree with that 
interconnection?
    Mr. Gleick. Yes. In my testimony I mentioned that the 
British Water Company, Thames Water recently calculated that 
that 17 percent or 20 percent of their operating costs are 
energy costs. As the price of energy goes up their operating 
costs go up. That in turn forces them to raise the price of 
water to their customers, exact same relationship.
    The Chairman. Ok. Yes, Dr. House.
    Mr. House. This actually plays into the looking at new 
water sources too. Because one of the reasons that desalination 
is so expensive is because it uses huge amounts of electricity. 
So when a water agency is looking at what their sources of 
water are now, at least in California, they're also determining 
what the energy input to those various sources of water are to 
determine what, not only embedded energy they have coming out. 
But determine how sensitive they are to changes in the price of 
energy.
    Mr. Gleick. If I might add to that. There's a National 
Academy of Science study that just came out a year ago on 
desalination. They made a number of observations, but two in 
particular.
    The energy required to desalinate has been going down as 
the technology is improved. That has driven the cost of 
desalination down. But in recent years the cost of desalination 
seems to be curving upward again.
    In part because the cost of energy is going up because it 
takes so much energy to desalinate a gallon of water it's very 
sensitive to how much we pay for energy. If the costs of 
energy, in the long run, is going to go up, that's going to 
keep the cost of desalination very high.
    The Chairman. I remember reading about a year or two ago 
about a project. I think in Perth, Australia where they I 
gather have a wind farm that produces the energy that they need 
to run a large desal plant. Provide a lot of the water that the 
city uses from that. Any of you give us more detail on that?
    Mr. Gleick. Yes. The Perth Desalination Plant is one of the 
largest in the world. It's relatively new.
    Because the Australians are particularly sensitive to 
greenhouse gas emissions in that region they made a commitment 
to build wind turbines to power, not necessarily all, but a 
very large fraction of the energy to provide the energy for 
that desalination plant. I think they built 80 megawatts of 
wind turbines that provides a substantial amount of the energy 
required for that plant. We could do the same thing.
    We've recommended in California in fact that if they want 
to consider encouraging desalination that they do it in a way 
that doesn't increase greenhouse gas emissions because 
California has a very strict policy to try and reduce 
greenhouse gas emissions. That they encourage the construction 
of renewables in order to power those sorts of water 
facilities.
    The Chairman. Dr. House.
    Mr. House. I would just second that one of the main 
regulatory agencies in California that deals with desalination 
is the Coastal Commission. They just approved a big 
desalination facility down in the southern part of the State. 
But just as Peter was saying they are required to be carbon 
neutral. So they were required in order to get approval for 
desalination to mitigate all of their carbon emissions through 
offsets and purchases of renewable power.
    Mr. Bolze. Just Senator, one thing I wanted to add to your 
question. You brought up the Perth plan. Australia as a whole 
though is experiencing water scarcity issues as many of you all 
know similar to parts of the United States
    They're at 8 percent reuse today. They have set a target 
for 30 percent reuse by the year 2015. Again they're addressing 
it through a number of policies. One of which are State by 
State level incentives. Some of which are grants. That's not 
all of it.
    But they've set that as a priority. The Perth project that 
was discussed was part of it. One of the things as we look 
through this, we talked about there's different numbers, but 
the approximate 6 percent reuse in the United States.
    As we talk to our customers, as we look through that, our 
view is that given a large majority of that water is used for 
once through cooling, is you can get to numbers that are 
anywhere between 20 to above 50 percent, less water usage for 
energy production just through some of these new technology 
applications.
    The Chairman. That's on a typical coal plant you're talking 
about or----
    Mr. Bolze. No, that's an aggregate because again when we 
talk about the water usage a lot of it is mentioned by a number 
of the panelists has to do with the ones through cooling. So as 
you get associated with policies and incentives for water reuse 
technology, you can capture that water for reuse and then less 
overall water usage.
    The Chairman. Ok. Senator Murkowski, did you have 
additional questions?
    Senator Murkowski. Yes. I do, Mr. Chairman. In this 
morning's news, I don't even know where this came out of. It's 
an article from Denver, Shell had requested water rights from 
the Yampa River in Northwest Colorado for use in oil shale 
production.
    Not an unusual story in and of itself but as you go through 
there's a comment here that it's anticipated that it could take 
a year for the water court to review Shell's application 
letters ofopposition and all that goes with that. But it caused 
me to wonder as I was reading that. You mentioned the water 
census and just an understanding of what it is that we have in 
terms of that resource.
    You have these water courts that are looking at water flow 
and water rights as negotiated under compacts. But when they're 
doing that they're not really looking at the big energy picture 
in terms of the impacts that we may have on our use. I'm just 
wondering if this process that we currently have for litigation 
of water rights and who gets what whether there's any 
consideration given to what we're trying to do with movement 
toward renewable energy resources.
    You're all kind of smiling in a way that makes me think 
that the question is really either weird or there's an issue 
out there. Dr. Gleick?
    Mr. Gleick. Not only is it not a weird question--I'll tell 
you why I'm smiling. I'm smiling because it's a key question. 
The whole question of water rights, especially in the Western 
United States is central to a lot of the debates we've been 
having for a hundred years about water and now energy policy.
    In Colorado, the fact that they're even considering 
granting more water rights on a system that, as Senator Udall 
knows is enormously stressed already by the water rights we've 
given out, which probably in the long run exceed the water 
that's available is part of the difficulty that we're having. 
In Australia they had a terrible drought. One of the things 
they've done is they've revamped their water rights system. 
Something that some of us might wish we could do in the United 
States, but aren't holding our breath for.
    So you're asking the right question.
    Senator Murkowski. But this goes back to my question in the 
first round is there what needs to be done from the Federal 
policy. It sounds to me like we don't have much of a connection 
between our energy policy and our water policy in this country. 
Is that correct?
    Mr. Gleick. Yes and this bill helps address that in part by 
requiring really for the first time that we start to integrate 
the thinking. That we think about energy and water together 
when we think about water and energy together. Part of it is 
understanding the connections. Then part of it is ultimately 
developing the kinds of policies that either are in the bill or 
that some of us have recommended to then change national policy 
to save both water and energy together.
    Senator Murkowski. Let me ask you one final question, Dr. 
Gleick. I understand that you have spent considerable time just 
looking at the relationship of water and war in the Middle 
East. Can you give us any lessons here in national security of 
course as it relates to energy is absolutely key?
    How does water fit into the national security issue itself 
and what have you learned over there that we can take home 
here? You've got a minute, 20 seconds.
    [Laughter.]
    Mr. Gleick. I appreciate the question. It's another good 
one. It's worthy of a hearing of its own.
    There's a very strong connection between water and 
conflict, a very long history going back 5,000 years. For 
students of history we have on one of our websites a 
chronology, the Water Conflict Chronology, that describes 
examples throughout history of conflicts over water. The short 
answer is I actually think we're more likely to see conflicts 
over water issues than over oil in the long run, although 
obviously there are political tensions over both.
    I think there's solution to both. I think there are ways of 
reducing conflicts over energy crossing borders and water 
crossing borders. But it requires more than a minute answer.
    Senator Murkowski. We'll come back to you in another 
hearing. Dr. Webber.
    Mr. Webber. Yes, I want to make a positive following 
comment. Water scarcity can be a source of war but water 
availability can be a source of peace. There's the other way. 
We can use our technology and our prowess as a Nation to 
improve our foreign policy and use this instrument of foreign 
policy to help bring clean water and clean energy to different 
parts of the world.
    So there's the positive side to this as well. There's 
definitely the conflict side.
    Senator Murkowski. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you. I remember meeting with the 
Eastern Canadian Premier which the New England Governors do on 
a regular basis. How surprised they were that we in New England 
weren't thinking about what our water issues were going to be 
in the future.
    Clearly we need to start thinking about that now. But I 
want to ask you about the coal technology and the carbon 
capture technology. Given the amount of water that that's going 
to take--and the fact that at least to date much of the storage 
has been in places where there are certain fault lines that 
allow us to store the carbon, do you have any analysis or 
wisdom about what we ought to be thinking about as we're trying 
to make the two of those match?
    Because I guess as I look at the geography of the country 
it seems like many of the places where we can do the storage 
are not going to be places where they have a lot of water. So 
is that a false notion? What should we be thinking about as 
we're looking at trying to expand and deal with those coal 
technologies?
    Mr. Bauer. Many of the places that have potential for 
carbon long term storage, CO<INF>2</INF> long term storage at 
deep levels in saline formations, saline aquifers, do have 
water there on the surface where the water might be utilized 
for cooling. Some areas are well equipped. The Ohio Valley for 
example, and other portions of the internal portion of the 
country. In New England there's not a lot of opportunity for 
carbon storage, except perhaps offshore until you get to 
Western New York.
    So it varies. So the question is do you have the water on 
the surface to use for thermal power generation where thermal 
power generation exists. Are there places to put the 
CO<INF>2</INF>?
    The answer is it geographically depends. I'm not trying to 
be foolish about that. But it does. You're very right about 
that.
    One of our projects through the regional partnerships is 
looking in the Southeast for substantial storage in saline 
aquifers. That project looks at the fact that if we put 
CO<INF>2</INF> in there we should see some increase in pressure 
in the aquifer. They're actually bringing the saline water up 
and desalinating as a further source of drinking water.
    You have the issue of--and going back to Dr. Webber's 
earlier statement about EOR and making sure you're respecting 
water and properly putting the CO<INF>2</INF> away so there is 
no harm to any forms of drinking water or future drinking 
water. That is a question, do you use the saline reservoir as a 
future drinking water source? In this case it would be 
definitely, it's even being planned to be a future water source 
with greatest impressions with substantial quantity of 
CO<INF>2</INF> which will further help the pump to bring the 
water to the surface over 8,000 feet. Then you would desalinate 
up there.
    Now that does have an energy penalty. So many of these 
things, I think, come back to the technological breakthroughs 
we can make to accomplish the water source, this even goes to 
the issue on war and conflict. Part of the challenge in China 
and India is good drinking water.
    That takes energy. If you have people who don't even have 
an electric light bulb in their house you don't have a lot of 
energy for good drinking water. So you have very poor quality 
water.
    So if we can take technologies that address multiple issues 
that can help to conserve both energy and water and make it 
available.
    Mr. Bolze. Senator, just a couple additional points I'd 
like to point on. It's very much location dependent as you 
would imagine. Many people are studying where those aquifers 
are to store the carbon and where the location is verses where 
the power is needed as well as where the water needs are.
    We have a partnership with a company called Schlumberger 
that kind of looks through how you map that out. There are 
other people that are looking at that also. But I think the 
other side of it too is when you get into the costs of--as our 
customers look at a coal plant or other ways with carbon 
sequestration is not only is it the water consumption, but it's 
also the percent carbon capture.
    There's a big issue between let's say equivalency to an 
existing coal plant or to a natural gas combined cycle plant or 
to a zero emissions plant. The huge cost differences as you 
step up that curve as well as water consumption. So I think 
there are a number of aspects we have to look at. It's not an 
easy question. But it is the right question to look at.
    Senator Shaheen. Thank you.
    The Chairman. Senator Bennett.
    Senator Bennett. Thank you very much. We have an energy 
source in this country that is going unused. As some people 
have described it as equivalent of Saudi Arabia and that's 
probably an overstatement and that is the power that is 
generated at night, that goes unused today a power plants does 
not shut down.
    Dr. Webber in your very excellent piece for Scientific 
American, you talk about the amount of water involved in a plug 
in electric hybrid. But if the plug in electric hybrid is 
charged at night off power that is lost anyway because it's not 
used that changes the equation. I'm assuming that you wrote 
this as if it were charged during the daytime because our 
meters charge so much per kilowatt hour regardless of when we 
do it.
    Utilities are trying to find ways with SMART meters to get 
people to use the washing machines and so on at other times and 
change the economic incentive for when you use your facilities. 
Now as I have listened to this panel I think there are a lot of 
uses of energy tied to water that are not time sensitive. I 
wonder if anybody has done any kind of thinking about or 
studies on the question of what lowering the cost of getting 
the kind of water we need if it could be all tied to those 
periods of time when the power generation is basically going to 
waste?
    You run a nuclear plant 24 hours a day. You have to. Then 
at night the electricity is not being used because the plants 
are shut down and people are asleep and so on.
    Is there any kind of data? Are there any kind of data on 
this? Are there any kind of incentives, Dr. House, in 
California to try to move in the direction, not just of getting 
people to use their washing machine at night, but to take 
advantage of this significant power source which we already pay 
for and don't use? So?
    Mr. Webber. I think the plug in hybrid point is very 
important. The numbers I used for the article are national 
averages. The type of electricity used for plug in hybrids 
determines how water intensive or carbon intensive your 
electricity is. That varies a lot all over the Nation.
    Some parts of the Nation use a lot of coal. Some use a lot 
of nuclear. Some use a lot of wind. So the profile for your 
plug in hybrid will vary, will be very different in Cleveland 
than Austin than Seattle.
    Generally plug in hybrids are very appealing for a lot of 
reasons. Generally there is an environmental ease of scrubbing 
the emissions from 1,500 power plants as opposed to 100 million 
tailpipes. So there's an environmental advantage to plug in 
hybrids.
    You can use this excess power at night. Not all parts of 
the Nation have excess power. In Texas we turn our power up and 
down to match the load. In some parts of the Nation they make 
excess and throw it away.
    The appeal of plug in hybrids partly is also that wind 
tends to be more available at night, at least continentally in 
the Nation. So plug in hybrids match well with wind which is 
great. So there is some time sensitivity.
    Senator Bennett. I worry about wind on the grid because the 
wind doesn't always blow. If it suddenly stops you----
    Mr. Webber. Yes, the wind doesn't always blow. It is 
variable. You usually know about 30 hours in advance if it's 
going to turn off. What we're finding in Texas sometimes the 
gas turbines don't always spin either.
    Senator Bennett. Yes.
    Mr. Webber. So we have all sorts of availability problems. 
Sometimes the wind doesn't blow then the gas turbines shut off 
and then you have a blackout. So there's a time sensitivity of 
when energy is available that matches available plug in 
hybrids.
    For example it matches well with water. The way we tend to 
do water markets is that price for water is the same every 
minute of the day, every day of the year, every year of the 
decade even if water is not available. So we could have 
smarter, more time sensitive prices that reflect supply and 
demand.
    Particularly we see increased water demand in the summer 
for irrigation.
    Senator Bennett. Yes.
    Mr. Webber. The prices don't reflect that. So there are 
time sensitivity issues. Also the variability of some of these 
renewable sources, like wind and solar match well with water 
because we don't need water to be continuously treated all the 
time. We can sort of store it up.
    Senator Bennett. Right.
    Mr. Webber. So wind and solar match really well with water 
treatment, desalination, like we heard about in Perth, 
Australia for example.
    Mr. House. The water systems are very well situated to do 
this demand response. In California in my testimony I talk 
about how the water agencies in California dropped 400 
megawatts every summer afternoon because when you build a water 
system what you want to do is you want your water treatment 
facility to be working pretty much around the clock. But you 
have these bimodal peaks in your water supply.
    So what all the water systems do is they have some place to 
store this water. What we're doing in California to a large 
extent is that you're using the water out of storage during the 
summer on peak period. One of the frustrations has been that 
there is a lot more that we could do.
    But there aren't really incentives that were set up for--
the water systems were built with the storage for water supply. 
They weren't really built with the storage for energy use. It 
is difficult, particularly due to the sort of the WIP saw that 
occurs with rate that the water agencies say, I'm not going to 
build another storage facility because I'm not sure that I'll 
be able to amortize this over a long enough period of time.
    Senator Bennett. I see.
    Mr. House. But if you could get some sort of stability 
there's another probably 600 megawatts of on peak curtailment 
that could be done in the State of California from existing 
sites if there was an incentive that was permanent enough that 
the water systems would say it would build additional storage 
and reduce their on peak electrical.
    Senator Bennett. I have a source. The Chairman has heard me 
on this. It's my hobby horse, tidal power.
    I've been in Lagrange, France where they have a tidal 
system. Unlike wind you know to the second when the tide is not 
going to be rising or falling. They built that system 40 years 
ago.
    It is so reliable when I took the tour of it they said we 
have nobody here at night and on weekends. It just operates. 
They know exactly when it is. They know exactly how much power 
it's going to generate in what periods of time.
    I think that tides rising and falling in the Gulf of 
California which is very close to the California grid is 
something that California really ought to look at in 
cooperation with Mexico because it could provide you with the 
kind of thing that Australia is talking about the tremendous 
amount of power that is going to be there as long as the moon 
revolves around the Earth. If the moon ever stops we're going 
to have bigger problems than water, available to do exactly the 
kind of thing you're talking about.
    Thank you, Mr. Chairman.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. It's been a 
fascinating hearing. We see over and over again the nexus 
between water use and energy use, technology, national 
security. It's fascinating.
    I note that my good friend from Utah, Senator Bennett comes 
from a pioneer family. He himself has been a pioneer in 
promoting hybrid vehicle technologies. In fact I'm not going to 
get myself in trouble outing him, but he drove one of the most 
interestingly designed cars that Honda first produced, the 
Insight. But I note his passion about this opportunity and the 
way it does link to water supplies.
    When he talked about this unused resource I did think 
perhaps Senator Bennett would talk about oil shale which is 
there are enormous oil shale beds in our three states. Senator 
Barrasso has left, but Utah, Wyoming and Colorado. The story 
that Senator Murkowski just referenced in the Denver paper 
yesterday.
    I'm still a fan of newspapers by the way. You can't hold up 
a Blackberry with a headline. But the headline yesterday from 
the New York Post says, Water Plan Hits Wall of Foes.
    For the record I just wanted to note that the objections 
that were filed to Shell's plan included the Steamboat Springs 
water court which is where the objection was filed. It came 
from a coal company, a power company, an agricultural ditch 
company and Cross Mountain Ranch which is a hunting resort. I 
think Senator Bennett knows of that particular ranch.
    So this points out the challenges that we face in the West 
that Dr. Gleick is so well aware of and I think so many of you 
on the panel. I did want to note for the record before that I 
mentioned John Wesley Powell. People may have thought why am I 
mentioning this obscure Civil War Major, but he was the first 
head of the United States Geological Survey. The survey has led 
much of the understanding of the geography, topography, water 
resources in the West.
    Senator Bennett. Mr. Chairman, if I could just quickly.
    Senator Udall. Please.
    Senator Bennett. Where I come from there is an old adage. 
You referred to the pioneers. It's better to be ahead of the 
ditch than ahead of the church.
    [Laughter.]
    Senator Bennett. Indicating how important water really is.
    Senator Udall. I'm going to borrow that. Add to the 
repertoire that we have about water and the water fights in the 
West. Dr. House, you talked and I think many of the panel have 
talked about desal. The Chairman has as well.
    Would you comment on the brine in the salt byproduct and 
the challenges we face in disposing of it if we pursue a more 
broad based and aggressive desalination policy. Is it a problem 
on a large scale?
    Mr. House. I think it depends on what you mean by large 
scale. Most of the facilities, at least in California, one of 
the things that was particularly happening. The sun in 
California is going because we're chronically short of water 
and we're using the, they're called de-salters, but they're 
using brinish water.
    This is in as opposed to the ones on the coast that 
actually uses salt water. At least it's been my experience that 
they don't really have that much of an issue with that it comes 
out generally in a solid form. They can take it in a solid 
form. They use a land disposal for it.
    I know that there's been some discussions about disposing 
of it in the oceans. There's some questions that some of the 
environmental groups have raised of, oh well, is it going to 
increase the salinity in a particular area. The whole Pacific 
Ocean it's probably not. But if you've got one particular bay 
or something it may.
    But that has not been one of the issues that has been very 
much discussed at all. So it appears that they, at least for 
right now. Remember these are fairly localized plants and there 
isn't a huge, huge amount of it.
    If you had the 30 desal facilities that are being proposed 
for California coast it may become more of an issue. But it's a 
local issue. They use land disposal of it.
    Senator Udall. Other theories? Dr. Gleick.
    Mr. Gleick. If I might just add to that. It is a potential 
problem, the disposal of brine from desal. But it's a solvable 
problem with money.
    If you're building a desalination plant on the coast you're 
dumping the brine in the ocean. It's possible to dispose of 
brine in the ocean in a very responsible manner that diffuses 
back to normal ocean salinity very quickly. In fact in Perth, 
Australia in the desalination plant they built dispersal of 
brine system that's very effective and I think very 
environmentally benign. But it costs more money to do it that 
way.
    Brine disposal inland for de salting brackish water is more 
of a problem because you don't have the ocean to diffuse it 
into. You have to dispose of it either by evaporating off the 
rest of the water and producing a solid or one of the things 
they've done in El Paso where they've just built a desalination 
plant for brackish water is they're pumping it down, sort of 
like carbon sequestration, deep probably 2,000 feet into a 
saline aquifer to get rid of it. It stays down there. That's a 
safe way to dispose of the brine.
    But again, it's just more expensive. It's another way to 
simply say doing desalination right costs a little more money 
than doing it wrong.
    Senator Udall. As I understand it some of the CSPs, 
concentrated solar powered technologies use the salt that holds 
the thermal product of the sun's efforts. I imagine though 
there's a lot more salt that we produce through de-salt 
technologies that you could use in that technology. Then maybe 
about the kind of salt that's used for----
    Mr. Gleick. Yes, but those are also typically closed 
systems.
    Senator Udall. Yes.
    Mr. Gleick. Where the salt just cycles. You heat it up and 
then you cool it down. So that's a great question whether first 
of all, it's the same kind of salt. Then second of all if you 
built enough solar thermal plants whether you could use the 
salt from brackish water desalination plants.
    Senator Udall. In the end it's a different salt.
    Mr. Gleick. It's a different salt.
    Senator Udall. Ok. It was worth a try. I know in the end 
technology that's best imitates Mother Nature. There's an 
increasing interest in what's called industrial ecology.
    The Scandinavians have been pioneers in this regard. We 
are, in our own way, when you develop technology. But again 
technology is best that imitates Mother Nature. It recycles, 
hopefully on a shorter timeframe some of the products and 
byproducts of all of our uses as a modern society.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Shaheen, did you have 
additional questions?
    Senator Shaheen. No but I wanted to pick up on Dr. Webber's 
point about water being a potential for peace as well as war 
because we have an inventor, an entrepreneur in New Hampshire 
named Dean Cayman, who has developed a facility about the size 
of that desk over there which can clean water either from the 
ocean or from any other place. The point that he always makes 
is, you know, the cost of cleaning that water would be less 
than the cost of one missile. So I think it's a really 
important point to follow up on and to thank.
    We ought to be structuring some of our policies in that 
direction. Thank you for raising it, Dr. Webber.
    The Chairman. Thank you all very much. I think it's been 
very useful testimony. We'll try to proceed with this 
legislation and maybe find some more ways to improve it based 
on your suggestions. Thank you.
    [Whereupon, at 11:45 a.m. the hearing was adjourned.]

    [The following statements were received for the record.]
                                           American Rivers,
                                    Washington, DC, March 20, 2009.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, 304 Dirksen Senate 
        Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy and Natural Resources,304 Dirksen 
        Senate Office Building, Washington, DC.
    Dear Chairman Bingaman and Ranking Member Murkowski: On behalf of 
American Rivers' 65,000 members and supporters across the nation, thank 
you for your leadership in addressing the important relationship 
between water and energy in S. 531, the Energy and Water Integration 
Act of 2009. American Rivers strongly supports this legislation and 
appreciates the committee holding a hearing on the bill on March 10.
    Water and energy are two of the fundamental building blocks of our 
society. Both are intricately connected with the health of our 
environment and our economy. The information that will be gathered as a 
result of the studies in this bill will help lead to the development of 
policies that will encourage the most efficient and responsible use of 
our valuable natural resources.
    As the Energy and Natural Resources Committee moves forward with 
this legislation, we ask you to keep in mind that water and energy are 
both fundamentally local resources. Recent water supply crises in the 
Southeast and elsewhere tell us that these issues are moving to the 
forefront in all parts of the country. We believe that the studies 
called for in your bill will ultimately prove most useful if they 
consider regional differences alongside the general issues.
    While the studies in S. 531 are valuable, we urge Congress to also 
take action to reduce our water and energy demands. First, by directing 
federal agencies to improve the management of forests and watersheds on 
public land, we can lower the cost--in both dollars and kilowatts--of 
securing reliable supplies of fresh water. Forests are our nation's 
best and least expensive water infrastructure, providing natural 
filtration and storage for two-thirds of the nation's water supply.
    Thank you again for recognizing the interdependent relationship 
between water and energy. We look forward to working with you and your 
staff on this important legislation.
            Sincerely,
                                         Rebecca R. Wodder,
                                                         President.
                                 ______
                                 
  Statement of Peter Williams, Ph.D., Chief Technology Officer, ``Big 
                        Green Innovations'', IBM
                              introduction
    The energy-water nexus poses critical issues for the USA, from the 
perspectives of energy security, competition for water resources and 
respect for the environment. The Energy and Natural Resources 
Committee's consideration of the matter is therefore extremely timely. 
IBM is pleased to submit this testimony both on the energy-water issue 
generally and more specifically on the draft bill now under 
consideration that is intended to integrate decision-making on energy 
and water.
    IBM believes strongly in making our planet and its infrastructure 
``smarter''--providing more instrumentation, control systems, enhanced 
communications, data management, and analytic and visualization 
capabilities, to create systems that can adapt and respond as human and 
planetary needs change. This perspective has underlain our work on 
energy management and so-called ``smart grid'', as recently 
represented, for example, by the testimony of IBM's Allan Schurr to the 
Select Committee on Energy Independence and Global Warming\1\. It has 
also informed our work in the water management area to create large-
scale ``Smart Water'' solutions for the management of entire water 
resources (rivers, watersheds, aquifers) and water infrastructures, 
often using software and know-how derived originally from our smart 
grid work. Our experience has led us to the conclusion that water and 
energy issues are inextricably linked and that they need to be managed 
as such. They both require the application of ``smarter planet'' 
technologies referenced above to enable effective understanding of 
trends and issues, and thus to enable informed and effective decision-
making.
---------------------------------------------------------------------------
    \1\ Testimony of Allan Schurr, Vice President of Strategy and 
Development, IBM Global Energy and Utilities, before the Select 
Committee on Energy Independence and Global Warming Hearing on ``Get 
Smart on the Smart Grid: How Technology Can Revolutionize Efficiency 
and Renewable Solutions'', February 25, 2009
---------------------------------------------------------------------------
    The comments that follow focus primarily on the relationship 
between water and electricity generation. We have not focused on the 
use of water in creating transportation fuels (for example, the water 
requirements of fermentation-based methods for making bio-fuels), as 
these are not directly within our area of expertise.
                         water and electricity
    It is not the intention of this testimony to repeat the factual 
knowledge already available to the Committee, but some key points will 
serve to set the scene. First, electricity generation is dependent upon 
copious water availability, and is at risk when water resources fail:


  <bullet> Thermo-electric power generation, the backbone of America's 
        current energy supply, accounts for some 40% of all freshwater 
        withdrawals in the United States, roughly equivalent to water 
        withdrawals for agricultural irrigation\2\.
---------------------------------------------------------------------------
    \2\ ``Energy Demands on Water Resources--Report to Congress on the 
Interdependency of Energy and Water'', US Department of Energy, 
December 2006, page 9
---------------------------------------------------------------------------
  <bullet> Thermal generation is highly susceptible to water shortages. 
        In the summer of 2006, the Tennessee Valley Authority had 
        briefly to shut down its plant at Browns Ferry, Alabama, while 
        other plants (such as the Harris and McGuire plants in South 
        Carolina) came close to this. Plants in Spain and France were 
        also either shut down for up to a week in 2006, or operated on 
        reduced output\3\.
---------------------------------------------------------------------------
    \3\ These examples all relate to nuclear plants, which may be 
particularly susceptible to water shortages because of the very high 
volumes of water they use. The issue applies to all thermal generation 
however.
---------------------------------------------------------------------------
  <bullet> Hydropower generation is vulnerable to fluctuating water 
        levels, for example in 2001 when electricity output from the 
        Columbia River basin was cut to the point where activities such 
        as aluminum smelting were also curtailed.

    Second, water movement and treatment requires large amounts of 
energy:


  <bullet> Water movement and treatment in the US consumes some 100 
        million MW hours per year--this is approximately 3-4% of all 
        electricity generated nationwide. Of this, some 95% is used for 
        pumping\4\ \5\, and the balance used for water treatment. In 
        places energy needs are much higher--in California, for 
        example, due to the impact of that state's climate and 
        geography some 19% of its electricity is used to move or treat 
        water.\6\
---------------------------------------------------------------------------
    \4\ EPRI statistics quoted in ``Greenhouse Gas Reduction as an 
Additional Benefit of Optimal Pump Scheduling for Water Utilities'', S 
Bunn, 2007, page 4
    \5\ ``Energy Demands on Water Resources'', op cit, page 25
    \6\ ``California's Water Energy Relationship'', California Energy 
Commission, November 2005, page 8
---------------------------------------------------------------------------
  <bullet> Desalination of water, now being looked at as an 
        increasingly viable response to water shortages, is highly 
        energy intensive--taking from 9.8 to 16.5 KWh per thousand 
        gallons of fresh water produced from seawater and 3.9-9.8 KWh 
        per thousand gallons from brackish water, depending on the type 
        of process\7\. (To put that in perspective, the average 
        household water use for a family of 4 is about 280 gallons per 
        day\8\, and the average electricity consumption per household 
        is 29 KWh per day\9\. It can be seen that desalination will 
        represent a non-trivial increase in energy needs.)
---------------------------------------------------------------------------
    \7\ ``California's Water Energy Relationship, op cit, page 36
    \8\ http://www.drinktap.org/consumerdnn/Default.aspx?tabid=85 
(website produced by American Waterworks association)
    \9\ http://www.eia.doe.gov/emeu/reps/enduse/er01_us_tab1.html, data 
from 2001(website produced by Energy efficiency Administration)
---------------------------------------------------------------------------
    Third, demands on water availability from energy production are set 
to intensify, just at the time when water resources themselves are 
coming under stress


  <bullet> The Energy Information Administration has projected that, 
        absent significant energy conservation, energy demand will 
        increase by 50% over the 25 years from 2006\10\.
---------------------------------------------------------------------------
    \10\ Quoted in ``Energy Demands on Water Resources'', op cit, page 
10
---------------------------------------------------------------------------
  <bullet> Some renewable energy supplies, for example utility scale 
        solar thermal, also need water supplies for their operations. 
        Their targeted location in the arid Southwest US is problematic 
        for water availability.
  <bullet> Some regions have seen groundwater levels fall between 300 
        and 900 feet over the past 50 years as withdrawals have 
        exceeded natural recharge rates\11\ (with corresponding 
        increases in pumping energy requirements as water needs to be 
        lifted through ever greater heights).
---------------------------------------------------------------------------
    \11\ ``Energy Demands on Water Resources'', op cit, page 33
---------------------------------------------------------------------------
  <bullet> The growing interest in recycling water will probably 
        require more energy-intensive reverse osmosis filtration and 
        other types of water treatment, which will probably increase 
        the energy needs of water management.
  <bullet> While surface water withdrawals have remained relatively 
        constant over the last 20 years at around 260 billion gallons 
        per day, pressures to maintain stream flows for fisheries have 
        created severe contention for available water\12\ (for example 
        the Klamath, Sacramento, and San Joaquin Rivers in California), 
        while climate change is imposing considerable uncertainties 
        about future water availability patterns.
---------------------------------------------------------------------------
    \12\ ``Energy Demands on Water Resources'', op cit, page 31
---------------------------------------------------------------------------
  <bullet> While many thermo-electric plants return much of the water 
        they use, it is frequently warmer than when it was extracted, 
        which has sometimes severe impacts on local river ecosystems. 
        Intake pumps may also kill large numbers of fish, as was 
        recently declared for example at Indian Point nuclear power 
        station near New York\13\--cooling system amendments are 
        expected cost of the order of $1.6bn. It is also well 
        documented that dams for hydro-power can damage fish 
        populations.
---------------------------------------------------------------------------
    \13\ Ruling of New York State Department of Environmental 
Conservation, reported on August 26th 2008.
---------------------------------------------------------------------------
    Putting these facts together, the picture is, frankly, alarming. 
Electricity generation uses large amounts of water; moving water uses 
large amounts of energy; and demands for both energy and water are set 
to increase beyond the capacity of current water resources, and of the 
environment, to support them. The proposed Energy and Water Integration 
Act 2009 is therefore both relevant and timely.
    1managing energy and water: lessons from ibm's water and energy 
                         management activities
    This section sets out two examples from IBM's clients and our own 
operations, that offer lessons for managing the energy-water nexus.
Example 1: Island of Malta
    The Mediterranean island nation of Malta (population 400,000) 
depends on imported fossil fuel for its entire energy supply, while the 
country depends on electrically powered desalination for over half its 
water supply. Rising sea levels threaten its sub-surface water 
resources. IBM is working with EneMalta and the Water Services 
Corporation to enable the country to become the first in the world to 
build a nationwide smart grid and fully integrated electricity and 
water management system. The system will contain 250,000 interactive 
energy and water meters and thousands of sensors on both the energy 
grid and the water infrastructure to enable proactive management that 
anticipates problems, and optimizes water and energy supply together. 
The system will also provide Maltese citizens with better information 
on their water and energy consumption, enabling them to make better 
decisions about the resources they use.
    While Malta is a far smaller, more concentrated and more homogenous 
country than the USA, its overall problem will become increasingly 
familiar to certain communities in the US over time. There are 
accordingly a number of lessons from this work that the Committee may 
care to note. First, there is the notion that water and electricity 
generation should be managed increasingly as a single integrated 
system, given their interdependencies, based in Malta's case on active 
collaboration between the agencies concerned. In the US that would 
translate to collaboration on an area by area basis, but the principle 
would still stand. For example:


  <bullet> Water agencies would work to minimize their energy 
        consumption. This would almost certainly require new levels of 
        collaboration between agencies, given the high levels of 
        fragmentation that exist in the US water industry today.
  <bullet> Energy generators would continue to work with water agencies 
        to coordinate their intake and outfall requirements with other 
        demands on the water resource in question. For example, both 
        could work to integrate the data and models they use for 
        decision-making, to ensure decisions that they complement one 
        another.
  <bullet> Both would work together to promote joint conservation goals 
        and to establish in the minds of the public, business and 
        agriculture an understanding that ``water conservation is 
        energy conservation, and energy conservation is water 
        conservation''. Combined metering programs like Malta's would 
        be a good way to do that (as well as, potentially, a way to 
        share infrastructure and data, while reducing both costs and 
        inconvenience to homeowners and businesses).

    Second, the work in Malta will enable consumption information to be 
collected in much greater frequency and on a much finer spatial mesh, 
and distributed to a much wider selection of stakeholders than 
hitherto. This greater ``granularity'' of information is the key to 
effectively identifying consumption trends and issues, identifying 
resource losses and infrastructure malfunctions, and so enabling the 
effective co-management of the water and energy infrastructures on the 
island. The same applies here in the US:


  <bullet> Consistent adoption of advanced meter infrastructures for 
        energy and water throughout the US would increase the 
        granularity of usage information, and provide a platform with 
        which to understand and then influence demand levels (by 
        increasing consumer visibility into use patterns and by 
        enabling time differentiated pricing). It would also, in many 
        cases, reduce costs and increase water and energy agency 
        revenue by cutting down on losses, and because the newer meters 
        tend to be more accurate.
  <bullet> The same principle applies to our understanding of the 
        impact of energy generation on surface and groundwater 
        resources--more gauges, sensors and meters equate to better 
        understanding of the interactions, and thus better decisions, 
        especially if they are integrated to form a single sensing 
        infrastructure for each water resource. In practice, sensors 
        from various agencies operating on the same water resource 
        report separately--there is little integration; and the number 
        of flow gages in the US is currently decreasing, not 
        increasing\14\. If anything, therefore, the country is moving 
        in the opposite direction to that needed.
---------------------------------------------------------------------------
    \14\ For example, as reported to the Advisory Committee on Water 
Information, at its meeting of 2/10/09
---------------------------------------------------------------------------
Example 2: Energy ``Harvesting'' in IBM's Semiconductor Plants
    IBM manufactures semiconductors, which means that we use relatively 
large amounts of energy and water in each of our fabrication plants. 
The two are linked, because much of the water we use is ultra-pure 
(10,000 times purer than drinking water), having been treated by 
reverse osmosis filtration. This is very energy intensive (it is also 
the primary means of desalinating seawater and is the reason why that 
process is also very energy intensive).
    We have, however, become very effective at managing our water and 
energy consumption downwards. Taking our Burlington, VT plant as an 
example, between 2001 and 2007, we reduced our energy consumption from 
520 million to 450 million KWh per year--the savings are enough to 
power about 2,500 homes. Similarly in the same period we reduced our 
water usage from 4.5 million gallons of water per day to 3.5 million. 
These results were achieved despite the fact that product output 
volumes in the plant increased by 33% over the period in question.
    While industrial water usage is only 5% of the US total\15\, the 
methods we used to achieve these reductions are instructive in the 
context of the Committee's present interests. First, we systematically 
set out to harvest energy from the pressure and or temperature in water 
as it is used in the plant. For example, we systematically harvest 
temperature in water, via heat exchangers, for cooling purposes, while 
also recycling water as we do so. Over time this has allowed us to 
reduce energy and water consumption in tandem. We also use pressure 
from the public supply to provide at least some of the pressure needed 
for our water filters. Formerly, water came in from our supplier and 
was piped to a holding tank--all the pressure in the water was thereby 
lost, meaning that it had to be (expensively, and energy-intensively) 
re-pressurized to force it through the filter membranes. By working 
with the supplier to create a direct linkage from the water main to the 
filters, we saved significant amounts of energy and cost.
---------------------------------------------------------------------------
    \15\ ``Energy Demands on Water Resources'', op cit, page 18
---------------------------------------------------------------------------
    This is relevant to energy and water management in the USA as a 
whole, because large amounts of kinetic energy exist in the pipes and 
water-mains of the nation's water systems. For example, wherever 
pressure reduction valves are used today in water mains, it may be 
possible to replace these with reaction turbines that generate energy 
as they reduce the flow to the required pressure. The amounts of energy 
generated, especially in large, high pressure water mains, are not 
trivial--as long ago as 1998 2MW systems were operating in Scotland and 
Germany, and examples existed of water treatment plants being wholly 
self-powered in this way\16\. We have been unable to ascertain how 
systematically turbines of this type are deployed in the USA, but we 
recommend that this should be investigated. At the very least they may 
offer the potential to break or weaken the link between conventional 
energy availability and water movement and treatment.
---------------------------------------------------------------------------
    \16\ ``Pumps as Turbines and Induction Motors as Generators for 
Energy Recovery in Water Supply Systems'', AA Williams, NPA Smith, C 
Bird and M Howard, Water and Environment Journal, Vol 12, Issue 3, 
pp175-178, 1998
---------------------------------------------------------------------------
    Second, IBM takes great care to optimize the maintenance and 
operation of equipment in the plant, based on the ability to track 
energy consumption continuously, machine-by-machine. We do not believe 
that most water agencies operate in this way, especially with the 
operation of their pumps and valves. As noted above, water pumping uses 
about 3% of the nation's electricity output; regular optimization of 
pumps, valves and pumping schedules supported via commercially 
available software has demonstrated energy savings of 6-11% in 4 US 
water agencies (in some cases where extensive effort had already been 
expended on pump management), plus significant demand shifting from 
peak to off-peak electricity generation periods. If replicated 
nationally, the energy saving would be between 3 and 5.5 million MWh 
per year\17\.
---------------------------------------------------------------------------
    \17\ Bunn, op cit, page 8.
---------------------------------------------------------------------------
    Still on the subject of maintenance and optimization, an EU report 
estimated that in clean water, pump performance degrades by 1% per year 
(and faster in wastewater)--but that most water agencies, in Europe at 
least, do little to manage this. Reconditioning pumps, by polishing 
interior surfaces to remove roughness caused by degradation, was 
estimated to improve pump efficiency by 5-18%; matching pump wear and 
status to duty cycles can increase that figure to 10-20%\18\. Combining 
this with the figures in the previous paragraph suggests that, in 
principle, perhaps a quarter to a third of the total national 
electricity requirement for water movement could be saved from these 
sources alone.
---------------------------------------------------------------------------
    \18\ European Commission, ``Study on improving the energy 
efficiency of pumps'', February 2001, AEAT-6559/ v 5.1, quoted in L 
Reynolds and S. Bunn, ``Reducing Energy Demand in Water Supply through 
Real-Time Scheduling and Operation''--paper delivered to Aqua Enviro 
Conference, Birmingham, England, March 2008.
---------------------------------------------------------------------------
    Third, IBM's own management of water and energy relies on extremely 
detailed measurement. As stated, we track energy usage, continuously, 
by individual machine. We track water usage via sensors for key water 
parameters such as flow, temperature, pressure, organics, metals and 
particle content, collecting 400 million packets of data per day from 
5000 discrete points. In both cases we undertake regular trending and 
correlation analyses, and monitor processes via 80 statistical control 
points to ensure that process performance (including water and energy 
consumption) remains within the tolerances set.
    Again, while there may be specific exceptions, we do not believe 
that this level of detailed control is undertaken regularly in water 
operations; and while power generation is extensively instrumented, the 
general level of analytics is not as advanced as modern software tools 
would allow. It may be argued that controlling water and energy 
requires operations over a much larger physical area than a single 
plant; and that the value proposition for investing in controls of this 
type in the semiconductor industry is different than water or energy--
computer chips are relatively more expensive, especially given that 
water is not usually priced effectively in the first place. However, 
given the growing issues that the nation faces with its energy and 
water supplies, and thus their strategic value even if the financial 
value is not aligned, we believe that a move towards this type of 
control philosophy and technology is warranted.
         comments on text of energy and water integration bill
    Building on the arguments above, we have a number of comments to 
offer on the draft of the Bill. These comments should be taken in the 
context of IBM's strong support for the intentions of the Bill and are 
intended constructively. We will be happy to help frame specific 
provisions, if requested.
             water management practices, not just projects
    The Bill potentially offers an opportunity to establish sound 
energy management practices in the water industry. Section 4 of the 
present draft seems to focus on the energy impact of specific 
reclamation projects by Federal agencies, to the exclusion of the day-
to-day activities of state and local water agencies--which, we 
demonstrated earlier, can consume significant amounts of energy.
    We would therefore suggest supplementing the Federal project focus 
with a requirement for the National Academy of Sciences, working in 
cooperating with the water industry, to assess and confirm the 
potential benefit of energy and water management ``best practices'' at 
the state and local level such as pump optimization and scheduling; 
pump and valve maintenance; and energy harvesting, in particular from 
(but not restricted to) the use of turbines to replace flow reduction 
valves. There may well be other best practices that could be 
identified. The Bill should also call on the NAS to publicize its 
results to state and local water agencies, perhaps via the various 
water industry associations.
    In addition, while Section 6 addresses the issue of information on 
water related energy consumption in various sectors of industry, we 
suggest that the focus on state and local water agencies should be 
sharpened. This could be achieved by promoting energy used per gallon 
of water supplied, and each gallon treated, as a key performance metric 
for each water agency (making due allowance for the fact that wholesale 
and retail supply agencies will have different profiles). Energy 
directly generated by an agency from its own renewable sources or from 
its own harvesting of water pressure or temperature would be excluded--
the focus here is on energy supplied via the grid. With a common set of 
industry metrics, water agencies could then report to the Department of 
Energy on their energy usage, just as they report on water quality 
today to the EPA; league tables could then be published to encourage 
public review and cost improvement programs.
                   the role of information technology
    We have shown above and in other testimony to Congress\19\ how 
advanced information technology--metering and sensing, analytics, 
visualization--can improve the management of the energy grid, water, 
and the connections between them. The proposed Bill does not directly 
address the benefits potentially available from IT, and we therefore 
suggest supplementing the provisions in Section 7 as follows.
---------------------------------------------------------------------------
    \19\ Allan Schurr, op cit.
---------------------------------------------------------------------------
    The Bill should task the NAS with reporting to Congress on the 
information items required to make effective operational decisions on 
energy generation and energy and water usage, where that information 
should come from, and the obligations of various tiers of agency to 
make sure it is available.
    The NAS should also consider the technologies that might be 
required to generate the information in question. On this last point, 
we would anticipate that the NAS would look, as a minimum, at:


  <bullet> The potential role of advanced meter infrastructures for 
        water in assisting in the management of water and energy 
        demand, as well as in providing information to enable improved 
        operational decision making.
  <bullet> The role of optimization software for integrated energy and 
        water management in supporting decisions that balance energy 
        and water needs.
  <bullet> The recommendations for automated sensing of water quality 
        and flow around energy generation activities, to generate a 
        ``real time'' picture of the impact of those activities.
  <bullet> Information and data standards for using the information 
        generated.

    Focusing directly on water, we would also suggest that the NAS 
consider the scope to replicate appropriate smart grid concepts in 
water management across the nation. This would cover demand prediction, 
blending of water sources, optimal routing and storage strategies, 
optimal discharge rates and times, and so on--the point being that 
``optimal'' in this context includes energy consumption alongside water 
pressure, quality and other more traditional water agency concerns.
                               conclusion
    In summary, in this testimony we have sought to demonstrate the 
value of advanced information technology in improving day-to-day 
management decision-making on issues of energy and water management 
interdependence, and in enabling, in particular, the reduction in 
energy consumption by the water industry. We will be pleased to answer 
any follow up questions that the Committee may have on the comments we 
have made here.
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

    Responses of Peter H. Gleick to Questions From Senator Bingaman
    Question 1. Several of you talked about the opportunity to reduce 
energy consumption by reusing or conserving water. Mr. Bolze, your 
testimony specifically references that the U.S. presently reclaims and 
reuses 6% of its wastewater compared to other countries with much 
higher percentages.
    Can each of you comment on the magnitude of potential you see for 
significant water savings yielding significant energy savings in this 
country? Are we just at the tip of the iceberg with respect to the 
water & energy savings possible through water conservation efforts? Has 
any established entity quantified the potential?
    Answer. I know of no one who has quantified the potential for 
overall energy savings from improving water use efficiency, nationwide, 
but regional and local studies suggest that the savings are both 
significantly large, and cost-effective. A study done at the Pacific 
Institute offers some specific examples and numbers for the western 
United States. This study is available at:

    http://www.pacinst.org/reports/energy_and_water/index.htm.

    Question 2. As discussed today, one of the hurdles to coordinated 
energy and water policy is that energy policy is developed at a 
national level and water policies are more local and regional in 
nature.
    How much of an impediment is that to integrating energy and water 
policy and what other impediments do you see to this goal?
    Answer. While it is true that there is sometimes a mismatch between 
federal and local authority in the water/energy areas, there are 
important actions appropriate for the federal government to take. In 
particular, effective water efficiency and energy efficiency standards 
for appliances (such as those in the 1992 National Energy Policy Act) 
need to be updated. In addition, federal agencies such as the U.S. Army 
Corps of Engineers and the U.S. Bureau of Reclamation are responsible 
for significant local water management and they have both failed, to 
date, to integrate energy and water policies in their operations and 
management.
    Question 3a. You stated in your testimony that the California 
Energy Commission recently found that 95% of their desired energy 
savings could be achieved for roughly half the cost through water 
conservation programs instead.
    Do these programs focus on domestic water conservation or do they 
have industrial and agricultural components as well?
    Answer. The focus of the CEC energy estimates was overall water 
conservation and efficiency, but most of their analysis was addressing 
urban (residential, industrial, commercial, and institutional) water 
use. More effort needs to be put into evaluating savings in the 
agricultural sector (pumping and delivery, in particular).
    Question 3b. Follow-up: In terms of domestic water conservation, 
Dr. House recommended combining EPA's WaterSense program with DOE's 
EnergyStar program. What do you think of this, or similar strategies, 
which combine water and energy conservation efforts into single 
programs?
    Answer. I support far better integration of EPA's energy and water 
efficiency programs in order to both avoid duplication and to maximize 
benefits.
    Responses of Peter H. Gleick to Questions From Senator Murkowski
    Question 1. Please describe how the United States can satisfy all 
the expected water needs of newly proposed power plants, including 
concentrated solar, in arid and semi-arid regions.
    Answer. We cannot. Newly proposed power plants are proposed without 
considering water constraints. What this means is that some of those 
plants will not be built, or conflicts over water are growing. Another 
critical solution, however, is to require power plants with significant 
water demands to use ``dry cooling'' systems that use little water. I 
note that even though there was some discussion at the hearing about 
the water-intensity of solar thermal/concentrated solar, actual 
proposal for such plants are increasingly looking at ``dry cooling'' to 
reduce water demands enormously. Thus not ALL solar thermal uses a lot 
of water.
    Question 2. Are there any regions in the country that are not 
expecting a significant water problem in the next decade?
    Answer. All regions will have challenges, though not all regions 
with have scarcity. In some places, water problems will be associated 
with contamination and water quality, not quantity. The places with 
challenges will also be determined by future patterns of population 
growth and development, which are hard to forecast.
    Question 3. Please describe how policies aimed at climate 
mitigation and adaption may affect policies developed in the energy and 
water sectors, and, specifically, the energy-water nexus.
    Answer. Efforts to reduce greenhouse gas emissions must take into 
account water--such as the water for renewable energy systems 
(typically, but not always, less than from traditional power plants).
    Question 4. Please describe the impact on energy use with stricter 
treatment standards for water and wastewater. Are there any energy 
related tradeoffs that may occur with stricter treatment standards?
    Answer. There is a good chance that improving water quality 
standards and the development of new treatment systems will increase 
the energy ``footprint'' of water by moving to more energy intensive 
systems. Conversely, smart planning to decentralize new wastewater 
systems may lead to a decrease in energy requirements. The point is to 
plan in advance for the energy implications in order to avoid these bad 
tradeoffs and find the good ones.
    Question 5. Please describe the impact of energy policies and 
regulations on water demands and its availability.
    Answer. The key link, addressed in my written testimony and oral 
remarks, is the water demand for power plant cooling.
    Question 6. As we further examine the interrelationship between 
water and energy, what type of qualitative data do you believe is 
needed to better understand the connections to biodiversity and 
ecological health?
    Question 7. How can we encourage coordination and collaboration of 
research, development and policy efforts in the energy-water domain, 
with a view to cross-cutting learning?
    Answer. Absolutely: I strong urge better integration and 
coordination at the federal level among the diverse agencies involved 
in energy and water in the U.S.
    Question 8. Please describe the linkages between energy and water 
consumption, as a society becomes more affluent. How do measures to 
improve water use efficiency and energy efficiency correlate, as 
societies become more affluent?
    Answer. Some argue that as the economy grows, societies inevitably 
use more water and energy. This is not inevitable. Total water use in 
the United States has leveled off and even declined in the last two 
decades, while population and GNP have all risen sharply. Thus we must 
NOT assume that water demands and energy demands must rise forever--
indeed, resource, economic, and environmental constraints argue for 
improving efficiency and quality of life while minimizing waste and 
additional resource use.
    Question 9. Please describe how water resource constraints can 
become energy constraints.
    Answer. As described in my written testimony, limits on water can 
limit water available to cool power plants, which can lead to short-or 
long-term constraints on energy production. I offer several examples 
from the headlines of recent cutbacks in energy because of water 
scarcity.
    Question 10. Please describe how the California Energy Commission 
came to their number that 95% of the energy savings of proposed energy-
efficiency programs could be saved at 58% of the cost through water-
efficiency programs instead. How is California going to rethink the 
prioritization of funding energy efficiency projects in light of these 
numbers?
    Answer. This was work from the CEC and I recommend asking this of 
those authors.
    Question 11. How do you weigh the ecological impacts of seawater 
use for energy production verses inland facilities, that likely use 
fresh water?
    Answer. No good comparison has been done on this, but two reports 
address the ecological costs of desalination--one from the Pacific 
Institute; the other from the U.S. National Academy of Sciences. The 
Institute report is available here: http://www.pacinst.org/reports/
desalination/index.htm. The NAS report is available from the National 
Academy Press and is called ``Desalination: A National Perspective.'' 
This report offers explicit and valuable advice on appropriate (and 
inappropriate) national research priorities for desalination.
                                 ______
                                 
     Responses of Stephen Bolze to Questions From Senator Bingaman
    Question 1. Several of you talked about the opportunity to reduce 
energy consumption by reusing or conserving water. Mr. Bolze, your 
testimony specifically references that the U.S. presently reclaims and 
reuses 6% of its wastewater compared to other countries with much 
higher percentages.
    Can each of you comment on the magnitude of potential you see for 
significant water savings yielding significant energy savings in this 
country? Are we just at the tip of the iceberg with respect to the 
water & energy savings possible through water conservation efforts? Has 
any established entity quantified the potential?
    Answer. Based on what other countries have accomplished--and are 
setting out to accomplish--we believe that the United States can reuse 
significantly more water than it does today.
    We also believe that greater water reuse would translate into 
reduced energy consumption.
    Even though we are not aware of any entity that has quantified this 
potential, the WateReuse Association estimates that our nation can 
easily double the amount of water it is reusing between now and 2015 
(from 6% to 12%), based on current trends. In addition, with the advent 
of a 30% Investment Tax Credit, the percentage of reuse would almost 
certainly be much higher.
    Question 2. As discussed today, one of the hurdles to coordinated 
energy and water policy is that energy policy is developed at a 
national level and water policies are more local and regional in 
nature.
    How much of an impediment is that to integrating energy and water 
policy and what other impediments do you see to this goal?
    Answer. Energy and water policies are closely related, and policies 
developed in one of these areas--whether at a national or more local 
level--could affect the other.
    So, we believe that it is important to develop the policies in a 
coordinated way so as to avoid unintended consequences.
    With respect to the question of whether the national nature of 
energy policy and the more local nature of water policies is an 
impediment to a coordinated approach, we believe that this would be an 
appropriate topic for the NSA study envisioned by the Energy and Water 
Integration Act of 2009.
    Question 3. Increasing our reclamation and reuse of wastewater was 
recommended multiple times by this panel. You specifically mentioned 
Israel's impressive reuse rate of 70%.
    In addition to lack of incentives in the U.S., do you feel that 
public perception of so-called gray water is a barrier to its use?
    Answer. We have both industrial and municipal customers around the 
world. In our experiences with these customers, we have not seen a 
great level of concern about gray water on the industrial side. On the 
municipal side, however, we have seen concern about gray water reuse 
for drinking water and agricultural purposes.
    Therefore, we do think there's a real and meaningful opportunity to 
drive greater industrial water reuse via incentives.
    We have not formally evaluated the perception issues related to 
gray water, but we would refer you to the WateReuse Association, which 
we believe has done a lot of work in this area.
    Question 4. A recent by Ceres and the Pacific Institute stated that 
it is critical that companies begin to treat water risks as a strategic 
challenge. The report outlines the physical, reputational, and 
regulatory risks to businesses and investors associated with water 
scarcity.
    In addition to the GE's commitment to reduce water consumption by 
20% by 2012, what steps have you taken to analyze your water-related 
business risks?
    Answer. GE recognizes that it is important to evaluate water-
related business risks. Consequently, we consider near-and long-term 
water availability issues when we plan expansions both here in the 
United States and elsewhere in the world.
    Question 5. Your testimony indicates that financial incentives are 
necessary to drive greater water reuse in the U.S.
    Based on your understanding of the market, is it your sense that 
the relatively low-cost of water and the lack of a water supply crisis 
in certain regions of the country are resulting in less demand for 
water reuse systems in the short-term? Are companies and utilities 
starting to look at water and energy together in evaluating ways to cut 
costs
    Answer. Not all areas are water scarce, and even within water 
scarce areas, not all communities are experiencing water scarcity.
    Also, the economics vary widely depending on whether a customer is 
pulling water from a river or a municipal system, for example.
    But, we are convinced that a broad-based federal incentive that 
could be applied when and where it makes sense would definitely help 
drive much greater reuse.
    More specifically, we believe from our experiences with our tens of 
thousands of industrial customers that a 30% investment tax credit 
would drive substantial water reuse across our nation.
     Responses of Stephen Bolze to Questions From Senator Murkowski
    Question 1. Please describe how the United States can satisfy all 
the expected water needs of newly proposed power plants, including 
concentrated solar, in arid and semi-arid regions.
    Answer. A recent DOE-sponsored study looked at 110 new power plants 
proposed for construction in 2007 and found that municipal wastewater 
treatment plants located within a 25 mile radius from the proposed 
power plants could satisfy 97% of the new power plant cooling water 
needs.
    On average, one large wastewater treatment plant can completely 
satisfy the cooling demand for each of these power plants.
    In addition, wind and photo voltaic solar power generation 
technologies use essentially no water.
    Question 2. Are there any regions in the country that are not 
expecting a significant water problem in the next decade?
    Answer. Although we have not conducted an independent study of this 
issue, the sources we relied on in preparing our written testimony 
(GAO; WateReuse Association), suggest that water scarcity will play out 
in different ways in different parts of the country.
    In any event, the GAO 2003 map that we included in our written 
testimony shows that--at least at the local level--every region on our 
nation will likely experience some level of water shortages during the 
next decade.
    Question 3. Please describe how policies aimed at climate 
mitigation and adaption may affect policies developed in the energy and 
water sectors, and, specifically, the energy-water nexus.
    Answer. Energy, climate and water policies are closely related, and 
policies developed in any one of these areas could affect the other 
two. So, we believe that it is important to develop the policies in a 
coordinated way so as to avoid unintentional consequences.
    We also believe that this is an appropriate topic for the NSA study 
envisioned by the Energy and Water Integration Act of 2009.
    Question 4. Please describe the impact on energy use with stricter 
treatment standards for water and wastewater. Are there any energy 
related tradeoffs that may occur with stricter treatment standards?
    Answer. Although stricter standards may in some cases require 
greater energy, we believe that such energy demands can be minimized 
through concerted energy-water nexus research and development..
    Question 5. Please describe the impact of energy policies and 
regulations on water demands and its availability.
    Answer. Energy and water policies are closely related, and policies 
developed in one of these areas could affect the other. So, we believe 
that it is important to develop the policies in a coordinated way so as 
to avoid unintended consequences. We also believe that this is an 
appropriate topic for the NSA study envisioned by the Energy and Water 
Integration Act of 2009.
    Question 6. As we further examine the interrelationship between 
water and energy, what type of qualitative data do you believe is 
needed to better understand the connections to biodiversity and 
ecological health?
    Answer. We have not independently studied this issue, but we would 
refer you to the WaterReuse Foundation in hopes that they can provide 
you with this information.
    Question 7. How can we encourage coordination and collaboration of 
research, development and policy efforts in the energy-water domain, 
with a view to cross-cutting learning?
    Answer. The Federal government's role in providing structure and 
oversight will help accelerate new technology developments in a more 
coordinated way.
    However, if we want to truly accelerate technology development, it 
is going to take a community of government, the national labs, academia 
and industry working together.
    Industrial companies like GE have R+D pipelines and a direct path 
to market for new solutions.
    Working together with Federal government and other key 
stakeholders, we will have the community we need to successfully carry 
out a national clean water research and development initiative.
    We also believe that this would be an appropriate subject for an 
NSA study.
    Question 8. Please describe the linkages between energy and water 
consumption, as a society becomes more affluent. How do measures to 
improve water use efficiency and energy efficiency correlate, as 
societies become more affluent?
    Answer. It is generally understood that as societies become more 
affluent, the demand for water and energy becomes greater. And, as 
demand increases, so does the need for greater efficiency.
    Question 9. Please describe how water resource constraints can 
become energy constraints during the next decade.
    Answer. Energy and water are co-dependent. In simplest terms, 
energy is required for making water and water is required in the 
production of energy. Globally, the demand for both of these crucial 
resources is projected to grow at an alarming pace, with energy demand 
doubling and water demand tripling in the next 20 years.
    As we prepare to meet the future electricity demands here in the 
U.S., it is estimated that water demands related to electricity 
production will almost triple from 1995 consumption levels. In 
addition, the deployment of technologies to meet expected carbon 
emission requirements will increase water consumption by an additional 
1-2 billion gallons per day.
      Response of Stephen Bolze to Question From Senator Stabenow
    Question 1. Collocation of water treatment facilities and power 
plants. Mr. Bolze, you suggested in your testimony that there be 
incentives for municipal wastewater treatment plants to be built 
alongside power generation plants so that the wastewater can meet the 
cooling demand of the power plants. Could you explain the incentives 
and technologies this requires? Would such collocation also help to 
keep costs down for both facilities?
    Answer. Rather than municipal wastewater plants treating and 
discharging water back to a receiving stream, by adding an incremental 
treatment process, either at the wastewater plant or at the industrial 
plant, this water can meet the needs of many industrial processes, 
including power plant cooling.
    From an incentive standpoint, we believe that a 30% investment tax 
credit would enable all industrial water users--including power 
plants--to reuse significantly more water than they do today. We base 
this belief on feedback from our 50,000 industrial customers around the 
world.
    From a technology standpoint, greater reuse is achievable through 
chemical pre-treatment combined with advanced membrane-based 
technologies (microfiltration, nanofiltration, ultrafiltration, and 
reverse osmosis), and in some cases, advanced thermal technologies 
(Zero Liquid Discharge).
                                 ______
                                 
  Responses of Lon W. House, Ph.D., to Questions From Senator Bingaman
    Question 1. Several of you talked about the opportunity to reduce 
energy consumption by reusing or conserving water. Mr. Bolze, your 
testimony specifically references that the U.S. presently reclaims and 
reuses 6% of its wastewater compared to other countries with much 
higher percentages.
    Can each of you comment on the magnitude of potential you see for 
significant water savings yielding significant energy savings in this 
country? Are we just at the tip of the iceberg with respect to the 
water & energy savings possible through water conservation efforts? Has 
any established entity quantified the potential?
    Answer. Federal Facilities: Estimates of 24% of Federal water use 
can be saved using cost-effective, existing ``off the shelf'' 
technologies, primarily domestic water fixtures\1\. Even more can be 
saved using advanced technologies and improved process water using 
equipment such as cooling towers, steam systems, and irrigation. The 
GSA found that federal water conservation potential is estimated at 121 
million gallons per day\2\.
---------------------------------------------------------------------------
    \1\ ``Update of Market Assessment for Capturing Water Conservation 
Opportunities in the Federal Sector'', Pacific Northwest National 
Laboratory, PNNL-15320, August 2205
    \2\ Water Management Guide: A Comprehensive Approach for Facility 
Managers'' , General Services Administration, available at: http://
www.gsa.gov/gsa/cm_attachments/GSA_DOCUMENT/waterguide_new_R2E-c-t-
r_0Z5RDZ-i34K-pR.pdf
---------------------------------------------------------------------------
    Water Systems: The most promising areas for intervention within 
water supply systems are: improving the pumping system, managing leaks, 
automating system operations, and regular monitoring (preferably with 
metering of end use)\3\. While the water and energy savings are system 
specific (but can reach 30%), it should be noted that these 
improvements often pay for themselves in months, most do so within a 
year, and almost all recover their costs within three years.
---------------------------------------------------------------------------
    \3\ ``WATERGY: Energy and Water Efficiency in Municipal Water 
Supply and Wastewater Treatment'', The Alliance to Save Energy, 
February 2007.
---------------------------------------------------------------------------
    Customer Use: There are multiple state and regional estimates of 
water conservation potentials. In California, the state Department of 
Water Resources, in its current draft of the California Water Plan, is 
using estimates of agricultural water conservation savings potential of 
2 million acre-ft per year (with an investment of $75 million per 
year)\4\ and urban water savings potential of 2.1 million acre-ft per 
year (35% of total use)\5\.
---------------------------------------------------------------------------
    \4\ ``California Water Plan Update 2009--Draft'', Volume 2 Resource 
Management Strategies, Chapter 2, Table 2-2.
    \5\ ``California Water Plan Update 2009--Draft'', Volume 2 Resource 
Management Strategies, Chapter 3.
---------------------------------------------------------------------------
    Question 2. As discussed today, one of the hurdles to coordinated 
energy and water policy is that energy policy is developed at a 
national level and water policies are more local and regional in 
nature.
    How much of an impediment is that to integrating energy and water 
policy and what other impediments do you see to this goal?
    Answer. Appliances/Plumbing Fixtures: There are a number of 
federally regulated appliances or equipment in the water sector. 
``Federally-regulated commercial and industrial equipment'' is 
commercial and industrial equipment for which there exists a test 
method and an energy conservation standard prescribed by or under 
EPAct. ``Federally-regulated consumer product'' is a consumer product 
for which there exists a test method and an energy conservation 
standard prescribed by or under NAECA.
    One issue that should be addressed is the methodology on how the 
federal standards are established. EO 13211 requires federal agencies 
to conduct an analysis of energy and use it to develop a statement of 
energy effects in any proposed rulemaking. However, only direct energy 
use included. In particular, while energy savings are used in the 
determination of standards for hot water using appliances and equipment 
there is not a consideration of the energy savings associated with cold 
water savings (e.g., with toilets).
    Buildings: There are proposed green building ANSI standards 
including ASHRAE Proposed ANSI Standard 189.1P Standard for the Design 
of High-Performance Green Buildings Except Low-Rise Residential 
Buildings, GreenGlobes-Green Building Initiative (GBI) Proposed 
American National Standard 01-2008P, and Green Building Assessment 
Protocol for Commercial Buildings and National Association of Home 
Builders (NAHB) National Green Building Standard\6\.
---------------------------------------------------------------------------
    \6\ Alliance for Water Efficiency, available at: http://
www.allianceforwaterefficiency.org/Green_Building_Introduction.aspx
---------------------------------------------------------------------------
    Recycled/Reclaimed Water: Regulations on the use of recycled water 
vary across the U.S.A. There are no national standards. California has 
the most stringent regulations, as set by the Department of Public 
Health (``multiple barrier'' approach).
    The California State Water Resources Control Board recently adopted 
a Recycled Water Policy in which established goals to increase recycled 
water by an additional million acre-ft of water per year by 2020 and 
substitution of as much recycled water for potable water as possible by 
2030\7\.
---------------------------------------------------------------------------
    \7\ http://www.waterboards.ca.gov/water_issues/programs/
water_recycling_policy/docs/final_policy_021109.pdf
---------------------------------------------------------------------------
    It is important to note that water issues are generally local/
regional issues and there is a need to be able to respond to these 
issues on a much smaller scale than at the national level. The 
Association of California Water Agencies recently adopted water 
conservation and efficiency policy principles that state it succinctly:

          Water conservation and water use efficiency programs must 
        have the flexibility to adjust to widely varying local 
        circumstances. . . . Effective water conservation and water use 
        efficiency programs must be responsive to local circumstances, 
        including changing water supply sources, water uses and 
        demands, and water reliability challenges.''\8\
---------------------------------------------------------------------------
    \8\ ``Water Conservation and Water Use Efficiency Policy 
Principles'', Association of California Water Agencies, adopted March 
27, 2008.

    Question 3. While the majority of water-related electricity use is 
by end users to pressurize, heat, cool and condition the water, 
treatment of water is still a significant area of energy consumption. 
Programs which encourage water conservation can minimize costs of both 
drinking water and wastewater.
    Which treatment type--drinking water treatment or wastewater 
treatment--has the greatest potential for reduction of energy 
intensity?
    Follow-up: In addition to water conservation and efficiency 
programs, are there additional policies, incentives, or technologies 
that could further minimize either drinking water or wastewater 
treatment?
    Answer. There are two responses: improving the efficiency of the 
treatment process, and increasing the amount of renewable generation 
provided by the water/wastewater treatment facilities.
    Improve Treatment Efficiency: Water treatment facilities can 
decrease their energy use by 10-20% energy savings thru treatment 
process optimization and another 10-20% energy savings thru equipment 
modifications\9\. The following table* provides a summary of typical 
standard equipment and high-efficiency equipment available for water/
wastewater treatment systems\10\. Drinking water typically starts with 
cleaner water, but is generally treated to a higher quality (at least 
in the past). Wastewater is generally ``dirtier'' than fresh water when 
it starts the process, and the increased emphasis upon recycling water 
use generally makes the wastewater treatment slightly more expensive. 
However, as the industry shifts to lower quality water for potable 
water, the energy requirement differences between fresh and waste water 
are becoming increasingly blurred.
---------------------------------------------------------------------------
    * All tables and figures have been retained in committee files.
    \9\ ACEEE Water and Wastewater Energy Road Map, American Council 
for an Energy Efficient Economy, available at: http://www.aceee.org/
industry/water.htm.
    \10\ ``Municipal Water Treatment Plant Energy Baseline Study'' 
submitted to Pacific Gas and Electric Company by SBW Consulting, August 
28, 2006
---------------------------------------------------------------------------
    Increase Renewable Energy: Water/wastewater treatment facilities 
have several characteristics that make them ideal locations for certain 
types of renewable generation: they have a large amount of electricity 
use on site; they are comfortable with up-front capital expenditures 
for long lived projects; and they usually have a lot of open land 
available at the site (treatment facilities maintain a buffer of land 
around the treatment plant for aesthetic and siting purposes).
    Solar--most of the over 200 kW solar generation facilities in 
California are located at treatment facilities for the above mentioned 
reasons. Indeed, one of the criticisms of the current California solar 
program is that the renewable generation is limited to the amount of 
electricity the treatment facility uses annually. The water agencies 
have the space and inclination to install more solar generation if they 
could be compensated for the excess electricity generated.
    Biogas--shifting wastewater treatment from aerobic to anaerobic 
treatment systems allows the wastewater treatment facility to generate 
significant amounts of biogas (methane) for use in producing 
electricity (via internal combustion engines, microturbines, or fuel 
cells) and reduces the amount of natural gas used to keep their 
digester beds warm. In California, the majority of wastewater treatment 
facilities are using their own biogas for generation, and the remainder 
of the facilities are in the process of converting to biogas generation 
in order to meet Greenhouse Gas limit requirements. This biogas 
generation is not limited to municipal water treatment. Farms, dairy 
plants, and heavy industries could reduce or eliminate their energy 
bills by running their high-strength organic wastewater streams through 
treatment systems that generate methane biogas. In California, several 
of the electric utilities have contracts to purchase biogas generated 
by dairy farms and biogas produced electricity.
    Question 4a. You advocate the installation of Advanced Metering 
Infrastructure (AMI) as it is relatively inexpensive, and can provide 
cost savings through the rapid identification of water leaks.
    Can you estimate how expensive it would be to install such 
infrastructure throughout California?
    Answer. The investor owned electric utilities in the state are 
spending $4 billion on Advanced Meter Reading (AMR) / Advanced Metering 
Infrastructure (AMI) installations for their customers, so this may 
serve as a reasonable estimate (except that the electric utility 
systems are significantly more expensive that the AMR/AMI systems 
considered by the water systems). A lot of the AMR/AMI infrastructure 
is currently being installed in California water systems anyway. 
Through a California Energy Commission study it was determined that 
over one-half of the water agencies in the state have some level of AMR 
on their system, and for 34% of the water systems AMR is the 
predominant type of water meter\11\. Additionally, over 75% of the 
water systems in California are interested in adding more AMR or AMI to 
their systems in the next several years.\12\
---------------------------------------------------------------------------
    \11\ CEC 500-07-022
    \12\ House, L. W., ``Smartmeters and California Water Agencies: 
Overview and Status'', California Energy Commission, in press.
---------------------------------------------------------------------------
    Question 4b. Follow-up: Could cost-savings from improved leak 
detection and reduced system loss offset the price of AMI in a 
reasonable timeframe?
    Answer. Administrative impacts are currently the primary reasons 
for selecting AMR among the water systems in California. The 
overwhelmingly dominant benefit expected from AMR is reduced meter 
reading costs, followed by more efficient billing and increased 
customer service. Operational benefits: the use of AMR in conservation 
programs, loss detection, and in increasing safety/security for 
personnel followed administrative benefits as reasons for selecting 
AMR. The operational benefits from AMR are expected to change as 
systems become more familiar with the technology and due to changes in 
tariff design, as water conservation becomes increasingly more 
important in California and as more water systems switch from 
traditional tariff design to water budget tariffs.\13\
---------------------------------------------------------------------------
    \13\ Ibid.
---------------------------------------------------------------------------
    Question 5. Your testimony notes that a number of current financial 
incentives for renewable energy do not work for publicly-owned water 
systems.
    Notwithstanding that problem, have California water agencies 
proceeded with developing renewable energy supplies to integrate into 
their systems? If so, what benefits are driving this integration?
    Answer. Compensating Incentives for Non Tax Payers: In California, 
we have adjusted the financial incentives for solar installation to 
provide increased incentive levels for those customers who do not pay 
taxes and cannot take advantage of tax credits, as the following table 
shows. This table is the incentive payments for solar installations in 
California under the California Solar Initiative (CSI). Note that the 
payments are higher for government/non-profits to account for their 
lack of ability to take advantage of tax incentives.
    Power Purchase Arrangements: As the CSI rebates (above) continue to 
drop but the tax incentives do not, the water agencies in California 
are increasingly using Power Purchase Arrangements (PPA) as a means of 
procuring solar power rather than owning the solar systems themselves. 
Under a PPA, a water agency agrees to purchase electricity from a solar 
generation installation on its land. The owner of the generation 
equipment takes advantage of the accelerated depreciation and tax 
credits in determining the price of the electricity sold to the water 
agency.
    Remote Net Metering Programs: Allow renewable generation at one 
location to be credited against a portion of retail rates at another 
system location. California's Assembly Bill (AB) 2466 is called the 
Local Government Renewable Energy Self-Generation Program and is 
codified as Section 2830 of the Public Utilities Code. It allows 
government entities to generate renewable energy at one location, and 
have it credited against part (the generation part only) of retail 
rates at another location. It is still under development but the size 
limit of 1 MW and the inability to access any other incentives in the 
development of the renewable project are limiting its usefulness.
    Renewables Feed-In Tariffs: Provide a utility standard contract 
with specified renewable energy price. California's Assembly Bill (AB) 
1969 added Public Utilities Code Section 399.20, authorizing tariffs 
and standard contracts for the purchase of eligible renewable 
generation from public water and wastewater facilities. It has size 
limitations (1 MW) and the inability to access any other incentives in 
the development of renewable projects is resulting in less renewable 
generation that could be developed. However, several small in-conduit 
hydroelectric generation projects are being developed under this 
program.
 Responses of Lon W. House, Ph.D., to Questions From Senator Murkowski
    Question 1. Please describe how the United States can satisfy all 
the expected water needs of newly proposed power plants, including 
concentrated solar, in arid and semi-arid regions.
    Answer. Providing sufficient water for power plants that use 
significant amounts of water in arid/semi-arid regions of the country 
will continue to be a challenge (PV solar, certain types of 
concentrating solar such as the Stirling engines, and wind use 
negligible amounts of water in their operation).
    Water use for solar has become an issue in California. The Beacon 
Solar Energy Project is a proposed concentrated solar electric 
generating facility proposed on an approximately 2,012-acre site in 
Kern County, California. The project will use parabolic trough solar 
thermal technology to produce electrical power using a steam turbine 
generator (STG) fed from a solar steam generator (SSG). The SSG 
receives heated heat transfer fluid (HTF) from solar thermal equipment 
comprised of arrays of parabolic mirrors that collect energy from the 
sun.
    As the California Energy Commission Status Report #6 notes `` . . . 
one issue, use of potable water for power plant cooling, was 
highlighted in the Committee's scheduling order because `The Committee 
is interested in alternative cooling technologies and alternative 
cooling water sources that may be used at the plant to reduce the 
projects need for groundwater. . .''\14\
---------------------------------------------------------------------------
    \14\ available at: http://www.energy.ca.gov/sitingcases/beacon/
documents/index.html
---------------------------------------------------------------------------
    Question 2. Are there any regions in the country that are not 
expecting a significant water problem in the next decade?
    Answer. While there are the chronic water shortage problem areas 
such California and the desert Southwest, we are seeing water problems 
in areas that previously never experienced them, such as the Southeast. 
A recent article stated that 36 of the states are facing water 
shortages within the next decade\15\. Combine shortage problems with 
climate changes with current concerns about radionuclides and 
pharmaceuticals in the water and there are virtually no major areas of 
the country that are immune to water problems in the next decade.
---------------------------------------------------------------------------
    \15\ ``At Least 36 U.S. States Face Water Shortage'', by David 
Gutierrez, Natural News, March 31, 2008.
---------------------------------------------------------------------------
    Question 3. Please describe how policies aimed at climate 
mitigation and adaption may affect policies developed in the energy and 
water sectors, and, specifically, the energy-water nexus.
    Answer. In California, Green House Gas (GHG) emission targets are 
pushing water utilities to improve efficiency of operation (to reduce 
energy consumption), increase water conservation programs (to reduce 
water provided and the associated energy used), are converting 
wastewater treatment to biogas operation (to reduce methane emissions) 
and are increasing renewable generation, primarily solar and small 
hydroelectric.
    Question 4. Please describe the impact on energy use with stricter 
treatment standards for water and wastewater. Are there any energy 
related tradeoffs that may occur with stricter treatment standards?
    Answer. It is a truism that all of the increased treatment 
requirements increase energy use over past operations. As we control to 
lower and lower allowable limits, increase the number of contaminants 
treated for, and are investigating treating for even more problem 
chemicals such as radionuclides and pharmaceuticals, the treatment 
process and energy requirements for the treatment are increasing 
significantly. Combine increased treatment requirements for these 
contaminants with using poorer and poorer quality water for water 
supply (such as brackish or sea water) and in the next decade water 
systems are expected to add significant amounts of new electrical load 
as they access previously unused water sources and address increased 
treatment requirements\16\.
---------------------------------------------------------------------------
    \16\ House, L. W.2007. ``Will Water Cause The Next Electricity 
Crisis?'' Water Resources Impact 9 (1), January 2007.
---------------------------------------------------------------------------
    A recent AWWA article details the increased energy costs associated 
with water regulations, finding that the 18 National Primary Drinking 
Water Regulations adopted between 1975 and 2006 cost 1.8 billion kWh 
per year in increased energy use and an additional $187 million per 
year in costs.\17\
---------------------------------------------------------------------------
    \17\ ``Drinking Water Regulations: Estimated Cumulative Energy Use 
and Costs'', by S. J. Reiling, Journal AWWA, March 2009.
---------------------------------------------------------------------------
    Question 5. Please describe the impact of energy policies and 
regulations on water demands and its availability.
    Answer. The impact depends upon the generation technology used and 
the water used. Certain renewables such as PV solar and certain 
concentrating (non thermal) solar, wind, and hydroelectric generation 
do not materially impact water demands. If recycled water is used, the 
impact on fresh water is reduced. The largest geothermal generation 
field in the world, the Geysers in Northern California, is being 
``fueled'' by recycled water from the City of Santa Rosa. Many of the 
new generation facilities in California likewise are using recycled 
water.
    Question 6. As we further examine the interrelationship between 
water and energy, what type of qualitative data do you believe is 
needed to better understand the connections to biodiversity and 
ecological health?
          <bullet> The goal of Study 2 is to characterize and quantify 
        the relationships between water and energy use by water and 
        wastewater agencies, and to determine the range of magnitudes 
        and key drivers of embedded energy in water.

  Study 3: End-Use Water Demand Profile Study

          <bullet> Study 3 is designed to provide accurate hourly water 
        use profiles. End-use Water Demand Profile study measures cold 
        water demands of six end-use (customer) categories:

                    1. Residential (Normal and Low-income, Single-
                family)
                    2. Residential (Low-income, Multi-family)
                    3. Commercial
                    4. Industrial
                    5. Public Buildings
                    6. Agriculture

    The final analysis is the Embedded Energy in Water Pilot Programs 
measurement and verification. The focus is on verifying and quantifying 
the water and energy saved as a result of water-use reduction measures. 
There are a host of measures being tested, ranging from pH controllers 
to laundry ozone retrofits to high efficiency toilets to recycled water 
use to leak detection. These studies/programs are underway, and results 
expected in 2010.
    Question 7. How can we encourage coordination and collaboration of 
research, development and policy efforts in the energy-water domain, 
with a view to cross-cutting learning?
    Answer. Federal responsibility for water (primarily with the 
Environmental Protection Agency) and for energy (primarily with the 
Department of Energy) reside in different federal agencies (the 
Department of Interior is heavily involved with water supply and energy 
in the western states).

    --Joint studies and research on the water and energy can be 
            initiated
    --These agencies should be required to address both water and 
            energy as part of their on-going mandate (the EPA should 
            evaluate energy impacts when developing water policy and 
            regulations and the DoE should address water impacts of 
            energy policy and regulations).

    There is considerable value associated with developing the science, 
research, and monitoring techniques to address new generation products, 
and associated water pollution before the fact, as opposed to investing 
in costly remedial work after the water has become contaminated. 
California has initiated a Green Chemistry Initiative which seeks to 
eliminate or reduce the use of toxic substances in products and 
manufacturing processes rather than managing wastes at the end of a 
product's lifecycle\19\ that could be followed on a national level.
---------------------------------------------------------------------------
    \19\ http://www.dtsc.ca.gov/PollutionPrevention/
GreenChemistryInitiative/index.cfm.
---------------------------------------------------------------------------
    Question 8. Please describe the linkages between energy and water 
consumption, as a society becomes more affluent. How do measures to 
improve water use efficiency and energy efficiency correlate, as 
societies become more affluent?
    Answer. Energy use tends to increase with increasing affluence. 
Water use tends to increase initially with a rise in affluence, and 
then stabilize. It is axiomatic that water consumes energy and energy 
consumes water. Saving water will save energy, but saving energy does 
not necessarily save water. These two resources have fundamentally 
different characteristics that influence policy decisions.
    --There are very limited sources of additional fresh water 
            available (primarily desalinization of sea water) but there 
            are a host of options available for the creation of 
            electricity.
    --As stated in my previous testimony, water conservation tends to 
            result in more consistent and stable savings as compared to 
            energy conservation, primarily because new technologies are 
            constantly being developed to use electricity. The energy 
            use in California has tracked the population growth, while 
            water use has remained flat for the last 30 years.
    --Water issues tend to be localized (or regionalized) while energy 
            concerns tend to be more national (the price and 
            availability of oil has national implications while the 
            price and availability of water in Los Angeles primarily 
            concerns Los Angelians.

    In my opinion, the water crisis is a more pressing matter than the 
energy crisis, because there are fewer options available to address it.
    Question 9. Please describe how water resource constraints can 
become energy constraints.
    Answer. Depending on the type of cooling tower, the cooling process 
for thermal electrical generators can account for up to 90%-95% of 
total plant water use\20\. However, there are options that can 
significantly reduce the amount of fresh water used in electricity 
production. As the following table shows, two states, Florida and 
California, have the majority of power plants using reclaimed water\21\ 
with Texas close behind.
---------------------------------------------------------------------------
    \20\ ``Comparison of Alternate Cooling Technologies for California 
Power Plants'', California Energy Commission. 2002, CEC500-02-079F
    \21\ ``Use of Reclaimed Water for Powerplant Cooling'', Argonne 
National Laboratory, ANL/EVS/R-07/3, August 2007.
---------------------------------------------------------------------------
    On June 19, 1975, amid concerns about the diminishing availability 
of fresh water in California, the State Water Resources Control Board 
(SWRCB) adopted its ``Water Quality Control Policy on the Use and 
Disposal of Inland Waters Used for Powerplant Cooling'' (Resolution 
No.75-58)\22\. Resolution 75-58 states that from a water quantity and 
quality standpoint, the source of power plant cooling water should come 
from the following sources (in order of priority): (1) wastewater being 
discharged to the ocean, (2) ocean water, (3) brackish water or natural 
sources of irrigation return flow, (4) inland wastewaters of low total 
dissolved solids (TDS), and (5) other inland waters. Where the SWRCB 
has jurisdiction, use of fresh inland waters for power plant cooling 
will be approved by the Board only when it is demonstrated that the use 
of other water supply sources or other methods of cooling would be 
environmentally undesirable or economically unsound. Additionally, 
California Water Code Section 13550 et seq. requires the use of 
effluent for industrial purposes, especially for cooling, where it is 
available. In 1997, the siting agency in the state, the California 
Energy Commission (CEC), and the SWRCB entered into a Memorandum of 
Understanding in order to coordinate the review of projects for which a 
regional water quality control board or the SWRCB have authority.
---------------------------------------------------------------------------
    \22\ www.swrcb.ca.gov/plnspols/wqplans/pwrplant.doc
---------------------------------------------------------------------------
    The use of dry cooling versus wet cooling for power plant 
operations has the following impacts:

    --the use of dry cooling reduces plant water requirements by about 
            90%,
    --an associated increased plant capital cost of about 5% to 15% of 
            the total plant cost for the dry cooling system,
    --energy out reductions of 1% to 2%, and
    --capacity reduction of 4% to 6%.\23\
---------------------------------------------------------------------------
    \23\ ``Cost and Value of Water Use at Combined-Cycle Power 
Plants'', California Energy Commission, CEC-500-2006-034, April 2006

    Question 10. What percentage of water used in California comes from 
reused water?
    Answer. Currently 6% of the water use in California is from 
reclaimed water, but that percentage is projected to increase to 20% in 
the next two decades. The following table lists recycled water use in 
California in 2002.
    Recycled water use has increased sharply since 2000, in part due to 
the increased use by electric power plants.
    The state water plan developed by the Department of Water 
Resources, the California Water Plan\24\, lists 1,670 acre-ft per year 
of recycled water in its future portfolio of available water for 
consumption.
---------------------------------------------------------------------------
    \24\ http://www.waterplan.water.ca.gov/
---------------------------------------------------------------------------
    Question 11. Please explain the energy requirements of reused water 
compared to freshwater use in California, particularly in southern 
California.
    Answer. While there is a considerable range in the energy 
requirements of fresh water, recycled water tends to have a much 
narrower spread, as the following table illustrates\25\.
---------------------------------------------------------------------------
    \25\ ``California's Water--Energy Relationship'', California Energy 
Commission, CEC-700-2005-011-SF, November 2005.
---------------------------------------------------------------------------
    As the following table\26\ shows, for the Inland Empire Utilities 
Agency, recycled water has the lowest energy intensity of any of the 
water sources available. This relationship is typical for water 
agencies in Southern California.
---------------------------------------------------------------------------
    \26\ Ibid.
---------------------------------------------------------------------------
    Question 12. How do the figures for water reuse compare to other 
states, and or nations with limited water supplies?
    Answer. The majority of water reuse in the U.S. occurs in four 
southern and western states. As the response to Question 9 states, the 
water reuse in these states is driven not only by a shortage of fresh 
water, but also by the extensive use of reclaimed water for power plant 
use.
    Question 13. How do you weigh the ecological impacts of seawater 
use for energy production verses inland facilities, that likely use 
fresh water?
    Answer. For humans, fresh water is more valuable that salt water. 
As stated in response to Question 9 above, it is very difficult to site 
a power facility inland in California that uses fresh water without 
going to some alternative form of cooling or water. California is also 
in the midst of evaluating a ban on once through cooling for power 
plants located on the coast due to its environmental impact.\27\
---------------------------------------------------------------------------
    \27\ http://www.waterboards.ca.gov/water_issues/programs/npdes/
cwa316.shtml
---------------------------------------------------------------------------
   Response of Lon W. House, Ph.D., to Question From Senator Stabenow
    Question 1. Water scarcity in non-arid regions. When we talk about 
water supply, we often think immediately of California and the arid 
Southwest. Yet the groundwater situation around the Great Lakes is poor 
and we're facing major groundwater depletion around population centers 
like Chicago, Milwaukee, and Detroit. Furthermore, those areas have 
faced additional pressure on supply due to compacts with Canada 
restricting water extraction from the Great Lakes. I have also been 
told that in Michigan, a power plant application was denied due to lack 
of water availability. Could you expand upon this a bit more, to 
explain why the Great Lakes region also requires better water 
efficiency, although one might not realize it?
    Answer. Clean fresh water is a premium resource. The use of such a 
valuable resource to carry heat away from a power plant may not be the 
highest and best use, particularly when there are a number of 
alternative ways to either produce the power or dispose of the heat.
    Even in areas of perceived water abundance such as the Great Lakes 
area, there is conflict over water policy and use\28\. In 2008, the 
governments of the eight states in the Great Lakes basin adopted the 
Great Lakes--St. Lawrence River Basin Water Resources Compact (the 
Compact)\29\, which was recently ratified by the federal government to 
finalize the agreement\30\. The Compact puts strict limits on water use 
in an attempt to minimize future threats to the region\31\. One of the 
major objectives of the Compact is water conservation and efficiency 
goals and programs. These goals and programs are attempts to minimize 
water use and create sustainable use of the water within the Great 
Lakes area.
---------------------------------------------------------------------------
    \28\ ``The Great Lakes Water Wars'', by Peter Annin, Island Press, 
August 2006.
    \29\ ``The Great Lakes-St Lawrence River Basin Water Resources 
Compact'', Final Report, August 15, 2007.
    \30\ Signed October 3, 2008, by President Bush. The U.S. House of 
Representatives voted to approve the Compact by a 390 to 25 vote on 
September 23rd. The U.S. Senate approved the Compact on August 8, 2008.
    \31\ The Compact prohibits all new or increased diversions from the 
Basin
---------------------------------------------------------------------------
                                 ______
                                 
       Responses of Carl Bauer to Questions From Senator Bingaman
    Question 1. The Energy-Water Research & Development Roadmap process 
was initiated in 2005 at the request of Congress, and 5.531 directs DOE 
to complete the process. What is the current status of the Roadmap, and 
when do you anticipate its completion?
    Answer. DOE participates in the energy-water nexus team, a 
collaborative effort among many DOE National Laboratories. The team 
conducted a series of roadmapping workshops and examined issues at the 
nexus of energy and water. A Roadmap has been completed in ``final 
draft'' form and is being reviewed and refined by DOE Headquarters.
    Question 2. Your testimony notes that combining IGCC with carbon 
capture and storage (CCS) technologies results in a generating facility 
with a greatly reduced carbon footprint and relatively low water 
consumption. Taking into account electricity output, carbon footprint, 
and consumptive water use, is it your view that future research and 
development efforts should focus on combined IGCC-CCS facilities if we 
are trying to integrate energy and water policies?
    Answer. While IGCC may offer significant advantages over the 
existing fleets' aging pulverized coal technology in terms of its 
efficiency, ability to capture carbon, and water consumption, it is not 
a universal solution. IGCC is primarily an option applicable to new 
coal-fired power plants; however, the existing fleet of approximately 
300 GW will likely be with us for a long time. Therefore, more 
affordable, efficient carbon capture and storage (CCS) technology 
applicable to these existing pulverized coal (PC) plants needs to be 
developed, such as post-combustion carbon capture and conversion of PC 
plants to oxy-combustion technology.
    For the same reason, it is important for DOE to continue its CCS 
water management research effort that is applicable to both IGCC and PC 
power plants. As stated in the testimony, an IGCC power plant's water 
consumption is approximately 40 percent less than that of a subcritical 
PC power plant without CCS. NETL analyses indicate that using current 
near-commercial CCS technologies on PC plants would more than double 
the amount of water consumed per unit of electricity generated. While 
the water consumption for IGCC with CCS also increases, IGCC still has 
a comparative advantage, with water consumption significantly lower 
than that of post-combustion CCS technologies.
    It should also be noted that the comparison of IGCC to PC 
technology is site specific. For new coal plants using Western coals at 
high altitudes, the cost differences between IGCC and supercritical 
pulverized coal (PC) combustion are relatively small. For example, for 
IGCC at 5000 feet site elevation, the air density is down by 13 
percent, causing IGCC gas turbine generator output to be reduced by 13 
percent, and also impacting gas turbine efficiency, as well as the 
efficiency of the air separation unit. As a result, at high altitudes, 
the cost advantages of supercritical PC with CCS over IGCC may heavily 
influence the choice of technology, if adequate supplies of water are 
available.
    Question 3. Your testimony provides valuable information about the 
current energy/water R&D efforts taking place at NETL, specifically as 
they relate to carbon capture and storage, and the impacts of CCS on 
water availability and quality. Can you comment on other R&D activities 
throughout DOE that relate to the energy/water nexus?
    Answer. While the Office of Fossil Energy and NETL have been 
actively pursuing water R&D specific to CCS, as outlined in my 
testimony, the amount of R&D in the Department of Energy targeted 
specifically at water issues has been limited. Water technology 
development opportunities tend to be relatively low risk, incremental 
change, with incentives for the private sector from regulatory drivers. 
However, the Department has aggressively pursued development of 
renewable energy technologies, such as solar and wind, that have very 
low consumptive water requirements, which will be an important option 
for our energy future, particularly in water-limited areas.
    Question 4. Current carbon capture technologies would increase 
freshwater withdrawal and consumption by fossil-based power plants. You 
state that pulverized coal plants that capture 90% of carbon emissions 
use twice as much water per unit of electricity generated. Can you 
provide more details on how this additional water is consumed, and 
potential areas for reducing water consumption in the CCS process?
    Answer. The additional water consumed for a pulverized coal-fired 
power plant with CCS is due primarily to the increased cooling duties 
of the CCS process. In general, as the cooling duty of the wet 
recirculation cooling system increases, more water is consumed by 
evaporation. In particular, the following three factors increase the 
duty of the cooling system: (1) additional cooling capacity for the 
further cooling of the flue gas before it enters the CCS process; (2) 
additional cooling water to cool the absorption solvent; and (3) 
cooling water to remove heat from the compression stages of the 
CO<INF>2</INF> compressor.
    Furthermore, these additional loads also lower the power output of 
the plant, resulting in less net electricity generation. For example, 
if CCS were added to a subcritical power plant originally designed to 
provide 550-MW-net power, it would deliver approximately 15 percent 
less electricity to the grid. The lower net output and higher 
consumptive water use results in the marked increase in water 
consumption on a net output (gal/MWh net) basis.
    DOE is directing research at advanced CCS technologies that have 
the potential to reduce water use. Dry and hybrid cooling technologies 
can also be incorporated into CCS plant designs--although at added cost 
and reduced performance--to lessen the load on the cooling tower and 
therefore reduce water consumption.
    Question 5 One of the primary goals of this legislation is to 
integrate decision-making related to energy and water. The policy and 
regulatory framework for these resources is currently under the purview 
of a variety of agencies at the federal, state, and local levels. 
Recognizing that allocating and managing water typically falls under 
state jurisdiction, what role can the federal government, through the 
Departments of Energy, play in the successful integration of energy and 
water policy?
    Answer. The Department of Energy's (DOE's) role is focused on the 
development of advanced energy system technology to meet cost, 
greenhouse gas (GHG) emissions, water use, and environmental goals. It 
is important that the selection and development of these advanced 
technologies be guided by achieving energy and water goals. This 
understanding is gained through integrated energy system analyses that 
provide an understanding of the life-cycle cost, water requirements, 
and environmental impacts of an energy system. The DOE is implementing 
technology R&D and systems analysis projects that will provide 
technology and understanding to support the states in their planning, 
allocation, and management of water resources. The DOE must take an 
active role in disseminating these results to regulators and other 
Federal, state, and local agencies, as well as to the general public. 
DOE will continue to work very closely with other agencies where they 
have the lead role in setting regulations. An example is the recent 
work where DOE worked closely with the Environmental Protection Agency 
as they developed their proposed rule for carbon dioxide geologic 
sequestration wells in the Underground Injection Control Program under 
the Safe Drinking Water Act. That draft rule was published by EPA in 
July 2008.
       Responses of carl Bauer to Question From Senator Murkowski
    Question 1. Please describe how the United States can satisfy all 
the expected water needs of newly proposed power plants, including 
concentrated solar, in arid and semi-arid regions.
    Answer. Satisfying the expected water needs of newly proposed power 
plants requires an understanding of each region's situation. Two 
important parameters to be considered include the current and 
forecasted competing needs for water (e.g., public, electric power, 
agriculture, industry) in a region, and the cost and performance of 
technology choices for that region. The DOE is carrying out R&D on a 
wide range of advanced technologies for electric power focused on 
minimizing water requirements. These technologies range from advanced 
integrated coal gasification fuel cell plant concepts that have minimal 
water consumption requirements, since they do not utilize a steam 
turbine cycle, to the use of solar energy systems with essentially no 
water consumption. DOE also carries out systems studies to analyze the 
integration of an electric power energy system concept into the 
region's requirements and constraints. Satisfying expected water needs 
also requires a long-term view. This perspective is provided through an 
understanding of the life-cycle cost, water requirements, and 
environmental impacts of an energy system.
    Question 2. Are there any regions in the country that are not 
expecting a significant water problem in the next decade?
    Answer. There is data that suggests that all regions of the 
continental United States are at risk of strain on freshwater 
resources. As described in a 2003 GAO survey (GAO-03-514), water 
managers of nearly every state indicated that under average water 
conditions, some degree of potential freshwater shortage is likely in 
the coming decade. Since then, many regions have experienced drought 
conditions, particularly the arid West and Southeast, and are presently 
experiencing acute water availability issues.
    Credibly projecting future water problems requires adequate 
estimates of freshwater supplies and future water needs of competitive 
water-use sectors. DOE collects design and operating data for the 
existing fleet of thermoelectric power plants. In DOE systems analyses, 
detailed water balances are evaluated for conventional and advanced 
coal-based technologies including carbon capture. Based on these 
analyses and Energy Information Administration (EIA) annual projections 
of future energy supply and demand, DOE estimates water needs for a 
range of future energy scenarios, including scenarios with carbon 
constraints. EIA's recent trend for forecasting new thermoelectric 
power generation, through 2030, has been to show declines in demand, 
due, in part, to increased reliance on efficiency and demand response. 
This is tending to alleviate the concern for related increases in water 
demand from the power sector. While these projections provide future 
water demand of only one water-use sector, these results still indicate 
that the Southeastern and Southwest regions are most at risk for an 
increase in water use by this sector. However, all regions show 
increased water consumption, and given the 2003 survey results provided 
by GAO, suggest that all regions continue to be at risk for water 
problems in the coming years. It is difficult to project future water 
problems, given uncertainties associated with climate change impacts on 
precipitation patterns, changes in energy production/generation in 
response to climate regulations, and other regional factors such as 
population growth and shifts in regional domestic, industrial, or 
agricultural water demand. As such, the Department recognizes the 
importance to accurately characterize the water requirements of various 
energy technologies to aid in answering questions related to water 
demand over the next decade.
    Question 3. Please describe how policies aimed at climate 
mitigation and adaption may affect policies developed in the energy and 
water sectors, and, specifically, the energy-water nexus.
    Answer. In general, policies aimed at climate mitigation will raise 
the cost of energy. As that cost rises, the cost of treating water, 
both for drinking and for reuse or disposal, will rise. Given the 
population increase in the Desert Southwest, for example, relatively 
costly schemes for desalination of brine for human use will become even 
more costly, as these technologies are energy-intensive. In addition, 
the use of carbon capture and sequestration (CCS) at fossil plants, 
whether coal or natural gas, requires incremental energy capacity and 
water for the added process. In cases where the water used must be 
reclaimed, as in California, the process will become even more energy 
intensive. Nuclear plants, which may become more desirable due to their 
low carbon footprint, consume even more water per unit of energy 
produced than a fossil-energy plant with CCS. In non-drought afflicted 
areas, such as the Midwest and Mid-Atlantic, the cooling water 
requirements of CCS are not an issue with respect to water 
availability, most of the time. However, clean air and clean water 
policies sometimes conflict. For example, the installation of 
SO<INF>2</INF> scrubbers leads to more water discharges from power 
plants. For pulverized coal plants, this issue would be exacerbated by 
CCS retrofits, as the scrubber must be larger to more stringently 
remove sulfur. In addition, for reliability, large-scale renewable 
energy requires an almost equivalent matching amount of simple-cycle 
gas turbines, likely without CCS. Such turbines will be run 
inefficiently to account for wind variability and/or run intensively 
during peak demand periods when the wind capacity factors are low, such 
as the month of August. New baseload power--either fossil with CCS or 
nuclear--brings along increased water needs and must be dealt with to 
help make energy supply more reliable.
    Question 4. Please describe the impact on energy use with stricter 
treatment standards for water and wastewater. Are there any energy 
related tradeoffs that may occur with stricter treatment standards?
    Answer. Stricter treatment standards for water and wastewater could 
have the potential to impact energy use. Energy requirements for water 
supply and treatment range broadly from 1,900 to 23,700 kWh per million 
gallons of water. Whether stricter treatment standards would require 
significant levels of additional energy use would likely be project-
specific and dependent on the methods of treatment required to meet 
this standard. For example, chemically-based treatment systems could 
require minimal energy use, compared to filtration-based treatment 
systems, such as reverse osmosis, which require significant energy use.
    Question 5. Please describe the impact of energy policies and 
regulations on water demands and its availability.
    Answer. It is estimated that the deployment of carbon capture 
systems using today's pulverized coal technology would approximately 
double the water consumed per Megawatt-hour generated by pulverized 
coal power plants. NEIL has initiated an aggressive RD&D program to 
significantly improve the overall technical and economic performance of 
CO2 capture technology that would result in a reduction in the water 
consumption. Using IGCC technology with CCS--building on the existing 
gasification and CCS technology used at the Dakota Gasification 
Company's Beulah, North Dakota facility--would significantly reduce the 
water consumption.
    In general, where water availability is an issue, power plant use 
of water will be an issue. A similar statement may be made with respect 
to water quality. Nonetheless, it bears repeating that power 
consumption of water is quite small relative to agriculture and public 
consumption. Broadly speaking, current Federal energy policy affects 
water demand in the following ways: the ethanol mandate increases water 
demand because ethanol plants are very water intensive; a new Phase II 
of Rule 316(b) of the Clean Water Act could increase water consumption 
due to the construction of recirculating systems to replace or 
substitute for once-through systems, and natural gas production leads 
to produced water that may affect groundwater quality. At the present 
time, current state-level regulations and permitting practices have a 
larger effect on power plants and associated water demands than do 
Federal ones, since states have jurisdiction over siting. Advancing 
renewable portfolio standards in many states could reduce the use of 
water, as both wind and biomass use is less water-intensive in 
generation than coal or natural gas. However, this will come at a 
tradeoff with cost and reliability, and, in the case of biomass, water 
benefits may be partially offset on a life-cycle basis by increased 
irrigation.
    Question 6. As we further examine the interrelationship between 
water and energy, what type of qualitative data do you believe is 
needed to better understand the connections to biodiversity and 
ecological health?
    Answer. We believe that it would be valuable to quantify how 
different types of ecosystems and water flows react to changing land 
use for energy applications. The development of interagency 
collaboration between Federal agencies with expertise in energy-related 
water and biodiversity systems--as well as with state energy, 
environmental, climate, and geological agencies--would be necessary in 
that regard. DOE currently participates in a number of inter-agency 
working groups organized around issues (and technologies) of interest 
that crosscut the missions of participating departments. Creating a 
focus for more formal coordination among Federal departments and state 
agencies who share a common interest could be a first step in fostering 
the more effective stewardship, production, and use of energy resources 
and force a broader view of the interrelationship of energy, water, 
biodiversity, and the planet's ecological health.
    Question 7. How can we encourage coordination and collaboration of 
research, development and policy efforts in the energy-water domain, 
with a view to cross-cutting learning?
    Answer. Coordination and collaboration needs to play a vital role 
in addressing the complex interactions among energy, water, and the 
environment in the United States. DOE actively collaborates with other 
parties from industry, academia, state, and other Federal departments 
in analyzing and attempting to mitigate the impact of energy production 
on water supply.
    Question 8. Please describe the linkages between energy and water 
consumption, as a society becomes more affluent. How do measures to 
improve water use efficiency and energy efficiency correlate, as 
societies become more affluent?
    Answer. Energy consumption is correlated with affluence for poor 
and mid-income countries, but amongst more affluent countries there is 
less correlation between wealth and energy consumption. Enhanced water 
quality comes from not only the direct reduction of pollution but also 
at the cost of greater energy intensity for water treatment. Therefore, 
enhanced water-use efficiency will offset a portion of that increased 
energy intensity. Refurbishing existing fossil plants to higher 
efficiency levels would immediately reduce energy intensity per gallon 
used. Greater end-use efficiency of lights and appliances and buildings 
may reduce the growth in consumption of energy and therefore of water 
associated with energy production.
    Question 9. Please describe how water resource constraints can 
become energy constraints.
    Answer. Water constraints can most certainly lead to energy 
constraints. Most existing baseload generation is thermoelectric 
(nuclear and coal) and hydro. Without adequate water resources, these 
plants cannot operate at full capacity. Any water restrictions could 
cause a unit to reduce its output or temporarily go offline, as seen in 
the summer of 2007 and described below. Satisfying peak energy demand 
during a sustained drought can be especially difficult. Unfortunately, 
drought conditions and peak energy demand usually occur at the same 
time.
    A February 19, 2009, report, Thirsty Energy: Water and Energy in 
the 21g Century, by the World Economic Forum and Cambridge Energy 
Research Associates (CERA) describes the problem (page 30): ``Although 
power plants are not generally charged for water, their permits 
designate the amount of water they are allowed to remove and consume 
from a water body and the quality of the water that must be returned to 
the water body, including a maximum temperature. The amount of water 
the power plant is allowed to withdraw or consume is based on providing 
enough water for all uses, including maintaining the environmental and 
ecological quality of the water source.''
    In times of severe stress, the availability of water for power 
plant usage becomes an issue. For example, the recent drought in the 
Southeast during the summer of 2007 forced a Southeast U.S. power 
company to reduce power for some of their units and take other units 
offline at times to comply with temperature discharge restrictions.
        Response of Carl Bauer to Question From Senator Stabenow
    Question 1. Interoffice coordination on water efficiency at DOE. 
What is the Department's approach to the impact of energy production on 
water? In the various offices that focus on nuclear power, fossil 
fuels, and EERE (including both renewable energy and biofuels), are 
there synergies work together to share information and implement policy 
to improve water efficiency in energy production?
    Answer. Coordination and collaboration plays a vital role in 
addressing the complex interactions among energy and water in the 
United States. DOE actively collaborates with other parties from 
industry, academia, state, and other Federal departments and national 
laboratories in analyzing and attempting to mitigate the impact of 
energy production on water supply. Statutorily, the Environmental 
Protection Agency, through the Clean Water Act, Safe Drinking Water 
Act, and Resource Conservation and Recovery Act, has regulatory 
authority for water issues on the federal level. The US DOE, however, 
is often part of relevant interagency review processes, such as review 
of Section 316B of the Clean Water Act, which regulates Cooling Water 
Intake Structures. As you suggest, synergies do exist between thermal 
power generation technologies (fossil and nuclear) regarding their 
water usage requirements and the potential for alternative cooling 
approaches.
    The DOE actively researches energy-water issues associated with 
coal plants. Other DOE Offices, such as EERE, are developing energy 
technologies that require very little water for power generation. DOE's 
national laboratories also collaborate in ongoing research efforts, for 
studying the impacts of power technologies upon water systems. A 
valuable ongoing collaboration is DOE's participation in what is known 
as the Energy-Water Nexus Team--a multi-laboratory team consisting of 
12 National Laboratories and the Electric Power Research Institute 
(EPRI). The Energy-Water Nexus Team has hosted several regional needs 
assessment workshops and more focused workshops on gaps analysis and 
technology innovations. These workshops have involved wide 
representation from government, industry, interested organizations, and 
academia, and have provided input and perspectives on emerging regional 
and national energy and water needs and challenges, as well as energy 
and water science and technology research directions.
                                 ______
                                 
   Responses of Michael E. Webber to Questions From Senator Bingaman
    Question 1. Several of you talked about the opportunity to reduce 
energy consumption by reusing or conserving water. Mr. Bolze, your 
testimony specifically references that the U.S. presently reclaims and 
reuses 6% of its wastewater compared to other countries with much 
higher percentages.
    Can each of you comment on the magnitude of potential you see for 
significant water savings yielding significant energy savings in this 
country? Are we just at the tip of the iceberg with respect to the 
water & energy savings possible through water conservation efforts? Has 
any established entity quantified the potential?
    Answer. It is my determination that water conservation is fertile 
territory for the nation to save both water and energy. We have much 
further to go in terms of conservation. The water and wastewater sector 
is responsible for 3% of the nation's electricity use. Residential 
water heating is responsible for another 3-4% of the nations' 
electricity use. Combining all other end-uses and forms of energy, it's 
likely that water consumption is responsible for at least 10% of the 
nation's energy consumption. Therefore, reducing water consumption can 
have significant cross-over benefits for energy consumption. Please 
note that it would be valuable to quantify these magnitudes more 
precisely. Regional studies (e.g. for the state of California) have 
already been performed, but a national estimate has not been conducted 
to my knowledge.
    Question 2. As discussed today, one of the hurdles to coordinated 
energy and water policy is that energy policy is developed at a 
national level and water policies are more local and regional in 
nature.
    How much of an impediment is that to integrating energy and water 
policy and what other impediments do you see to this goal?
    Answer. The mismatch in policymaking and regulatory structures for 
water and energy creates important hurdles for formulating integrated 
energy-water policies. For example, no agency is responsible for water 
quantity at a federal level (the EPA is responsible presumably for 
water quality), which complicates the policymaking for water issues 
that span municipalities, counties, or states. If several local 
governments wish to take a watershed approach to resource management, 
it would be useful for them to have federal agencies to work with, akin 
to the energy industry, which has the FERC, DoE, and others. Other 
impediments include the mismatched market structures. Energy markets 
are becoming deregulated and competitive, whereas most water markets 
remain controlled by government monopolies, and so the policy context 
in which they operate are different.
    Question 3. In your testimony, you mention that the current trend 
in energy production, with the exception of wind, solar, and low-
irrigation biofuel crops is moving us toward more water-intensive 
energy sources. This is especially true for transportation fuels as we 
explore the use of domestically available unconventional fossil fuels, 
and irrigated biofuel crops.
    Which energy sector--electricity generation or transportation fuel 
production--do you feel has the greatest potential to reduce its water 
intensity in the near term?
    Follow-up: What emerging energy technologies have the greatest 
potential to achieve water savings, and what is necessary to encourage 
broader deployment?
    Answer. The electricity sector has greater ability to change its 
water use in the near term because they have several cooling options 
available. Power plants that use once-through cooling can switch to 
cooling towers. Power plants that use cooling towers (with water) can 
switch to those that are either dry-cooling towers that use air, or 
hybrid towers that use a combination of air and water. Because these 
technologies already exist and have been demonstrated, it is easier for 
them to make the switch (though there might be significant capital 
costs or parasitic losses to efficiency from cooling techniques that 
are less water-intensive). For the transportation fuels industry, the 
key breakthrough would be developing biofuels that require much smaller 
water inputs per unit of useful energy that is produced, primarily by 
switching away from energy crops such as corn, which are particularly 
water-intensive. These breakthroughs might be in the realm of 
bioengineering, genetic modifications, catalytic conversion techniques, 
and so forth. In addition, conservation technologies are particularly 
valuable and cost-effective.
    Question 4a. You state in your testimony that the transition to new 
fuels might increase water consumption from one trillion gallons per 
year to a few trillion gallons of water per year.
    Is there any future scenario where water use might actually be 
reduced in the transportation sector, such as a significant transition 
to hybrid or plug-in hybrid vehicles with a large increase in 
renewable-based electricity generation, particularly wind?
    Answer. Widespread electrification of the transportation sector 
along with a shift towards electricity sources that do not require much 
water (natural gas, solar PV, wind, etc.) could reduce the amount of 
water that is used for transportation fuel production. Staying with a 
conventional mix of petroleum-based gasoline and diesel, but using less 
of it through stricter fuel economy standards and reductions in vehicle 
miles traveled, could also lessen the total amount of water required 
for transportation fuels production.
    At the hearing, there was discussion about solar thermal, and how 
much water it consumes relative to coal, natural gas, and nuclear 
generation.
    Question 4b. Can you provide additional information on that subject 
for the record?
    Answer. Most power plants that use heat to generate steam require 
cooling, and that cooling is usually provided by water. Nuclear, coal, 
natural gas, oil and solar thermal (concentrating solar power) power 
plants all use water for cooling, except for a few instances where dry 
cooling is used instead. Tables 1.1 and 1.2 below (from ``The Energy 
Water Nexus in Texas,'' by Ashlynn S. Stillwell, et al., April 2009), 
compare the water requirements for different fuels and cooling methods. 
Concentrating solar power (CSP) has similar water requirements as solar 
power, withdrawing approximately 840 gallons of cooling water per MWh 
of electricity that is generated, and consuming the same amount. CSP 
withdraws less water than typical nuclear power plants, but consumes 
more. CSP uses more water than both coal and natural gas. Solar PV and 
wind use much less water.
    The references for Tables 1.1 and 1.2 are as follows:

          17. Goldstein, R. and W. Smith. electric Power Research 
        Institute. Water & Sustainability (Volume 3): U.S. Water 
        Consumption for Power Production--The Next Half Century. 
        1006786. Palo Alto, CA, March 2002.
          25. National Renewable Energy Laboratory. Parabolic Trough 
        Power Plant System Technology.Online. Available: http://
        www.nrel.gov/csp/troughnet/power plant systems.html. 
        Accessed:October 13, 2008.
          26. Gleick, Peter H. ``Water and Energy.'' Annual Review of 
        Energy and the Environment, vol. 19, (1994), pp. 267-299.
          27. Woods, Mark C., et al. National Energy Technology 
        Laboratory. Cost and Performance Baselinefor Fossil Energy 
        Plants, Volume 1: Bituminous Coal and Natural Gas to 
        Electricity. Pittsburgh,PA, August 2007.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
   Responses of Michael E. Webber to Questions From Senator Murkowski
    Question 1. Please describe how the United States can satisfy all 
the expected water needs of newly proposed power plants, including 
concentrated solar, in arid and semi-arid regions.
    Answer. The water needs for new power plants in arid and semi-arid 
regions might be met by: 1) using dry-or hybrid wet-dry cooling instead 
of traditional water cooling, and 2) using reclaimed water for cooling.
    Question 2. Are there any regions in the country that are not 
expecting a significant water problem in the next decade?
    Answer. Water scarcity and abundance is inherently geographic in 
nature, and predicting the future of this resource is fraught with 
error. However, generally speaking the Pacific Northwest, upper Midwest 
and Northeast are more water-rich than the rest of the nation. Other 
regions are prone to droughts or perpetual scarcity.
    Question 3. Please describe how policies aimed at climate 
mitigation and adaption may affect policies developed in the energy and 
water sectors, and, specifically, the energy-water nexus.
    Answer. Because water and energy are inherently linked, there are 
synergies from conservation. That is, water conservation will 
automatically cause energy conservation, and energy conservation will 
cause water conservation. Consequently, policies that promote energy 
conservation for the same of climate mitigation are also likely to 
achieve water conservation. Conversely, policies that promote water 
conservation are also likely to achieve energy conservation, which is 
good for climate mitigation.
    Question 4. Please describe the impact on energy use with stricter 
treatment standards for water and wastewater. Are there any energy 
related tradeoffs that may occur with stricter treatment standards?
    Answer. Water and wastewater treatment require energy. As we 
tighten environmental standards for water and wastewater treatment, 
there might be energy impacts, in that more advanced treatments 
typically require more energy. However, water and wastewater treatment 
becomes more efficient each year, and so it's not clear whether the 
pace of tightening treatment standards will outpace efficiency gains. 
Furthermore, there are many opportunities for reducing energy demands 
by the water and wastewater sectors, for example by capturing and using 
bio gas produced from anaerobic digestion of sludge and retrofitting 
plants with the most efficient pumps and blowers.
    Question 5. Please describe the impact of energy policies and 
regulations on water demands and its availability.
    Answer. Many energy policies affect water demands. The push for 
nuclear power, solar CSP, coal-to-liquids, and biofuels might increase 
demand for water. The push for wind, solar PV and conservation might 
reduce demand for water. These contrasting policy directions will 
surely affect water availability, though these effects will inherently 
be geographic in nature, depending on where the power or fuels 
production takes place.
    Question 6. As we further examine the interrelationship between 
water and energy, what type of qualitative data do you believe is 
needed to better understand the connections to biodiversity and 
ecological health?
    Answer. Generally, quantitative data would be more valuable than 
qualitative data. Getting additional data on water resources to match 
the fidelity of data on energy would be very valuable. Right now, data 
collections related to water resources and use re sparse, often 
inaccurate, and typically out of date.
    Question 7. How can we encourage coordination and collaboration of 
research, development and policy efforts in the energy-water domain, 
with a view to cross-cutting learning?
    Answer. There are many opportunities to coordinate and collaborate 
on the scientific and R&D aspects of the energy-water nexus. Right now, 
no federal agency has clear responsibility for this issue, and 
consequently the science is not coordinated. It's likely that OSTP can 
play a positive role in coordinating the scientific program of the 
energy-water nexus. USGS can play a leading role in collecting, 
maintaining and distributing relevant data related. Other agencies such 
as NASA can also contribute critical information through its remote 
sensing capabilities.
    Question 8. Please describe the linkages between energy and water 
consumption, as a society becomes more affluent. How do measures to 
improve water use efficiency and energy efficiency correlate, as 
societies become more affluent?
    Answer. As developing societies become more affluent, their energy 
and water consumption grow considerably, as we are seeing worldwide 
today. The story is more complicated for industrialized societies. As 
industrialized societies become more affluent, their overall energy and 
water use per unit of economic activity often drops, primarily because 
energy-and water-intensive industries (such as manufacturing) get 
replaced with different sectors that use less water and energy (such as 
finance or other service sectors). In addition, affluent societies are 
better able to afford efficient technologies, thereby sparing some 
water and energy consumption. However, a counter-trend to the society-
wide change in water and energy use is that as individuals become more 
affluent, they tend to consume more energy (to air condition large 
homes, for example) and water (because they eat more meat). It's not 
always clear whether the growth in individual energy and water 
consumption will outpace or match the lessening energy- and water-
intensity of industry. Consequently, the net effect is sometimes 
difficult to predict.
    Question 9. Please describe how water resource constraints can 
become energy constraints.
    Answer. Because the power sector (and increasingly, the fuels 
production sector) requires so much water, water constraints can become 
energy constraints. For example, droughts might limit the availability 
of cooling water for power plants. If the water levels in a reservoir 
drop below intake pipes to cooling systems, then power plants might be 
forced to shut down. In addition, heat waves, which raise the 
temperature for surface water sources, might restrict the total output 
from power plants if they are bound by thermal pollution limits. That 
is, power plants cannot return their cooling water to the source at a 
temperature that induces harm to the ecosystem. If the cooling water 
starts off at a higher temperature, then the power plant has less 
cooling capacity available, and thus might be forced to dial down its 
output. In this way, droughts and heat waves introduce water 
constraints that can become energy constraints.

                      <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
